<html>
<title> - IMPLEMENTATION OF THE HEALTHY FORESTS RESTORATION ACT</title>
<body><pre>[Senate Hearing 109-506]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-506
 
         IMPLEMENTATION OF THE HEALTHY FORESTS RESTORATION ACT

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                        PUBLIC LANDS AND FORESTS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                                   on

     THE IMPLEMENTATION OF PUBLIC LAW 108-148 (THE HEALTHY FORESTS 
                            RESTORATION ACT)

                               __________

                             JULY 19, 2006


                       Printed for the use of the
               Committee on Energy and Natural Resources






                    U.S. GOVERNMENT PRINTING OFFICE

31-389 PDF                  WASHINGTON : 2006
------------------------------------------------------------------
For sale by Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800;
DC area (202) 512-1800 Fax:  (202) 512-2250. Mail:  Stop SSOP, 
Washington, DC 20402-0001



               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
LARRY E. CRAIG, Idaho                JEFF BINGAMAN, New Mexico
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
LAMAR ALEXANDER, Tennessee           BYRON L. DORGAN, North Dakota
LISA MURKOWSKI, Alaska               RON WYDEN, Oregon
RICHARD BURR, North Carolina         TIM JOHNSON, South Dakota
MEL MARTINEZ, Florida                MARY L. LANDRIEU, Louisiana
JAMES M. TALENT, Missouri            DIANNE FEINSTEIN, California
CONRAD BURNS, Montana                MARIA CANTWELL, Washington
GEORGE ALLEN, Virginia               KEN SALAZAR, Colorado
GORDON SMITH, Oregon                 ROBERT MENENDEZ, New Jersey
JIM BUNNING, Kentucky
                     Bruce M. Evans, Staff Director
                   Judith K. Pensabene, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                                 ------                                

                Subcommittee on Public Lands and Forests

                    LARRY E. CRAIG, Idaho, Chairman
                  CONRAD BURNS, Montana, Vice Chairman
CRAIG THOMAS, Wyoming                RON WYDEN, Oregon
JAMES M. TALENT, Missouri            DANIEL K. AKAKA, Hawaii
GORDON SMITH, Oregon                 BYRON L. DORGAN, North Dakota
LAMAR ALEXANDER, Tennessee           TIM JOHNSON, South Dakota
LISA MURKOWSKI, Alaska               MARY L. LANDRIEU, Louisiana
GEORGE ALLEN, Virginia               DIANNE FEINSTEIN, California
                                     MARIA CANTWELL, Washington

   Pete V. Domenici and Jeff Bingaman are Ex Officio Members of the 
                              Subcommittee

                Frank Gladics, Professional Staff Member
                    Scott Miller, Democratic Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bingaman, Hon. Jeff, U.S. Senator from New Mexico................     2
Bosworth, Dale, Chief, U.S. Forest Service, accompanied by Gail 
  Kimbell, Regional Forester, Missoula, MT.......................    18
Burns, Hon. Conrad, U.S. Senator from Montana....................     3
Craig, Hon. Larry E., U.S. Senator from Idaho....................     1
DeIaco, Rick, Director of Forestry, Village of Ruidoso, Lincoln 
  County, NM.....................................................    40
Domenici, Hon. Pete V., U.S. Senator from New Mexico.............    11
Feinstein, Hon. Dianne, U.S. Senator from California.............     6
Hatfield, Nina Rose, Deputy Assistant Secretary, Policy, 
  Management and Budget, Department of the Interior..............    12
Jensen, Jay, Executive Director, Council of Western State 
  Foresters, Lakewood, CO........................................    71
Johnson, Hon. Tim, U.S. Senator from South Dakota................     4
Koehler, Matthew, Executive Director, WildWest Institute, 
  Missoula, MT...................................................    47
MacLeod, Colleen, Commissioner, Union County, OR, on behalf of 
  the National Association of Counties...........................    66
Murkowski, Hon. Lisa, U.S. Senator from Alaska...................     8
Salazar, Hon. Ken, U.S. Senator from Colorado....................     9
Smith, Hon. Gordon, U.S. Senator from Oregon.....................     5
Wyden, Hon. Ron, U.S. Senator from Oregon........................     3

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    81

                              Appendix II

Additional material submitted for the record.....................    89


         IMPLEMENTATION OF THE HEALTHY FORESTS RESTORATION ACT

                              ----------                              


                        WEDNESDAY, JULY 19, 2006

                               U.S. Senate,
          Subcommittee on Public Lands and Forests,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:04 a.m., 
Dirksen Senate Office Building, Senator Larry E. Craig 
presiding.

  OPENING STATEMENT OF HON. LARRY E. CRAIG, U.S. SENATOR FROM 
                             IDAHO

    Senator Craig. Good morning everyone. The Subcommittee on 
Public Lands and Forests will convene. Let me thank you all for 
being here this morning. I am reading from the National 
Incident Information Center's report as of yesterday morning. 
Year to date total, four million two hundred eighty-one 
thousand eight hundred and twenty-five acres burned. That's 
nearly double the 2000 fire season and the 10-year average. I 
think it's important that that be noted as we begin a 
discussion this morning and take testimony on the 
implementation of the Healthy Forest Restoration Act of 2003. I 
guess my point is that the situation that we have on our 
forested public lands of the Nation has not improved, in fact 
it may appear to have worsened if you look at those numbers. 
And I certainly want to welcome you Chief Dale Bosworth, thank 
you for being here. Nina Rose Hatfield, from the Department of 
the Interior, thank you. In addition, I would like to welcome 
our four public witnesses for testimony today, Rick DeIaco who 
is the village forester for the village of Ruidoso, New Mexico. 
The Honorable Colleen MacLeod, commissioner, from Union County, 
Oregon. Matt Koehler, executive director of WildWest Institute, 
Missoula, Montana and the executive director for the Council of 
Western State Foresters, Jay Jensen.
    Before I begin I want to take a moment to remember two 
brave young men from Idaho who died 3 years ago this Saturday, 
fighting the Cramer Fire. Jeff Allan of Salmon, Idaho, and 
Shane Heath of Melba, Idaho lost there lives trying to save our 
public lands from a catastrophic wildfire in the Salmon-Challis 
National Forest. Both men were experienced fire fighters and 
part of the Indianola Helitack Crew. This tragic loss of these 
two men continues to be felt throughout there communities and 
there selfless acts of true bravery will not be forgotten. I 
commend the men and women who risk there lives every day and 
that is what's going on out in California as we speak, to this 
terribly dangerous job. But I also commend them for their 
courage and their professionalism.
    Thousands of young men and women are at the fronts of the 
wildfires that are sweeping across the West as we speak. As we 
enter mid fire season with the devastating heat that we are 
currently experiencing, the West that I live in and that many 
live in will increasingly worsen as the fire conditions 
tragically improve. It is also about 3 years ago Congress 
passed the Healthy Forest Restoration Act. We authorized the 
treatment of twenty million acres in hopes of reducing fuels in 
overstock stands that are too dangerous to be reintroduced to 
prescribe fire. We also authorized the bill to address 
hazardous fuels in the Wildland Urban Interface zones to 
increase the safety of the people who live in the Wildland 
Urban Interface and for fire fighters that are forced to defend 
these critical areas. I have to tell you, initial 
implementation progress is a disappointment to me. But I 
recognize that the agency's accomplished 30 percent more thus 
far this year than they did in fiscal year 2005 and I applaud 
the effort. Even if the two agencies can manage to maintain a 
30 percent increase above what was accomplished in previous 
years it will be 2028 before we complete the 20 million acres 
hoped for in the Healthy Forest Restoration Act. I'm not 
convinced that our forest and firefighters can hold out that 
long and may I say, nor can the Federal budget afford what we 
are currently involved in. I hope that you will help us 
understand what additional accountability performance measures 
will help maintain and increase the progress we've accomplished 
from 2005 to 2006. And I'm interested in learning how we can 
move to get more fuel removed through mechanical treatments. If 
that means you need additional congressional help or changes to 
the existing authorities now is the time to let us know what 
you think you need.
    We will make both your written and oral testimonies as part 
of our record of this hearing and we will keep the record open 
for 10 days so that additional information can be submitted for 
the record. And I want to thank all of you for coming out this 
morning.
    Someone I've worked closely with on these issues is my 
colleague and ranking member, Senator Ron Wyden of Oregon. Ron 
and I now struggle as part of an authorizing effort to find the 
money to increasingly build the budgets of the Forest Service 
and the Interior as it relates to fire fighting, and that money 
is hard to come by, because as I mentioned today it's more than 
four million acres burned thus far this year. And it's nearly 
doubled the 10 year average. With that let me turn to my 
colleague Senator Wyden, Ron.
    [The prepared statements of Senators Bingaman and Burns 
follows:]
 Prepared Statement of Hon. Jeff Bingaman, U.S. Senator From New Mexico
    Thank you for holding this hearing, Mr. Chairman, I would like to 
briefly say a few things.
    First, I'd like to offer a special welcome to Rick DeIaco, who will 
be testifying on the second panel today. Rick is the Village Forester 
for Ruidoso, New Mexico, which is one of the most at-risk communities 
in the nation. He is highly respected in the State and has a real on-
the-ground view of how things are working, so I look forward to his 
testimony.
    According to the material provided by the agencies for this 
hearing, there really has been very little accomplished on the ground 
under HFRA to date. Deputy Under Secretary Dave Tenny was quoted in the 
papers just a few months ago as saying that HFRA had not ``come on-
line'' yet. There are probably a number of reasons for this--some 
legitimate, some maybe not. But the simple fact is that the agency has 
broad authorities to accomplish this work, and they continue to rely on 
other authorities for the vast majority of it.
    My main concern is not whether HFRA is the tool of choice to 
implement projects, but whether the right work is getting done in the 
right places. Instead of using that as the yardstick, the driving force 
behind the fuels reduction program are the directives from the 
Washington Office to continually increase the raw number of acres 
treated. That in turn pushes managers to treat the easiest and cheapest 
acres to meet their targets, instead of focusing on the highest 
priority acres. We have heard about this problem from communities 
around the country that are frustrated by the lack of focus on high-
priority acres and we have heard from independent panels that say it is 
leading to the unnecessarily high costs of fire suppression. And we 
will hear more about it at today's hearing.
    Of course, one of the underlying reasons for this misplacement of 
priorities is that there continues to be a lack of adequate funding to 
get the work done--whether under HFRA or any other authority. This is, 
without question, the primary impediment to getting this work done on 
the ground. We have over a million acres of NEPA-ready fuels-reduction 
projects in New Mexico, Arizona, and Colorado alone, most of which sit 
idle because of a lack of resources.
    HFRA came with the promise of significant additional resources for 
this work--a promise that I don't think has been kept.
                                 ______
                                 
   Prepared Statement of Hon. Conrad Burns, U.S. Senator From Montana
    Mr. Chairman, thank you or holding today's hearing on the 
implementation of the Healthy Forest Restoration Act.
    Mr. Chairman your opening remarks were very complete, and I agree 
with the points you raised. I do want to point out how timely this 
hearing is. In Eastern Montana as of last night, July 18th we currently 
have 12 active large wildfires, we have sketchy reports of a new fire 
threatening structures near Drummond, MT that developed late yesterday. 
At this time over 300 structures are threatened by these fires, and 
sadly 7 structures including two homes have been lost to these fires. 
With more timely fuels reduction work may be these tragic loses could 
have been avoided.
    To be effective we need good legislation providing direction and 
effective tools to the land management agencies for fuels reduction. We 
need an infra-structure/industry in place in the States to accomplish 
the work on ground. We need strong communities engaged on the 
management of the public lands that surround them. We need to support 
these communities to help build and maintain an effective network of 
first responders and fire fighters. Today we are talking specifically 
about the legislation that provides the direction and tools to the land 
management agencies. But we can not lose sight of how important the 
other components are to be effective.
    When all of these factors come together our rural communities will 
be safer from the dangers of wildland fires. The work to make the 
communities safe can be an economic benefit to the communities. We will 
have indirectly helped lowered the upward spiraling cost of fire 
suppression. The public land we are entrusted to manage will be less 
susceptible to damaging wildfires.
    I look forward to hearing from all the witnesses about how the 
legislative direction and tools we have provided are being used.

           STATEMENT OF HON. RON WYDEN, U.S. SENATOR 
                          FROM OREGON

    Senator Wyden. Thank you, Mr. Chairman. I commend you for 
an excellent statement and as always working with me in a 
cooperative kind of fashion. I think we all remember that when 
this legislation--Healthy Forest Legislation--came over from 
the House it couldn't move here, it didn't have the votes to 
move ahead but a number of colleagues I see Senator Feinstein 
here, Senator Smith, you, a number of us went to work and we 
produced 80 votes for that legislation, a historic--a historic 
coalition that no one could have envisioned. You have said that 
the implementation of the law concerns you that you're not 
happy with the progress. I will say that this is light years, 
the implementation this law is light years away from the U.S. 
Senate view of what was to be done under the legislation. It 
was envisioned for example that we where going to see work on 
20 million acres in terms of hazardous reduction.
    Since the passage of the legislation using the definitions 
under the law only 77,368 acres have been treated. So that 
means that only 1 percent of the 20 million acre goal has been 
attained and by my calculations if you go to a back of the 
envelope kind of calculation it's going to take the 
administration more than 200 years to carry out the law. The 
members of this committee wouldn't see this act carried out in 
our lifetime. We'd be talking about centuries to get this law 
carried out. I just consider that unacceptable. When you've got 
big chunks of the West on fire we cannot afford foot dragging 
on these key fuels reduction projects. So I'm very hopeful that 
we can get it back on track.
    Mr. Bosworth I will note that you and Mr. Rey said to me in 
March 2004, March 2 specifically that this was going to get 
done in 8 to 10 years. It says we'll be on a path to address 
this problem in 8 to 10 years. So I just want as we begin this 
hearing to note the extraordinary gap between what the law 
calls for and what the administration's progress to date has 
been with respect to implementing the law.
    Mr. Chairman I thank you, and look forward to working with 
you and I think that the fact that so many colleagues from the 
subcommittee are here today is an indication that there is a 
lot of work to do and this subcommittee wants to do it in a 
bipartisan way.
    [The prepared statement of Senator Wyden follows:]
     Prepared Statement of Hon. Ron Wyden, U.S. Senator From Oregon
    Mr. Chairman, I wish to specifically note that many of the 
provisions in the Healthy Forests Restoration Act have not been 
implemented or have only been minimally implemented. Many of these 
provisions, including Titles II, III, V and VI--which provide 
assistance on issues of watersheds; biomass, healthy forest reserves, 
and developing a system to monitor forest health--are set to expire in 
2008, raising the very real potential that the provisions of the Act 
will expire before any tangible benefits have been obtained. While I 
commend the Forest Service for launching the Western Threat Assessment 
Center in March 2005 in Prineville, Oregon to begin the study of forest 
health threats, much more needs to be done to implement to various 
provisions of these Titles before they expire in 2008. Many of these 
efforts are vital to restoring the long term health of our forests.

    Senator Craig. Ron, thank you very much and I'll turn to 
our colleagues in the order in which they arrived, Senator 
Johnson.

 STATEMENT OF HON. TIM JOHNSON, U.S. SENATOR FROM SOUTH DAKOTA

    Senator Johnson. Well thank you Mr. Chairman for working 
with members on both sides of the aisle to schedule this 
important oversight hearing on the implementation of the 
Healthy Forest Restoration Act. I'm particularly eager to hear 
from the Forest Service and State and local land managers how 
the authorities provided by the Congress are reducing the 
threat of catastrophic forest fire. I hope that Chief Bosworth 
or Deputy Assistant Secretary Hatfield will also provide 
information explaining whether the Forest Service and other 
Federal land management agencies had the necessary resources to 
implement the Healthy Forest Initiative. In 2002, a central 
argument driving enactment of the legislation was a threat 
posed to communities from hazardous fuels in the Wildland Urban 
Interface. In my State of South Dakota with a patchwork of 
private and public ownership in the Black Hills National 
Forest, effectively treating lands near communities is one of 
my key priorities. Accordingly, I'd like the Forest Service to 
specifically address how the Healthy Forest Initiative has 
tackled that public threat and explain the success and set 
backs in treating the Wildland Urban Interface in carrying out 
the intent of the legislation. In South Dakota to date the 
Black Hills National Forest has implemented only one project--
The Bugtown Gulch Project--using the Healthy Forest Restoration 
Act authorities.
    The Bugtown Gulch project which is located northwest of 
Custer was designed to respond to a portion of the mountain 
pine beetle epidemic that currently exists in the Black Hills 
National Forest. The success in quickly treating this effected 
area hopefully will provide momentum for the Forest Service to 
continue additional projects now in the planning stage. Using 
Healthy Forest, authorities on the Bugtown Gulch Project 
allowed the Forest Service to plan, decide, and initiate 
implementation faster than would have otherwise been possible. 
The initial news release regarding the Bugtown Gulch Project 
was in November of 2004. The record of decision was signed on 
February 8, 2006 and authorized approximately 11,000 acres of 
thinning. Live timber sales that where authorized by the 
decision where advertised the next day on February 9, 2006, 
with about 25 percent of the acreage in the sales designated as 
being in urgent need of harvest before the new flight of 
mountain pine beetles spread to other trees, and a promising 
sign for future projects successful harvest of those acres was 
completed before the bugs took flight. Another factor to 
successful completion of this project was the pre-decisional 
administrative review process embedded in the Healthy Forests 
Initiative. The use of the pre-decisional administrative review 
process helped assure that the areas in urgent need of removal 
could be harvested prior to the 2006 flight of mountain pine 
beetles and thereby reducing the further spread of mountain 
pine beetles.
    Mr. Chairman, I am eager to hear from the Chief if the 
experiences in implementing these important public safety 
projects are shared throughout other forests and regions and 
how public land managers are using these authorities to improve 
forest health. I apologize that conflicting committee 
obligations will necessitate my leaving earlier than I'd like, 
but my staff is here and I will closely review today's 
testimony. I yield back.
    Senator Craig. Tim, thank you very much. Let me turn to 
Senator Smith. Gordon, any opening comments?

         STATEMENT OF HON. GORDON SMITH, U.S. SENATOR 
                          FROM OREGON

    Senator Smith. Thank you Mr. Chairman, Senator Wyden. 
Chiefs good to have you here. I'm going to abbreviate my 
opening statement but I think we hopefully can in this hearing 
keep our eye on the ball. Which is: Are our forests better off? 
I recently was in northeastern Oregon with Mark Rey and we held 
a town hall in my hometown. North eastern Oregon has been known 
as the Eastern Triangle for the last 15 years, 14 mills have 
closed in the corner of my State. Remaining mills need roughly 
500 million board feet a year from Federal land to keep people 
at work, yet the national forests are only producing 96 million 
board feet. So in a State where 79 percent of our Forest 
Service land is on a high risk of catastrophic wildfire my hope 
is we can produce more than that and the reason is not just for 
jobs but it is to keep this remaining info structure in place 
so that the purpose is the Healthy Forest Initiative can be 
realized. And I think that that is something that is a real 
question in that we have got to keep some mills going and we 
have to keep the people employed so that we can keep our 
forests thinned in a way that protects the public from 
catastrophic wildfires. But I do want to commend Forest Service 
Chief Bosworth because at least in Oregon, and I can't speak to 
other States, the Forest Service have done a fairly good job in 
pursuing mechanical treatment versus prescribed burning. Nearly 
twice the acres have been treated mechanically than have been 
historically, and I encourage the agency to pursue that trend.
    I also note that in the first three quarters of this year 
the Forest Service has exceeded last years figure for numbers 
treated using the Healthy Forest Initiative authority I believe 
that departs from a national trend and I, I thank you at least 
for doing that in Oregon and obviously my colleagues will 
encourage you to do that in their States as well.
    Thank you Mr. Chairman.
    Senator Craig. Gordon, thank you very much. As I turn to 
Senator Feinstein I'm going to caveat by saying as I flew from 
Phoenix into Fresno on Friday, across your State in a commuter 
jet, the pilot came on and said, ``we've had permission to lift 
up another ten thousand feet to avoid the smoke plume'' that 
was coming out of the San Bernardino at which time I now 
understand, a 110 square miles and about 77,000 acres burned. 
It was a rather dramatic experience as all of us looked out the 
windows of the aircraft down over this absence of terrain 
because it was not a weather pattern it was in fact a smoke 
cloud.
    Senator Feinstein.

       STATEMENT OF HON. DIANNE FEINSTEIN, U.S. SENATOR 
                        FROM CALIFORNIA

    Senator Feinstein. Well thank you very much Mr. Chairman 
and I thank the ranking member for holding this hearing and to 
you and Senator Wyden and from all of us who worked with, we 
all worked together on the Healthy Families Act. What's 
happening in southern California is really very serious. We 
came very close to having a half a million acres of bark beetle 
infested pine go up in these fires. There where fires last year 
as well, it's a very serious situation and I worry a great deal 
about it.
    I'm concerned that the new authorities that our bill 
provided have not really been used adequately by the Forest 
Service. And I'd like to talk about that in my questions and 
there are some aspects of the implementation that are deeply 
troubling. One, of course as Senator Wyden mentioned is the 
issue of funding, we can't do these treatments without adequate 
resources. And what's happening is that they are going to areas 
that don't need mechanical thinning because it's cheaper to do. 
So if your forests need mechanical thinning they sort of get, 
in my view, second shrift. The Forest Services preliminary 
budget for 2006 provided just 16 percent of the needed fuel 
reduction funding for California's four forests, southern 
California forests. $7.5 million as compared to $46.4 million.
    While the San Bernardino National Forest received a one 
time funding boost of $10 million last December because I went 
to the chairman of the House Appropriations Committee who 
happened to be from that area, we where able to get that $10 
million. This one time funding shortfall really doesn't address 
the hazard that's out there. The Forest Service, the 
authorities we provided where used to treat only 1 percent of 
acres treated in California in 2005. And so far in 2006, of 
total areas treated under Healthy Forests, under the 
authorities provided, during this time only 3 percent of those 
acres are in California. Of total Forest Service and BLM fuels 
reduction work over the last 2 years only 3\1/2\ percent have 
been in California. In contrast, and I note most of us are 
Western or near Western States, in contrast 40 percent was in 
the Southeast which has less than 7 percent of total National 
Forest system lands. California alone has 20 million of the 
Forest Services 193 million acres, or 10 percent of the total. 
And many of our forests are at higher risk. So what I want to 
know from this hearing is: What are they doing? And, you know, 
if more money is needed it'd be nice if somebody came and said 
look we really believe you have peril, we need more money and 
we're willing to help you to get it. But it's a very passive 
situation out there and that bothers me greatly. And I hope, 
you know we can, to use a bad pun set a fire under the agencies 
through this hearing to work with us to get more funding to 
really look at the priorities and see if they are meeting the 
need. Thank You.
    Senator Craig. Senator, thank you. Now let me turn to 
Senator Murkowski.
    Senator Feinstein. Oh before Senator Murkowski if I might 
be indulged in, for a point, a personal privilege. If you look 
at the Senator from Alaska, you will see a very slight, very 
feminine form. And yet this slight and feminine form was able 
to catch a 65 pound king salmon.
    [Laughter.]
    Senator Feinstein. I could not help but note that some of 
the male comments where, ``She puffed up the size of the fish, 
she needed a man to set the hook.'' But every photo that I've 
seen is the Senator quite unaided by any male counterpart.
    [Laughter.]
    Senator Feinstein. Handling this salmon really quite well 
and I would just like to issue a word of commendation to the 
Senator from Alaska for her fishing prowess. I believe to date 
it is unchallenged by any male member of the U.S. Senate.
    [Laughter.]
    Senator Craig. Well before I turn over to Lisa. Senator 
Feinstein I want you to know that I was in the same fishing 
tournament.
    [Laughter.]
    Senator Feinstein. What?
    Senator Craig. I was in the same fishing tournament with 
Senator Murkowski, not only did she out fish me but the top 
three fish caught in a two day period in that tournament where 
all caught by woman.
    Senator Feinstein. Oh.
    Senator Craig. Oh.
    [Laughter.]
    Senator Feinstein. For you that's very sobering.
    [Laughter.]
    Senator Feinstein. Thank you again.
    [Laughter.]
    Senator Wyden. So the moral of the story is put Senator 
Murkowski in charge of fighting the fires.
    [Laughter.]
    Senator Craig. No, put her in charge of catching more fish. 
Anyway, Senator now that you've been properly billed the floor 
is yours.

        STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Well, thank you Senator Feinstein I 
appreciate your words of support. I think you recognize when 
you saw those fish there was no photo shopping, there was no 
assistance, I did do it on my own but I do have to keep 
repeating that because people just still quite don't believe 
it. It is true. Thank you for that acknowledgment and that 
recognition. I'll also point out that the area that we where 
fishing down there on the Kenai Peninsula, and I will bring 
this back to the hearing at hand.
    Bringing the fish story, the big fish story back to to the 
hearing at hand. We where down on the Kenai Peninsula where 
from the concerns expressed by Alaskans in terms of our 
greatest fire threat. So much of what we worry about is down on 
the Kenai Peninsula because of the damage that's been inflicted 
by the spruce bark beetle. So, there is some tie into the fish 
story and our hearing here this afternoon. But in addition to 
thanking Senator Feinstein for her comments and yours about my 
wonderful fish, I do want to thank you Mr. Chairman and ranking 
member Wyden for having this hearing. I think it is 
exceptionally timely as we look at what is happening in 
California. We're feeling rather blessed this season in Alaska 
because we've only had one fire so far this year that has made 
Fox News or CNN. Typically by this time of the year it's pretty 
tough up north and our history has shown, or certainly our 
recent past has shown that we have great reason to be concerned 
about our fire season. This may be considered a normal year up 
in Alaska but when you look back to 2004 and 2005 they where 
the worst years in our States history for fire. It was in 2005 
we had an area burn that was the size of the State of 
Connecticut and Rhode Island combined. And you talk about 
acreage that's one thing, you talk about something that people 
can relate to that's another.
    In 2004 the amount of acreage that we burned in this State 
was equivalent to the size of the State of Vermont. So, we look 
at what is happening with the Healthy Forest Restoration Act. 
You know when that was passed, I was a big supporter of it 
because I thought that this sent a signal that our Nation was 
really gonna to get serious about reducing the loss of life, 
reducing the loss of property associated with the wildfires in 
the populated areas. And also, the terrible quality of life 
that our constituents have to endure when we've got this smoke 
billowing into our communities during our short summer season.
    I have had, on numerous occasions, an opportunity to speak 
about the health and air quality issues that are associated 
with the wildfire smoke. Up in the state of Alaska it's 
traveling hundreds of miles, and this is not just an annoyance 
where you can smell the smoke. The smoke is so bad that our 
children can't go outside to play for a week at a time. If you 
have any upper respiratory ailments you are told to stay 
inside. There are days where you can't see down the next block, 
because of the thickness of the smoke. So it is very real, it's 
not just something that is an annoyance. So when we look to 
what we can do to reduce the hazardous fuels, it's not only 
about the health and safety of those that are around it. It's 
certainly about the margin of safety for our wildland fire 
fighters.
    Now, I'm assuming that the point of this hearing is to 
determine whether or not the Healthy Forest Restoration Act is 
living up to it's billing. I've mentioned the Spruce Bark 
Beetle on the Kenai Peninsula, we've got about three million 
acres of damage in the State of Alaska about 1.1 million acres 
is situated there on the Kenai Peninsula alone. So we have 
great concern about that. I want to know that we're doing all 
that we possibly can to reduce the hazardous fuels on the Kenai 
Peninsula as well as around the State.
    I am encouraged about the efforts to formulate the 
Community Wildfire Protection Plans. We've got some success in 
Alaska that I'm proud to sight, to the Kenai Peninsula, the 
Fairbanks North Star Borough, Glennallen in eastern Alaska, and 
then the Native village of Tanacross. These have been pointed 
to as national success stories in the community wildfire 
planning. There where also some pretty ambitious intentions 
about turning the fuels into energy, and I should mention that 
there's a great deal of interest throughout Alaska into turning 
the biomass and the small diameter material into fuel so we can 
reduce our reliance on diesel for power generation in so many 
of our communities. Whether you're down in southeast or all the 
way up into the interior, folks are asking the question whether 
there's sufficient grant funds available to turn these ideas 
into a reality. So I look forward to the comments from the 
Chief and from Miss Hatfield. And thank you again for the 
hearing.
    Senator Craig. Lisa, thank you very much. Now we turn to 
Senator Salazar.

          STATEMENT OF HON. KEN SALAZAR, U.S. SENATOR 
                         FROM COLORADO

    Senator Salazar. Thank you very much Chairman Craig and 
Senator Wyden for holding this important hearing. For us and 
Colorado Lake, the other Senators that are on this committee we 
have great concerns about the forest fire danger that we 
currently are facing in especially most of our States share the 
problem that where facing with the bark beetle infestations. In 
my State alone we have about 1\1/2\ million acres of bark 
beetle infested forest lands that are essentially a tinder box. 
And when you look across all of the western slope of my State 
of Colorado it's expected that probably 90 percent of those 
lands are going to be infested by the bark beetle in upcoming 
years. I have a longer statement that I'll submit for the 
record but I'm interested in two things as we move forward in 
the hearing. One is the status of the implementation of the 
Healthy Forest Act with respect to dealing with these 
challenges a part of that legislation was intended to deal with 
bark beetle infestation problems. Two, what the level of 
resource needs are to address this particular problem so that 
we can say it, we've set about to deal with a challenge in that 
we've been able to deal with it effectively. Third, following 
up on Senator Murkowski's point. I think there was a great deal 
of interest as we worked on energy issues in the country to see 
how we can move forward with biomass, and I believe it was 
title II of the Healthy Forest Act that said that we where 
moving forward with a biomass research program as well a grant 
program within the Forest Service. I think there's a yearning 
from communities to move forward with that project and I would 
like an update on that.
    And finally I just look forward to working with the Forest 
Service in my State as we move forward and try to deal with 
this very important issue. Thank you Mr. Chairman.
    [The prepared statement of Senator Salazar follows:]
   Prepared Statement of Hon. Ken Salazar, U.S. Senator From Colorado
    Thank you Chairman Craig and Senator Wyden. As always, I appreciate 
the opportunity to attend this Subcommittee's hearings on subjects that 
are critical to Colorado.
    There is no issue as critical to Colorado as the ongoing beetle 
infestations that are plaguing our national forests, as well as state 
and private lands. Just last week we heard the first summer reports of 
beetles emerging throughout our forests searching out the live trees 
that will incubate next summer's beetles. Those trees will then die, 
turning red, and adding to the already elevated hazardous fuel loads. 
These dangerous conditions and the corresponding fire risk have 
Colorado on edge. This situation threatens local communities in the 
wildland-urban interface and carries with it the real potential to 
negatively impact downstream states from Colorado should a catastrophic 
fire occur in a major Colorado watershed.
    The depth of my constituents' concerns was plain last week when I, 
along with Senator Allard, hosted a Colorado Congressional Delegation 
meeting concerning bark beetles with officials of local communities 
that are threatened by these dangerous conditions. At that meeting the 
Colorado delegation committed to work together with the communities and 
other local stakeholders to address this situation in the short and 
long term--including by identifying administrative action items that 
may help the situation on the ground.
    Chief Bosworth and Assistant Secretary Hatfield, when those items 
are identified and communicated, the delegation expects that the USDA/
USFS and the DOI will give them timely and full consideration. We are 
in the midst of a crisis, the threat is readily apparent, and we need 
the Administration's attention and help.
    Thank you.

    Senator Craig. Ken, thank you very much. Now let me turn to 
the chairman of the full committee. Mr. Chairman, we're not 
saving time this morning because I thought it was very 
important for both Dale and Nina to hear the passion of my 
colleagues as it relates to the situation going on in their 
states, their continued belief in the Healthy Forest Act, and 
more importantly the concern that it isn't moving as quickly as 
it should in a variety of areas for a variety of reasons. But 
let me turn to you for comments you would like to make Senator 
Domenici and then we'll get to our key witnesses.
    Senator Domenici.

       STATEMENT OF HON. PETE V. DOMENICI, U.S. SENATOR 
                        FROM NEW MEXICO

    The Chairman. And I might be both lengthily and passionate?
    Senator Craig. Well----
    [Laughter.]
    Unidentified Voice. Sounds like a law firm.
    Senator Craig. Yes, it does sound like a law firm. We'll 
let you choose that, but time is important and you can use 
reasonable discretion.
    The Chairman. Don't worry, it'll be----
    Senator Craig. Just don't get into a fish story like 
Senator Feinstein and Lisa did.
    The Chairman. It'll be neither.
    Senator Craig. All right.
    The Chairman. Passionate nor long this morning for some 
reason. In any event I do want to say that I'm happy that both 
you and Nina and Dale are here today. And I also want to 
welcome Mr. Rick DeIaco from Ruidoso, New Mexico who is here to 
testify. We look forward to hearing your testimony. I'm not 
sure that I will be here personally, when that occurs sir, but 
I think you understand this is a subcommittee and I'm not in 
charge of this subcommittee and I have another committee that I 
have to work on in getting ready for a case on the floor.
    In any event, let me move on to the data that you bring 
before us, shows a grand total of 1,720 acres of Healthy Forest 
Restoration Act work completed, from the beginning of fiscal 
year 2005 until now in the entire State of California. That 
data also shows that you have accomplished another 212,000 
acres of healthy forest work through other authorities.
    Chief, you need to understand that I have dozens of 
communities in New Mexico that face similar risks and while I 
am a Senator, you are the regional Forester and each of your 
forest Supervisors need to understand that there will be hell 
to pay if one of our communities burn, and we find that they 
haven't moved heaven and earth to get this fuel work done, or 
haven't used the Healthy Forest Restoration Act authority to 
get it done.
    While I'm impressed that your reporting additional acreage 
above and beyond the database you recently provided the 
committee, I, like others here today would like to see more 
acreage accomplished and more quickly. That seems to me to be 
everybody's wish and obviously you're here today to tell us how 
you do what you do and that it's the best it can be. And, we 
will listen attentively. Thank you very much Mr. Chairman.
    Senator Craig. Pete, thank you very much for that 
testimony. Now let me turn to our first panel. I've introduced 
them once, Nina Hatfield, Deputy Assistant Secretary, Policy, 
Management and Budget, Department of the Interior, Dale 
Bosworth, Chief, U.S. Forest Service, Department of 
Agriculture.
    Ladies first, Nina.

 STATEMENT OF NINA ROSE HATFIELD, DEPUTY ASSISTANT SECRETARY, 
   POLICY, MANAGEMENT AND BUDGET, DEPARTMENT OF THE INTERIOR

    Ms. Hatfield. Thank you very much Mr. Chairman.
    Mr. Chairman and members of the subcommittee, I appreciate 
the opportunity to testify on Interior's implementation of the 
Healthy Forest Restoration Act. And let me assure you that we 
too have, with you a passion about our efforts to reduce the 
risk of wildland fire to communities across the United States. 
And our key focus is to treat those high priority acres that 
have been identified through collaboration with States, tribes, 
local governments, and other partners and to do so as 
expeditiously as is possible. And as we move from identifying 
the highest priority acres to implementing fuel reduction 
projects we use the NEPA and analytic compliance requirements. 
Now HFRA provides that tools that compliment other 
administrative and statutory authorities that our land managers 
may use to achieve our goal of accomplishing on the ground 
reductions in hazardous fuels.
    HFRA's encouragement to State and local governments to 
complete Community Wildfire Protection Plans or CWPP's is 
vastly improving our ability to make sure that we do identify 
those high priority acres that we want to treat. Using all of 
our authorities in close coordination with State, local and 
tribal interests, Interior's agencies have treated 7 million 
acres since fiscal year 2002, which includes approximately 5.9 
million acres through the hazardous fuels reduction program and 
approximately 1.1 million acres of landscape restoration 
accomplished through other land management programs. And in 
fiscal year 2006, 94 percent of the total billion acres that we 
plan to treat are in condition classes two and three.
    Now we believe that this work has lessened threat of fire 
to people, communities, and natural resources across the 
country. Our successes where fuels treatments have modified 
fire behavior and provided for safer and more effective fire 
fighting are growing. And with respect to the treatment method 
the process of selecting whether to use a mechanical prescribed 
fire or another technique is part of a collaborative effort. 
The factors to be considered range from the fuel lows to 
societal determinations of valued landscapes. And the ultimate 
decision on the treatment method depends upon multiple factors, 
including the on the ground conditions, the agency mission, the 
usefulness in accomplishing other land management objectives 
and costs.
    Mechanical treatments already receive priority in project 
selections. In this year, fiscal year 2006, 51 percent of BLM's 
hazardous fuel treatments have been done using mechanical means 
and that's grown from the 42 percent of mechanical treatments 
that we did in fiscal year 2005. And yet we recognize that 
balance in the use of those tools remains critical. For DOI 
lands outside the wildland/urban interface we estimate that the 
direct cost of mechanical treatment is approximately four times 
that of prescribed fire treatment. But we believe that the new 
knowledge, techniques, tools, understanding, and collaborative 
efforts like the CWPP's continue to inform and improve our 
efforts to reduce wildland fire risk. New performance measures 
are emerging from an extensive 18 month collaborative review of 
the 10 year comprehensive strategies implementation plan that 
was initiated by the Wildland Fire Leadership Council and the 
Western Governors Association and that reflects our growing 
knowledge and skill base in terms of the appropriate 
performance measures by which we will gauge our progress.
    In fiscal year 2002, the agencies are using both HFI and 
HFRA tools to meet there NEPA requirements on nearly 80 percent 
of all new fuels treatment projects. We appreciate the on going 
oversight by the subcommittee on our activities to reduce 
hazardous fuels on the public lands. We believe that using the 
range of tools that we have with HFI, stewardship contracting, 
Tribal Forest Protection Act, and HFRA that we are expediting 
projects to treat hazardous fuel, restoring fire adapted 
ecosystem, restoring healthy conditions to public forest and 
range lands, introducing the threat of catastrophic wildfire to 
at risk communities. We will continue to partner with other 
Federal agencies as well as State, local and Tribal governments 
to accomplish additional fuels reduction and restoration 
projects, and I look forward to responding to your questions. 
Thank you very much.
    [The prepared statement of Ms. Hatfield follows:]
 Prepared Statement of Nina Rose Hatfield, Deputy Assistant Secretary, 
       Policy, Management and Budget, Department of the Interior
    Thank you for the opportunity to testify on the U.S. Department of 
the Interior's (Interior) implementation of the Healthy Forests 
Restoration Act (HFRA) [P.L. 108-148] and our agencies' activities to 
reduce hazardous fuels and improve forest and rangeland health on the 
public lands.
    Four years ago, wildland fires swept across portions of the western 
United States, burning millions of acres. In southwestern Oregon, the 
Biscuit Fire burned almost 500,000 acres in 2002 and cost more than 
$150 million to suppress. In response to this and other large wildland 
fires, the President and the Congress acted in rapid succession in 2002 
and 2003 to authorize Federal land management agencies to expedite 
action to reduce the amount of hazardous fuels on Federal lands, reduce 
the threat of wildland fire, and restore the health of our public 
forests and rangelands.
    The land management agencies of the Department of the Interior and 
the U.S. Forest Service have moved aggressively to implement these new 
administrative and statutory authorities. These include streamlined 
authorities to meet the requirements of the National Environmental 
Policy Act (NEPA) provided by HFRA and the President's Healthy Forests 
Initiative (HFI). The BLM and the Forest Service use the stewardship 
contracting authority provided by the 2003 Omnibus Appropriations Act 
(Section 323 of Public Law 108-7) to reduce hazardous fuels while 
providing economic benefits to local communities. HFRA has encouraged 
local communities to work with Federal agencies to prepare Community 
Wildfire Protection Plans (CWPP), and each of the Interior agencies is 
actively involved in assisting States and local governments. All these 
tools emphasize the importance of partnerships in reducing the risk of 
wildland fire.
    Using all of our authorities in close coordination with State, 
local, and Tribal interests, Interior's agencies have treated 7 million 
acres since Fiscal Year 2002, which includes approximately 5.9 million 
acres through the hazardous fuels reduction program and approximately 
1.1 million acres of landscape restoration accomplished through other 
land management activities. For three consecutive years, Interior has 
exceeded program targets for both total acres treated and for treating 
acres within the wildland-urban interface (WUI). We have tripled the 
amount of WUI acres treated since FY 2001--treating 543,000 acres in FY 
2005 compared to 164,000 acres in FY 2001--and increased the WUI share 
of total program acreage from 22 percent in FY 2001 to 44 percent 
planned for FY 2006.
    A brief description of Interior agencies' use of these new 
authorities follows.
                    healthy forests initiative (hfi)
    On August 22, 2002, the President announced his Healthy Forests 
Initiative. The HFI directed the Secretaries of the Interior and of 
Agriculture, together with the Chairman of the Council on Environmental 
Quality, to improve regulatory processes in order to reduce the risk of 
catastrophic wildland fires by restoring forest health.
    In response, the agencies developed administrative procedures to 
expedite needed actions, including two new categorical exclusions (CX) 
under NEPA that allow the agencies to proceed with high-priority 
hazardous fuels treatments (prescribed fire and thinning) and 
rehabilitation of areas previously burned without further analysis if a 
collaboratively selected treatment meets specific criteria related to 
size, location, and method. The HFI also resulted in streamlined 
consultation procedures on threatened and endangered species with the 
U.S. Fish and Wildlife Service and National Marine Fisheries Service 
for National Fire Plan projects.
    Interior agencies have used the HFI categorical exclusions 
extensively because a hazardous fuels reduction project that meets the 
CX criteria can be implemented rapidly. This tool is especially 
valuable, for example, in treating areas of a WUI that could be rapidly 
thinned to reduce the risk of wildfire, or to accomplish on post-fire 
reseeding or erosion control measures before a rainy season begins. In 
FY 2004, Interior's bureaus used the HFI tools to treat approximately 
40,000 acres. In FY 2005, HFI tools were used to treat approximately 
190,000 acres. This fiscal year, we plan to use these tools on over 
1,000 treatments to reduce hazardous fuels on approximately 200,000 
acres.
    For example, in the Castle Rock area near Vale, Oregon, the BLM 
used the CX authority to implement treatments that both reduce existing 
fire hazard and improve forest health. This area contains one of the 
few remaining stands of old growth Ponderosa pine and Douglas fir left 
in the area. By 2003, large quantities of dead, woody debris had 
dramatically increased the stand's susceptibility to disease and insect 
infestation, and significantly raised the potential for catastrophic 
stand replacement fire. The BLM sought input from local ranchers and 
the Paiute Indian Tribe in planning a fuels reduction program.
    In the spring of 2004, the CX was approved and fuels reduction 
activities were implemented on-the-ground. A total of 850 acres of 
Ponderosa pine stands are being treated using a combination of under-
story thinning, hand piling, and prescribed fire. In FY 2005, 200 acres 
of pine were treated. Approximately 350 acres of North Slope Douglas 
fir will be considered for fuels reduction activities in the near 
future. Early analysis suggests that commercial thinning in conjunction 
with fuels reduction activities would significantly reduce the existing 
fire hazard and improve forest health. Fuels reduction costs may be 
mitigated as a result of a stewardship contract.
                        stewardship contracting
    Congress authorized the BLM and extended the Forest Service to use 
stewardship contracts, which are intended to provide economic benefits 
to local communities, to reduce hazardous fuels and restore forest and 
rangeland health, in the FY 2003 Omnibus Appropriations Act (Section 
323 of Public Law 108-7).
    BLM has progressively increased the use of stewardship contracting 
from 2 contracts on 300 acres in FY 2003, to 22 contracts on 6100 acres 
in FY 2004, and 58 contracts covering 15,700 acres in FY 2005. By the 
end of FY 2006, the BLM will have used stewardship contracting 
authority, cumulatively over three years, for over 100 projects to 
restore forest health and treat fuels on over 35,000 acres of public 
lands. These projects are located across all of the States that BLM 
manages in the west, including Alaska.
    An example of a successful stewardship project is the 10-year 
Gerber Stewardship project which began in FY 2004 in south central 
Oregon. When completed, it will have treated 10,000 acres to improve 
forest and woodland health, improve rangeland health, reduce hazardous 
fuels in the WUI, improve wildlife and fisheries habitat, and riparian 
enhancements. It is now in its third year, with 1500 acres under 
contract, and has sold 750 MBF and 15,000 tons of biomass for energy 
development.
    Another example is underway in Canon City, Colorado, where the BLM 
awarded two stewardship contracts to treat 300 acres per year. The 
contracts will reduce fuels in the WUI and foster forest health 
improvement and wildlife habitat enhancement. Additionally, the 
contracts will produce 3,000 tons of biomass and 235,000 board feet of 
saw timber, providing woody biomass to Aquila Power and logs to local 
sawmills. In 2004, the Aquila plant generated 730 megawatts of 
electricity using woody biomass, and may expand their use of biomass 
under a state law requiring a green energy portfolio of 10 percent by 
2015. In FY 2006, the BLM is soliciting a longer-term stewardship 
contract for multi-year treatments. The saw timber and biomass by-
products of this contract will help provide stability and long-term 
supplies of biomass for energy production.
                 healthy forests restoration act (hfra)
    Through the HFRA, signed into law in December of 2003, Congress 
provided statutory authorities that complement or expand upon the HFI 
tools already in use by the agencies. Certain authorities in the HFRA 
are available to both the BLM and the Forest Service (Titles I and II), 
while other titles apply exclusively to the Forest Service.
    Title I of HFRA authorizes the collaborative development and 
expedited environmental analysis of hazardous fuels reduction projects 
on public lands that are: (1) at risk of catastrophic wildland fire; 
and (2) meet one of the following four criteria. The projects are:

  <bullet> located in wildland-urban interface (WUI) areas;
  <bullet> identified as condition class 2 and 3 (at moderate to high 
        risk of catastrophic fire) where there are at-risk municipal 
        water supplies;
  <bullet> in watersheds that provide habitat for threatened and 
        endangered species where catastrophic wildfire threatens the 
        survival of the species and fuels treatments can reduce the 
        risk of wildfire; and
  <bullet> where windthrow, insect infestation, or disease epidemics 
        threaten forest or rangeland resources.

    HFRA authorizes the agencies to streamline environmental 
assessments to fulfill NEPA requirements, complementing the categorical 
exclusion authority in HFI. In FY 2005, the BLM used HFRA authorities 
to treat approximately 9,968 acres in 52 treatments. In FY 2006, the 
BLM identified 66 HFRA projects covering 28,000 acres. For example:
    In the area near La Pine, Oregon, the BLM used the HFRA Title I 
authority to plan a treatment of 7,000 acres to be implemented in FY 
2006. The goals of this WUI project include fuels reduction, creation 
of defensible space, forest and rangeland health, and protection of a 
municipal watershed. The project will also yield biomass.
    The BLM also has used the Title I authority to plan projects in 
non-WUI areas of Nevada and Utah. Near Winnemucca, NV, a 1,000-acre 
fuels reduction and rangeland health project will be implemented in FY 
2006. Near Price, UT, Title I authority was used to plan a 500-acre WUI 
treatment to accomplish defensible space, fuels reduction, and 
ecosystem restoration.
    The Department is committed to utilizing the tools Congress 
provided through the HFRA. To that end, we will continue to work to 
improve our performance in implementing the Act and to ensure oversight 
at both the field and headquarters levels.
    Typically bureaus perform NEPA work one or more fiscal years prior 
to the fiscal year when the on-the-ground treatments are accomplished. 
Treatments done in fiscal years 2004-2006 often had their NEPA analysis 
performed before HFI or HFRA authorities were available. As those 
treatments are completed, the number of HFI/HFRA supported treatments 
is increasing as is the share of new NEPA work performed using these 
tools.
    The growth in acres treated via HFI/HFRA tools has been dramatic, 
from over 40,000 acres in FY 2004 to approximately 200,000 acres in FY 
2005, with an estimated 230,000 acres to be treated this fiscal year.
    Evidencing our commitment to using these important authorities, in 
FY 2006 the agencies are using HFU/HFRA tools to meet their NEPA 
requirements on nearly 80 percent of all new fuels treatment projects.
                  community wildfire protection plans
    A key provision in HFRA encourages local communities to work with 
Federal agencies to develop Community Wildfire Protection Plans (CWPP). 
These plans build on community and resource protection activities 
carried out under the National Fire Plan, and assist local communities, 
as well as State, Federal, and Tribal cooperators, to clarify and 
refine priorities, roles and responsibilities in the protection of 
life, property, and critical infrastructure in the wildland-urban 
interface.
    State and Federal land management agencies and local communities 
can use CWPPs to determine hazardous fuels treatments in the wildland-
urban interface. As of March 1, 2006, nationwide 650 CWPPs covering 
2,700 communities at risk have been completed and 600 are in 
preparation. To date in FY 2006, the BLM and the Bureau of Indian 
Affairs have assisted in 55 separate WUI communities with mitigation, 
fire management, or risk assessment plans.
    In Idaho, for example, all counties have completed CWPPs that 
include prioritized fuels treatments for all of Idaho's priority 
wildland-urban interface areas.
    Idaho County is an example of one county that revised their CWPP to 
ensure their highest hazard areas are included, and now has a plan that 
meets all the requirements of HFRA--such as WUI definitions or 
boundaries, prioritized fuels/community assistance project lists, and 
agreement by local government, local fire departments, and the State of 
Idaho on the contents of the plan. As a result, BLM is currently 
working with several other local and state entities to conduct fuels 
treatments in Elk City--one of Idaho's highest priority communities.
    The BLM is able to tier its hazardous fuels project planning to 
completed CWPP's. One such example is in central Oregon where the 
combination of increased fuel and ignition sources have resulted in 
more acres burned in wildfires over the past five years than burned in 
the previous century. To address these issues and to identify treatment 
priorities, a multi jurisdictional group of agencies, organizations, 
and individuals gathered to create a series of community wildfire 
protection plans.
    As of September 2005, five community wildfire protection plans have 
been completed and three others are nearing completion, covering the 
majority of Crook, Northern Klamath, Jefferson and Deschutes Counties. 
Using a risk-assessment model, planning committee members identified 
top priorities to mitigate wildfire. These priorities include risk 
potential for a fire to occur; hazard potential for a wildfire to 
spread once ignited; values at risk, such as identification of key 
infrastructure and ecological and cultural values; structural 
vulnerability elements of a structure that affect the likelihood of it 
burning; and protection capability to prepare for, respond to and 
suppress wildfire. General recommendations included developing year 
round water sources, continuing to reduce fuels on private lands, 
improving defensible space, and developing or improving emergency 
evacuation routes.
    One of the greatest concerns identified in the CWPPs is the fuels 
buildup on Federal lands adjacent to communities. Consequently, the 
Prineville District BLM and the Deschutes and Ochoco National Forests 
will be working together to reduce the potential for catastrophic 
wildfire around the communities at risk. As part of the five-year plan, 
forests and rangelands in the WUI in central Oregon will receive a 
variety of treatments, including thinning, mowing, chipping, and 
burning. While not designed to eliminate fire, the goal of these 
treatments is to modify the vegetation to the point that ground fire is 
the norm, not the exception.
    Title II of HFRA provides statutory authorization for the agencies 
to increase the utilization of biomass. Interior is currently expanding 
its capacity to encourage community-based enterprises that help achieve 
forest and rangeland health objectives. Fuels projects and post-fire 
recovery can produce significant amounts of small diameter woody 
materials (biomass is predominantly the by-product of hazardous fuels 
removal projects that reduce the risk of wildland fire and improve 
forest health). Many small communities have lost conventional sawmills 
and other utilization infrastructure. Better coordinated technical 
support, investment and incentives can enhance development of 
infrastructure and help commercialize new technologies that make 
profitable use of forest and rangeland resources made available through 
emergency salvage and recovery projects.
    The strategy for increasing biomass utilization from BLM-managed 
lands draws on the authorities provided in the HFI, the National Fire 
Plan, HFRA, and stewardship contracting under the FY 2003 Omnibus 
Appropriations Act (Section 323 of Public Law 108-7). In FY 2004 (the 
first full fiscal year in which the BLM had this authority), the BLM 
offered nearly 30,000 tons of biomass, mostly through stewardship 
contracts that also benefited local communities. In FY 2005, 71,000 
tons of wood by-products were offered through contracts by the BLM. The 
target for FY 2006 is to offer 60,000 tons of biomass through contracts 
or agreements. When treating areas for hazardous fuels reduction, the 
BLM's goal for FY 2006 is to offer biomass in 10 percent of the BLM's 
mechanical treatment projects in forests and woodlands, increasing to 
50 percent by FY 2008.
    In addition, the BLM has undertaken six biomass demonstration 
projects--in Alaska, California, Colorado, Idaho, and two projects in 
Oregon--in which local field offices are working with nearby 
communities to develop strategies for using biomass to generate energy.
    In Emmett, Idaho, the BLM together with other Federal and State 
land management agencies and private interests is working to secure a 
sustainable supply for a new 19 megawatt biomass plant. By-products 
from hazardous fuels reduction efforts as well as rangeland and forest 
health projects on BLM managed lands in southeast Idaho will contribute 
to the supply for this plant. A co-generation lumber mill is also being 
developed to further take advantage of available biomass material. 
Also, the BLM continues to support opportunities for biomass 
utilization in central Idaho including Bennett Forest Industries' 
establishment of a woody biofuels energy generation plant at the 
company's new lumber mill in Grangeville, Idaho.
    In the Prineville, Oregon demonstration project, with the execution 
of a Memorandum of Understanding (MOU) with the Confederated Tribes of 
Warm Springs (Tribes), the BLM and Forest Service in central Oregon 
agreed to offer 80,000 bone dry tons (8,000 acres) of woody biomass 
material annually. This long-term commitment to provide biomass to the 
mill at Warm Springs will provide a stable supply of biomass to enlarge 
the market for biomass energy. With the increased supply of renewable 
energy, the Tribes can market energy to power homes, or direct that 
energy to new businesses. Thus, woody debris that used to go up in 
smoke or clog landfills will now be converted to heat, light, and 
economic development. Based on this MOU, the Tribes are seeking a power 
purchase agreement and bank financing to develop a 15.5 megawatt 
cogeneration plant.
    The Department of the Interior also has adopted a standard contract 
provision, for use by all Interior agencies, which allows for the 
removal of biomass as part of all forest and rangeland thinning 
projects or any other contracts that cut vegetation. To help increase 
the market for materials made of small wood and wood biomass, the 
agency has added a factor to their procurement solicitations to 
encourage the purchase of bio-based materials. In addition, Section 210 
of the Energy Policy Act of 2005 authorizes Federal grants for biomass 
use.
                      tribal forest protection act
    The Tribal Forest Protection Act (Public Law 108-278) [TFPA] was 
passed in July 2004 in response to devastating wildfires that crossed 
from Federal lands onto Tribal lands. The TFPA provides a tool for 
Tribes to propose work and enter into contracts and agreements with the 
Forest Service or BLM to reduce threats on Federal lands adjacent to 
Indian trust land and Indian communities.
    The TFPA focuses on BLM or Forest Service lands that 1) border or 
are adjacent to Tribal lands; and 2) pose a fire, disease, or other 
threat to the Indian trust land or community or are in need of 
restoration. An excellent example of Tribes partnering with the Federal 
agencies under the auspices of the TFPA includes a recently signed 
Memorandum of Understanding (MOU) between the Confederated Tribes of 
the Warm Springs Indian Reservation in Oregon and the BLM and U.S. 
Forest Service.
    As mentioned in our discussion of biomass utilization, under this 
MOU the BLM and Forest Service in central Oregon agreed to offer to the 
Tribes 80,000 bone dry tons (8,000 acres) of woody biomass material 
annually as the Tribes conduct hazardous fuels reduction projects on 
Federal lands adjacent to the Warm Springs reservation.
    The MOU addresses the key components of HFRA and TFPA by focusing 
efforts on treating hazardous fuels and restoring the health of forests 
to minimize large catastrophic wildfires. This partnership recognizes 
that over the past decade, central Oregon and the inland West have 
experienced unnaturally large wildfires that have put many values at 
risk, including people's lives and homes, sensitive or protected fish 
and wildlife habitat, culturally and Tribally significant resources, 
critical infrastructure, soil productivity, aesthetics, clean air and 
other valued components of forests and communities.
                           challenges we face
    We thank the Congress for the authority provided through the HFRA. 
In addition, as note above, we utilize appropriate administrative 
authorities in planning and conducting certain fuels treatment and 
post-catastrophic event activities. Despite these ongoing efforts, 
challenges abound. Certain post-fire situations require a rapid, 
coordinated response in order to assure effectiveness of recovery and 
restoration efforts. Moreover, the environmental threats typically do 
not stop at ownership boundaries. Treatments limited to one side of a 
jurisdictional boundary may be less effective than actions coordinated 
within a broader ecosystem. Current authorities and procedures make 
coordinated decision making among Federal, State, and local land 
managers difficult. For example, the BLM missed an opportunity to 
coordinate salvage and restoration activities with an adjacent 
landowner in the area burned by the Timbered Rock Fire in 2002 in 
Oregon. The adjacent landowner moved ahead immediately with salvaging 
and replanting the burned area, and within one year salvaged and 
replanted all 9,000 acres of his burned lands. By comparison, because 
of the procedural requirements to salvage and re-plant on Federal 
lands, most of the BLM portion of the burned area is not yet fully 
treated. In such cases, coordination among Federal, State, and local 
land managers would increase the likelihood of effective restoration on 
a landscape or watershed basis.
                               conclusion
    We greatly appreciate the ongoing support that the Chairman and 
Members of the Subcommittee have provided for our use of the 
authorities of HFI, stewardship contracting, and HFRA to reduce 
hazardous fuels and restore the health of the public lands. Using these 
authorities, the Interior agencies are expediting projects to treat 
hazardous fuels, restore fire-adapted ecosystems, restore healthy 
conditions to public forests and rangelands, and reduce the threat of 
catastrophic wildland fire to at-risk communities. We will continue to 
partner with other Federal agencies, as well as State, local, and 
Tribal governments, to accomplish additional fuels reduction and 
restoration projects.
    Thank you again for the opportunity to testify at this hearing. I 
would be glad to answer any questions.

    Senator Craig. Nina, thank you very much. Now let us turn 
to the Chief. Dale, when you and I started in this business a 
good number of years ago your hair was dark and I had hair.
    [Laughter.]
    Senator Craig. So I don't know whether the stress of the 
job or the time we've been at it. But it's been awhile. Please 
proceed.

    STATEMENT OF DALE BOSWORTH, CHIEF, U.S. FOREST SERVICE, 
  ACCOMPANIED BY GAIL KIMBELL, REGIONAL FORESTER, MISSOULA, MT

    Mr. Bosworth. Thank you very much Mr. Chairman, and I do 
appreciate the opportunity to review with you our performance 
in implementing the Healthy Forest Restoration Act, the Healthy 
Forest Initiate, and our overall fuels treatment program. I'd 
like to briefly summarize my written statement and there's just 
a few key high lights I'd like to say.
    First I'd like for everybody to understand that every year 
since 2003 the Forest Service has met or exceeded our funded 
fuels treatment targets. And we having said that we really 
appreciate your recognition of the importance of this program, 
the importance of fuels reduction, and forest health 
restoration, and learning the risks of severe wildfires and I 
can't express how much we appreciate the tools that both the 
administration and Congress have developed together to enhance 
our authority to treat these public lands, and to reduce these 
threats of fuels. When HFRA was signed by the President in 
December 2003, Forest Service Leadership happened to be meeting 
here in Washington, D.C. We had a lot of discussions regarding 
this new legislation, and I'd advised our regional foresters 
and others at that time that the American Public as well as 
Congress would be expecting some great progress from us in 
reducing the risk of severe wildfire. Now I've brought with me 
Gail Kimbell, whose our regional forester from Missoula, and 
she would be happy to attest to that understanding that we have 
of our responsibility.
    Senator Craig. Gail, we're pleased to have you before the 
committee today. Thank you for being here.
    Mr. Bosworth. You know we noted at the time that the 
problems that we have, have been decades in the making, and 
that they wouldn't be resolved overnight. We've had the Healthy 
Forest Restoration Act authority in place now for one and half 
field seasons and we're increasingly making use of the 
expedited processes that it provides for us. Along with those 
of the administrative regulations that we developed under the 
Healthy Forest Initiative. Frankly I'm proud of the progress 
that's been made in this effort by Forest Service employees, 
along with our partners in the Interior Department and the 
countless partners at the State, local, and tribal levels. As I 
said, having met our targets for the last 3 years and we're 
going to continue to do that.
    I also realize that we need to continue to push ourselves 
further and at a faster rate to increase the rate of treatment 
so that we can quicken our pace at addressing this serious 
risk. We know that we can't let up or we'll just lose ground in 
the effort if we do. And I don't foresee that the Forest 
Service in the field letting up any time soon and frankly, I 
don't see the communities letting us let up, until this threat 
is addressed.
    From 2003 to the present time, using all of the available 
authorities that we have, the Forest Service has conducted 
fuels reduction treatment on about 8.5 million acres, and that 
includes about 5.5 million acres in the Wildland Urban 
Interface. So as I mentioned we're continuously increasing our 
utilization of the expedited processes and HFRA to get our 
fuels work done. In 2005, we treated 23,000 acres using those 
procedures. In 2006, we're projecting treating an addition 
177,000 acres including about 115,000 acres in response to the 
hurricanes in the gulf States.
    One of the critical features of HFRA is an increase 
expectation of community participation in the development of 
these projects. We've always provided, I believe ample 
opportunity for public involvement through NFMA and NEPA 
processes, but the collaborative spirit that's envisioned in 
HFRA I think is a significant change from the old model of 
agency scoping, internal decision making, followed by formal 
adversarial appeal processes. We've had to build a capacity for 
using these new procedures both within the agency as well as 
within the communities. And while it takes some time for our 
folks and for the public at large to come to understand the new 
way of doing things, we believe that the investment of 
developing this understanding is well worth the investment. We 
believe that by starting this increased collaboration 
carefully, we'll be able to show success, and I think that 
success will breed further success in other communities. And 
that will expand our use of the HFRA authorities.
    And Gail Kimbell again, would be able to provide you with 
some first hand examples of her experiences with these efforts 
in the Northern Region.
    So Mr. Chairman you and other members have kept me aware of 
your continuing interest in our efforts to reduce hazardous 
fuels and there's certainly a corresponding interest on the 
part of the departments and the administration. I've conducted 
regular conference calls with Regional Foresters generally once 
a month, to share information, to report progress, and to find 
out what barriers and hurdles they have so that we can remove 
those barriers and hurdles and to discuss other aspects of our 
implementation of HFI and HFRA. We've assembled a team, to 
review implementation at the regional and the field level. To 
help us further understand where we're having success and what 
kind of difficulties people are faced with in the field, in 
terms of implementing these projects. And now as we get the 
results from that review, I'd be very happy to share the 
information with the committee so that we can continue to work 
together and address this challenge.
    And so again thank you for the opportunity to be here and 
I'd be happy to answer any questions.
    [The prepared statement of Mr. Bosworth follows:]
   Prepared Statement of Dale Bosworth, Chief, U.S. Forest Service, 
                       Department of Agriculture
                              introduction
    Mr. Chairman. Thank you for the opportunity to testify on the 
Administration's progress in implementing the Healthy Forests 
Initiative (HFI) which includes the Healthy Forests Restoration Act of 
2003 (HFRA). The Act is a significant piece of legislation that earned 
bipartisan support in both houses of Congress and was signed into law 
by President Bush on December 3, 2003. HFRA recognizes that timely 
implementation of fuels treatment and forest and rangeland restoration 
projects is critical if we are to reduce the risk from severe wildland 
fire to rural communities and critical ecological resources.
                     the healthy forests initiative
    The HFI includes both administrative reforms and HFRA authorities 
that give federal managers additional tools to expedite hazardous fuel 
treatments and ecological restoration projects on federal land. These 
tools are being used to implement a wide range of treatment activities.
    Beginning in 2003, through the second quarter of this year, using 
all available authorities, the Forest Service has treated about 8.5 
million acres, including treatment of 6 million acres for hazardous 
fuels reduction and nearly 2.5 million acres for landscape restoration 
accomplished through other land management activities. Of the total, 
about 5.5 million acres were treated in the Wildland Urban Interface 
(WUI). This represents about 65% of the total hazardous fuels 
treatments in that time period.
    So far, in FY 2006 the agency has treated about 1.6 million acres 
of which 1.1 million acres are in WUI. For FY 2006 nearly $600 million 
have been allocated for activities that will enable the Forest Service 
to continue our efforts to prevent the risk of catastrophic wildfires 
and restore forest and rangeland health. A more complete accounting of 
accomplishments can be found in the Healthy Forests Report located on 
the internet at www.healthyforests.gov.
    The Forest Service has utilized the administrative tools provided 
under the Healthy Forests Initiative, for example:

  <bullet> In FY 2005, HFI tools were used to treat approximately 
        100,000 acres. This fiscal year, we plan to use these tools for 
        about 800 treatments to reduce hazardous fuels on approximately 
        208,000 acres.
  <bullet> Categorical exclusions (CEs) have been used to meet National 
        Environmental Policy Act (NEPA) requirements and facilitate 
        implementation of 669 hazardous fuels treatment projects from 
        FY 2005 through the third quarter of FY 2006. CEs may also be 
        applicable to another 481 hazardous fuels treatment projects 
        that remain in various planning stages.
  <bullet> The counterpart regulations concerning consultation on 
        certain National Fire Plan (NFP) projects under Section 7 of 
        the Endangered Species Act have been issued by the Fish and 
        Wildlife Service and the National Marine Fisheries Service. 
        These regulations streamline Section 7 consultations on many 
        projects. The Forest Service has entered into an Alternative 
        Consultation Agreement with the Services. The Agreement called 
        for development of a training and certification process for 
        making determinations under Section 7 which has now been in 
        place for two years. More than 830 Forest Service employees 
        have been trained and are currently certified under that 
        process, and over 100 NFP projects have used the Counterpart 
        Regulations.

    Another important and related action is the authority provided by 
Congress to extend the use of stewardship contracting by the Forest 
Service (FS) and the Bureau of Land Management (BLM) under the 
Consolidated Appropriations Resolution, 2003 (P.L. 108-7, division F, 
section 323). Beginning in FY 2003 through May of this year the Forest 
Service awarded 198 stewardship contracts. We anticipate another 20 
contracts this year and around 80 next year. We have just awarded the 
first contract under the Tribal Forest Protection Act to the Mescalero 
Apache tribe and continue to receive proposals to treat agency lands 
adjacent to tribal lands.
                   progress made on implementing hfra
    In the time since HFRA was enacted, the Forest Service has taken a 
number of actions to implement the various titles of the Act.
Title I--Hazardous Fuels Reduction on Federal Lands
    The Administration is encouraged by implementation of Title I of 
HFRA. While Title I treatment acres currently represent a small 
percentage of the total, the number of new projects entering planning 
is increasing as managers develop experience using these tools. In FY 
2005, the Forest Service used the authority under title I of HFRA to 
treat approximately 23,000 acres in 71 treatments. In preparation for 
FY 2006, the agency planned to use the authority under title I of HFRA 
to treat about 62,000 acres in 138 treatments. Following the widespread 
damage caused by Hurricane Katrina national forest managers in 
Mississippi determined that the best tool available for removing 
hazardous fuels and restoring the forests was the authority under Title 
I of HFRA. This massive undertaking which began in December, 2005 and 
is nearing completion has resulted in about 115,000 acres treated 
beyond what was initially planned for the year and over 300 million 
board feet of downed timber sold and removed.
    Title I of HFRA authorizes the Secretary to streamline 
environmental assessments and environmental impact statements of 
authorized hazardous fuel reduction projects to fulfill NEPA 
requirements. Key provisions of title I include the collaborative 
development and expedited environmental analysis of authorized 
hazardous fuel reduction projects and a pre-decisional administrative 
review process. Title I focuses attention on several land types: 
federal land in wildland-urban interface areas that include areas 
within or adjacent to at-risk communities; certain federal lands with 
at-risk municipal water supplies; federal lands that contain threatened 
and endangered species or their habitats where fuels treatment will 
provide enhanced protection from wildfire; and federal land where 
windthrow or blowdown, ice storm damage, or insect or disease epidemics 
threaten an ecosystem component or forest or rangeland resources.
    The Act encourages the development of Community Wildfire Protection 
Plans (CWPPs) to identify and prioritize areas for fuels treatment and 
to recommend types and methods of treatments in and around the WUI. The 
Act requires the Secretary to give priority to Forest Service project 
proposals that provide protection of at-risk communities or that 
implement the CWPPs. A recent survey of all states to determine 
progress in developing CWPPs found that states are reporting 654 
completed CWPPs covering almost 2,700 communities, and approximately 
600 additional CWPPs progress. It is important to note that a one-to-
one ratio of plans to communities is not required as a single CWPP may 
include multiple communities.
    We have observed that this collaboration between communities and 
local Forest Service offices has resulted in some very innovative 
hazardous fuels reduction projects. The Hurricane Katrina recovery 
project is one example of cooperation between communities and the 
Forest Service. Another outstanding example is the White Mountain 
Stewardship Project involving the Apache-Sitgreaves National Forest and 
the communities of Navaho, Apache and Coconino counties in Arizona. 
This project integrates elements of stewardship contracting, Title I 
project development and the biomass grant program under Title II 
Section 202.
    The White Mountains Stewardship Contract was awarded in August 2004 
as the first 10-year stewardship contract under section 323 of Public 
Law 108-7. This stewardship contract is designed to restore forest 
health, reduce the risk of fire to communities, reduce the cost of 
forest thinning to taxpayers, support local economies and encourage new 
wood product industries and uses for the thinned wood fiber. Forest 
Service collaboration with citizens and conservation groups has been 
critical and ongoing and originally resulted in 70,500 acres of NEPA 
analysis completed, using tools under HFRA title I, with only one 
objection filed and no lawsuits. A second HFRA EA was completed in May 
of this year with no objections received. This decision will add 
another 25,000 acres to the contract.
    The 10-year guaranteed supply of wood fiber enables wood product 
businesses to invest in equipment designed specifically to treat and 
mill small diameter wood. Prior to the stewardship contract, forest 
restoration costs were as much as $1,100 per acre. That cost now ranges 
from $350 to $550 per acre.
Title II--Biomass
    Title II provides authority to help overcome barriers to the 
production and use of woody biomass material produced on fuels 
reduction and forest restoration projects.
    Section 201 amends the Biomass Research and Development Act of 2000 
(Title III of P.L. 106-224) to provide for research on woody biomass 
production and treatment. Working with the Department of Energy, USDA 
added specific language to the 2004 Request for Funding Proposal (RFP) 
to conduct this research and two research proposals were funded at $1 
million each. The two projects were designed to increase the 
utilization of woody biomass from the wildland urban interface 
throughout the Southeast.
    Section 202 authorizes the chief, in consultation with the State 
and Private Forestry Marketing Unit at the Forest Service Forest 
Products Laboratory to carry out programs to accelerate adoption of 
biomass technologies and to create community-based enterprises through 
market activities. In FY2005, 20 grants were awarded for $4.4 million. 
In FY 2006, 18 applications, totaling almost $4.2 million were 
selected. Applications came in from all parts of the country with a 
significant number coming in from the West because of the preponderance 
of national forest lands, as well as significant amounts of fire class 
condition 3 lands.
    Six of the USDA Forest Products Laboratory grants have been awarded 
to White Mountain Stewardship Contract-based businesses over the last 
two years. These grants are a vital source of ``seed-money'' to 
purchase equipment and technologies to utilize and manufacture value-
added products from small-diameter wood. There are 13 businesses 
harvesting and utilizing wood from the stewardship contract that 
support 450 full-time jobs in Arizona, and 318 of these new jobs are in 
the local area. These 13 businesses spent over $12 million for goods 
and services in the local White Mountain region in the first year.
Title III--Watershed Forestry Assistance
    Title III authorizes the Forest Service to provide technical, 
financial and related assistance to state foresters or equivalent state 
officials or cooperative extension officials aimed at expanding their 
forest stewardship capacities and to address watershed issues on non-
federal forested land and potentially forested land. Title III also 
directs the Secretary to provide technical, financial and related 
assistance to Indian tribes to expand tribal stewardship capabilities 
to address watershed issues.
    The Forest Service, working with state forestry agency personnel 
and tribal members, has developed separate draft guidelines to 
implement the State and Tribal Watershed Forestry Assistance programs.
Title IV--Insect Infestations and Related Diseases
    Title IV directs the Forest Service and U.S. Geological Survey to 
establish an accelerated program to plan, conduct, and promote 
systematic information gathering on forest damaging insect pests, and 
the diseases associated with them; to assist land managers in the 
development of treatments and strategies to improve forest health; and 
to disseminate the results of such information. Title IV directs the 
Secretary to carry out the program in cooperation with scientists from 
colleges and universities, governmental agencies and private and 
industrial landowners.
    The Secretaries of Agriculture and the Interior announced in the 
summer of 2004 the formation of a series of partnerships to help 
implement HFRA in the southern United States. Since then, two 
landscape-scale applied Title IV silvicultural assessments on the 
Ozark-St. Francis National Forest were developed to address 
infestations of the southern pine beetle and red oak borer, which 
threaten forest health in the region. Another applied silvicultural 
assessment for maintaining habitat diversity and reducing the risk of 
mortality from gypsy moth and oak decline is underway on the Daniel 
Boone National Forest. Another assessment on the effects of 
silvicultural treatments for gypsy moth control is taking place on the 
Monongahela and Wayne National Forests. The Forest Service also has two 
assessments concerning hemlock woolly adelgid agency lands in western 
North Carolina and on the Allegheny National Forest in Pennsylvania.
Title V--The Healthy Forest Reserve Program (HFRP)
    HFRP is a voluntary program established to restore and enhance 
forest ecosystems to: 1) promote the recovery of threatened and 
endangered species; 2) improve biodiversity; and 3) enhance carbon 
sequestration.
    The program is authorized through 2008. Restoring and protecting 
forests contributes positively to the economy of our Nation, provides 
biodiversity of plant and animal populations, and improves 
environmental quality. HRFP includes a safe harbor provision for 
landowners who enroll and agree, for a specified period, to restore or 
improve their land for threatened or endangered species habitat. In 
exchange, they avoid future regulatory restrictions on the use of that 
land protected under the Endangered Species Act.
    On May 18, 2006, Under Secretary of Agriculture, Mark Rey announced 
the availability of $2.3 million for the HFRP in selected forest 
ecosystems. In FY 2006, HFRP will focus on habitat recovery for the 
endangered red-cockaded woodpecker in the Lower Ouachita River Flatwood 
region of Arkansas, the Canada lynx in the northern boreal forest of 
Maine, and the gopher tortoise in the longleaf pine ecosystem along the 
Gulf Coast in Mississippi. The work in the Lower Ouachita River area 
will also benefit the very rare Ivory-billed woodpecker. Signup for 
this program began June 19 and ended July 7, 2006.
Title VI--Forest Inventory/Monitoring and Early Warning Systems
    Title VI directs the Secretary of Agriculture to carry out a 
program to monitor forest stands on some National Forest System lands 
and private lands to improve detection of and response to environmental 
threats.
    The Forest Service announced in October 2004 a national strategy to 
prevent and control the threat of invasive species and non-native 
plants on 193 million acres of the National Forest System and to guide 
research and technical and financial assistance. The strategy focuses 
on four key elements: preventing invasive species from entering the 
country; finding new infestations before they spread; containing and 
reducing existing infestations and restoring native habitats and 
ecosystems. The strategy is relying on ``The Early Warning System for 
Forest Health Threats in the United States,'' developed as part of 
HFRA, which describes for the first time, in one place, the nation's 
system for identifying and responding to forest health threats, and 
includes web sites to obtain further information.
    The Forest Service is proactively identifying potential threats and 
treating pathways of entry that may bring invasives to the United 
States. For example, we are conducting surveys of ports in the Russian 
Far East for activity and infestations of the Asian variety of gypsy 
moth in cooperation with the Animal and Plant Health Inspection Service 
(APHIS) and the nation of Russia. In 1992 alone, it cost USDA $32 
million to eradicate an infestation of Asian gypsy moth in the United 
States, so our early detection efforts could save millions of dollars 
in eradication costs.
    To facilitate the direction in Title VI, the Forest Service has 
established two threat assessment centers to evaluate, on a broad scale 
with our federal, state and local partners, the impacts of invasive 
species and diseases and other threats to the health of ecosystems. The 
Western Threat Assessment Center established in March 2005, in 
Prineville, Oregon, shares facilities with the Ochoco National Forest, 
and employs six permanent scientific and administrative staff and a 
visiting scientist. The Eastern Threat Assessment Center was 
established in October 20004 in Asheville, North Carolina. The center 
is housed with the Southern Forest Research Station and plans to employ 
five permanent staff and five visiting scientists.
    The centers are developing user oriented technology and cutting 
edge research on invasive species. Additionally, the Centers have 
initiated a major cooperative venture with NASA's Stennis Space Center 
to identify promising remote sensing and geospatial technologies for 
early detection of environmental hazards and response or susceptibility 
of forests to multiple stresses. This technology will be incorporated 
within an early warning system that will use combinations of low and 
high-resolution imagery with information gathered in field samples to 
alert managers of developing threats.
               outlook for future implementation of hfra
    The Administration is committed to using the authorities of the 
HFRA. We are encouraged by the innovative applications of the HFI and 
HFRA authorities which truly are helping to restore healthy forest and 
rangeland ecosystems. I also want to assure the American people that we 
are doing everything we can to efficiently reduce hazardous fuels, 
restore healthy forests and collaborate to protect communities. In June 
I ordered the agency to begin an expedited review of our use of the 
Healthy Forests tools which includes analyzing exiting data bases, 
interviewing our employees, partners and stakeholders, and making field 
visits to selected forests. We will use this information to identify 
what is working well and what is not, and use this knowledge to improve 
the overall performance and oversight of the HFI/HFRA authorities in 
the hazardous fuels reduction program.
    We know there is much work ahead of us. For example, small diameter 
woody material makes up a considerable amount of hazardous fuels but is 
extremely costly to remove and currently has little commercial value. 
We will continue working with our partners exploring opportunities to 
improve utilization of this material and reduce the cost of removing 
these hazardous fuels. We will also continue working closely with 
community organizations to increase public understanding of the need to 
reduce hazardous fuels, and to increase public awareness that the 
removal of some merchantable trees is a financially responsible and 
ecologically appropriate part of that work. We know that in the end 
what is important is that we are leaving a healthier, more resilient 
forest on the landscape for future generations.
                               conclusion
    Mr. Chairman, the HFI and HFRA authorities are proving to be very 
helpful in our efforts to make significant improvements to the health 
of this country's forests and rangelands. I would say that we also have 
the need for similar tools to help us recover and restore areas after 
natural events which are catastrophic in nature such as wildfires, wind 
events, ice storms and insect and disease infestations. I have 
testified for the administration in strong support of H.R. 4200, which 
we believe provides the tools to allow us to expedite recovery and 
restoration of lands following catastrophic events.
    I would be happy to answer any questions the committee members may 
have.

    Senator Craig. Again, Chief and Nina we thank you for being 
with us. Your report and your candidness I noted Chief when you 
opened your testimony you used a key phrase. ``We've 
accomplished that which has been funded'', the question that 
won't get asked today but I'll put it on the record and that 
is: How many acres you wished would have been funded that OMB 
wouldn't allow you to fund? I think that's important to 
understand because it is significant and it is an issue that I 
think we're going to continue to struggle with here. And that 
is not to suggest that OMB is totally wrong in how we shape our 
priorities. But also the fact that we started well behind the 
curve as related to the health of our forests and our ability 
to deal with them in a timely fashion. I hear the frustration 
of Senator Feinstein, I know that California got, you know $40 
million over a 3 year period at a cost of about $8,000 per acre 
and that's the reality of a problem we face in certain areas of 
the Nation where commercial logging was long ago opposed and 
largely stopped building any kind of infrastructure to deal 
with it and to deal with the reality of mechanical thinning is 
even more costly than in areas where there remains some 
remanence of an industry that can cope with or handle or has 
the talent to cooperate with the Forest Service on these 
issues. It is a struggle but while we are critical it is 
obvious progress is being made.
    Chief, I'm pleased that Gail is here and that you've 
introduced her, and I know that there are some projects being 
delayed in region 1. It's possible Gail if you would come to 
the table you could respond to and help us understand some of 
the examples of the problem, what's happening on the ground, 
why the delays, and what it means to get to these treatments 
and get them completed.
    One of the examples that has frustrated me is Mica Creek in 
the northend in the Panhandle, Bonners Ferry Municipal 
watershed. I mean this ought to be something that everybody's 
concerned about. Here's a watershed that has burned twice in 
the last 4 years and after restoration got wiped out by a cloud 
burst, because obviously it didn't have the ability to sustain 
itself post fire. And yet we've experienced considerable 
delays, that ought to be an example of something the committee 
would want to hear about, if you could react to it and any of 
those other kinds of problems that deal with primarily urban 
wildland interface.
    Ms. Kimbell. Thank you, Senator. The Mica Creek project 
that you speak of is a pretty unique project in that after the 
recent fires in 2003 it was the chairman of the Tribe who got 
together with the county commissioner and the mayor of Bonners 
Ferry to meet with the district ranger to talk about what kind 
of opportunities there might be for the community to work 
together to plan something for the watershed, to be able to 
anticipate future fire events, to improve the health and 
condition of the city's watershed.
    The watershed is just upstream from the reservation and in 
the event of a catastrophic event--a further catastrophic event 
all those who live on the reservation are just outside the 
forest boundary were certainly at risk, their homes where at 
risk. This collaborative effort has been working now for 
several years. There was a tremendous effort made to include 
all the diverse interests in the community and it has had a lot 
of activity. I have visited the ranger district and visited 
with the folks who established the collaborative. Just as they 
thought they where able to--as they thought they were arriving 
at a consensus there were actually some outside groups, some 
folks from outside the community who chose to take issue with 
the long ongoing collaborative effort and the consensus 
decision and have really disrupted the process. Still even with 
that we hope to have a decision come out of that effort 
sometime this summer. But it has been long in coming.
    Senator Craig. Thank you very much. Chief I know your staff 
has worked to make the point with my staff that the Forest 
Service's effort in Healthy Forest are just beginning to ramp 
up. When we look at the 77,000 acres accomplished to date and 
then we draw the conclusion as it relates to the 20 million 
acres, it's going to take a couple hundred years here. The 
optimist would look at the rate of increase in accomplishments 
between fiscal 2005 and July of this year and believe that the 
two agencies will complete 20 million acres in less time. The 
visionary would look at this data and the over emphasis on the 
use of fire in the Southeast and develop a strategy for change. 
He or she would speed up the date when we could complete the 20 
million acres, with most of that occurring in the overstock 
forest stands in the West, where we have the most significant 
problems. Can you provide the vision, the work plan, or the 
outline of such a plan for the committee today?
    I mean, where do you see us going in the next 3 years, 5 
years as it relates to funding? What you've learned Nina you 
can certainly chime in on this. I know there's a learning curve 
here in part as we bring these agencies together in 
collaborative ways, along with communities that the law 
required. And at the same time use the tools of the act in a 
way that doesn't find the agencies in court that bring interest 
groups together in a way that's much more productive than in 
part we've been.
    Mr. Bosworth. There's a couple of things I'd like to say 
first. There's been a couple comments regarding an over 
emphasis in the South. And I'd like to sort of give my view of 
that. Many acres--we've accomplished many acres through burning 
in the South that's true. We probably pay some--it probably 
costs us somewhere in the neighborhood of $25 to $30 an acre to 
do that burning. Some of that is maintenance burning, the 
problem if we didn't do that in the South it would take about 3 
to 5 years, the rate the vegetation grows there and we'd be in 
the same situation there that we are in many of the other areas 
in the West. So it's very important I believe that we maintain 
what we've accomplished. Especially when we can do it at a rate 
of $25 to $30 an acre, as opposed to shifting all the dollars 
to the West and then having to pay $100 or $200 or $300 an acre 
to do the same thing in 5 or 6 years in the South. So to me the 
issue is how do we increase the amount of work in the West, not 
how do we decrease the amount of work in the South.
    Now in terms of the--sort of vision you're asking about the 
way I see it is, and the way that we need to be increasing the 
amount of work that we get done is by reducing the cost per 
acre over time. The way you reduce the cost per acre over time 
is by getting an infrastructure in place, so that we can 
utilize more of the material that's removed from the forest to 
reduce the cost, so there's some value to that material. In 
many of our real high costs areas we have some places that cost 
a couple thousand dollars an acre and that's generally because 
there's not much way to utilize that because the 
infrastructures disappeared.
    So we need to maintain the infrastructure where we have it. 
We need to increase the infrastructure where we don't have it, 
and over the next several years I think that as we develop 
these collaborative approaches I think that would be very 
helpful. I also think that there's some additional kinds of 
authorities that we might want to discuss as time goes that 
would be helpful in terms of helping to improve the 
infrastructures. For example, some authorities for partnership 
zones where we could establish some zones around communities 
and be able to contract with some entity where we work together 
in a collaborative way in a specific zone, and be able to 
contract with an entity that would know that there going to 
have the contract over the next several years so they'd be 
willing to establish an infrastructure. I think that there's 
some authorities along those lines that would be useful.
    I also think some authorities along the lines of the Good 
Neighbor Authority that we have in Colorado on a broader scale 
would be something that we might want to have future discussion 
on that would be helpful. I think that another thing that would 
be helpful in helping us achieve our vision I think, would be 
to take the objective process that we have in HFRA and be able 
to apply that across the board in terms of projects in the 
Forest Service. Right now our field people, every time they do 
a project they have to say, okay now is this done under the 
authorities of HFRA so that we have one appeal process, or no 
wait a minute if it's done under another authority we've got a 
different administrative review process. It's proven to be 
very, very useful this process we have under HFRA. It'd be very 
helpful to have that be more encompassing so that our folks 
have one system that they're using and it's a good system like 
the system that we have under HFRA.
    So those are a few of the things that I would help us 
achieve the vision of increasing significantly the amount of 
acres that need to be done.
    Senator Craig. Those are very thoughtful and helpful 
proposals. Let me turn to my colleague Senator Wyden, Ron.
    Senator Wyden. Thank you, Mr. Chairman. Chief I've been 
trying to unpack essentially the arguments that you've been 
making over the last couple of years. And they just simply, you 
know don't add up. I mean we have heard now that the Forest 
Service and the BLM have spent in the last two fiscal years 40 
percent of there total fuels reduction work in the Southeast 
United States. This is the area that contains less that 7 
percent of the National Forest System, you know, lands. And 
you've said that's because there's work that needs to be done 
in the South, and we don't dispute that at all and we ought to 
do it now and let's do it even at the expense of the West.
    I mean it's sort of like pitting these two parts of the 
country against each other which we have tried carefully not to 
do. It doesn't make any sense, to me. But as we try to track 
the numbers the central concern I have is that there is no 
system for accountability.
    Chairman Craig and I have been concerned that if you look 
just under the Healthy Forest Reconstruction Act that's where 
we're seeing the 77,368 acres treated out of the 20 million 
target because we can measure it. But I know you would say that 
much work is being done than that, I've heard that.
    But then after you hear all the numbers rattled off in 
these various accounts you can't get your arms around any clear 
system to measure how this work is being accomplished. Is there 
one place that you can give this subcommittee where we can see 
the work done under the Healthy Forest Reconstruction Act, the 
work done in the other areas, so that we could really unpack 
these arguments that you're making?
    Mr. Bosworth. Okay first I'd like to go back to the South 
again for just a minute before I answer that question.
    Because there's some number differences there. We've spent 
about 17 percent of our dollars in the South.
    Senator Wyden. We're talking about 40 percent of your total 
fuels reduction work, that's the number that we have----
    Mr. Bosworth. In terms of acres.
    Senator Wyden. Right.
    Mr. Bosworth. We've accomplished a lot more in the south 
but that's because we do it at about $25 to $30 an acre.
    Senator Wyden. We've heard that, we've heard that argument, 
but you're still pitting the South against the West and much of 
the West has been a blaze in the last you know few weeks. We're 
not seeing that in other parts of the country, and that's why 
we've got to respond to our constituents.
    Mr. Bosworth. I don't believe that, we're not trying to pit 
one part of the country against the next. What we're trying to 
do is allocate the dollars out in an effective way. Seventeen 
percent in the Southern region those 14, 15, or 16 States 
doesn't seem it fits in with the, I think an appropriate 
disaggregation of the dollars that we do get.
    But when you can get the job done for much less cost, than 
their going to achieve more acres with that. That seems 
appropriate from my standpoint.
    Ms. Hatfield. And if I might interrupt in terms of the 
Department of the Interior in the South, we've spent about $28 
million, $29 million as compared to $170 million in Oregon, and 
$120 in California, $113 million in Idaho. So the vast majority 
of the money that we have on hazardous fuels----
    Senator Wyden. Let me see if I can get an answer to the 
question. Is there one place where we can see all of these 
accounts and actually add up what is being accomplished? 
Because even under the Healthy Forest Reconstruction Act the 
numbers are just all thrown together. There's not a list of the 
projects and what we'd really like to see is the projects under 
these various funding sources in one place, so that we can 
really make an evaluation of whether the tax payers are getting 
there monies worth and this work is getting done.
    Mr. Bosworth. We can show you the acres that we accomplish 
monthly, in terms of fuels treatment.
    Senator Wyden. Projects. I'm talking about the projects and 
how much is being spent on a project under the various funding 
sources.
    Mr. Bosworth. We don't necessarily keep it by funding 
sources. We don't keep, you know, we keep a total of how many 
acres we accomplish. If we accomplish fuels treatment in an 
area, we can tell you the project, we can tell you the number 
of acres, we can tell you whether it was in the wildland urban 
interface or whether it wasn't, we can also tell whether we did 
it with prescribed burning or whether we did it with mechanical 
means.
    Senator Wyden. Mr. Bosworth, when you came with Mr. Rey, in 
March 2004 we expressed concern at that time that we weren't 
making enough progress in terms of getting these projects off 
the ground. Mr. Rey said and I'll quote here, ``Our goal is 
over the next couple of years to double that to where we are 
treating eight to nine million acres a year.'' So if you look 
at what has been accomplished even in relation to what we where 
told, it comes back to that fact that we are light years behind 
what the Senate envisioned and I want to know what's going to 
be done to change that.
    Mr. Bosworth. In 2003, I believe that together we where at 
about 2.5 million acres, 2.6 million acres somewhere in that 
vicinity. For 2006 to date right now we're at about 4.5 million 
acres. That's a significant increase from where we where I 
think what Undersecretary Mark Rey said is being accomplished. 
It's a significant increase over what we did 2 years ago.
    Senator Wyden. Again if you use just the statute and that's 
really all that we can look at in terms of trying to breakdown 
where this money is going. Under title I, we're only seeing 
77,368 acres, it's 1 percent of the 20 million acre goal. So, 
I'd like to get beyond throwing figures back and forth at each 
other, because I will tell you I cannot coherently track all 
this mumbo jumbo. We've gotta see the specific accounts, and 
see where the money is going for various projects.
    Let me if I might ask you about one other comment that you 
made Chief. You said that you were going to be able to in 
effect, do more with less. You said, and I'll quote. ``By 
coming up with new processes and new tools that allow us to be 
able to spend more dollars on the ground, less dollars going 
through processing paperwork, categorical exclusions, we can 
work more effectively.'' That was essentially your argument. 
What new processes, specifically have you been putting into 
effect? Because I think Senator Feinstein made the point that a 
lot of us are concerned that you don't seem to be using the 
tools, even under the law, so again let's try to unpack what 
you said in the past, and what new processes are you using so 
that you can get more with less?
    Mr. Bosworth. Well some of the kinds of things that we've 
done under the healthy forest initiative, have been helpful. 
Things like counterpart regulations with fish and wildlife 
service in the north fisheries, to be able to improve the 
ability to consult, and when we have threatened or endangered 
species, to make that go faster. With some of the categorical 
exclusions, that we've added to increase the speed with which 
we can get some of the work done. And let me just give you an 
example, if I may. In early June there was a tornado that 
occurred in Idaho on the Payette National Forest, near the 
small community of Bear. There was a--for that area, that was a 
pretty significant amount of blow down. It was about a mile 
wide, and about 13 or 14 miles long of trees all blown down. 
Within 9 days, we had our first small timber sale to open up 
some of the roads by the end of September, we will--using the 
Healthy Forest Restoration Act authorities--we will have sold, 
well made a decision and completed that, to move forward and 
sell it. That's 4\1/2\ months, or 4 months. That's fairly quick 
to be able to go after about 25 million board feet of blow down 
and to deal with a significant fuels problem that's occurred 
there.
    Another example would be Hurricane Katrina, within 6 to 8 
months after Hurricane Katrina, using the Healthy Forest 
Restoration Act program--authorities, we treated 115,000 acres 
and removed over 300 million board feet of timber. And we did 
that with the environmental community, and the business 
community side by side.
    Those authorities work very well in certain areas. What I'm 
telling our people is get the work done on the ground. I want 
them to figure out which of the authorities is the best, I'm 
not telling them to get the work done on the ground using the 
HFRA authorities. I'm telling them to get the work done on the 
ground, using the best authority available.
    Senator Wyden. My time is up. We want to get the work done 
on the ground as well Chief. But it is impossible with this 
mumbo jumbo of facts and figures flowing from all these areas, 
get a sense whether the taxpayers are getting their money--I 
want to put into the record Mr. Chairman and analysis 
indicating that a variety of the provisions in the Healthy 
Forest Restoration Act, have either not been implemented or 
have only minimally been implemented, it involves titles II and 
III, watershed, insect and disease fighting, is something that 
concerns Senator Salazar and I thank you for the time.
    Senator Craig. Senator thank you.
    Senator Smith.
    Senator Smith. Thank you Mr. Chairman. I want to, before I 
question our witnesses, welcome the Oregonians who are here, 
three county commissioners, Anna Morrison from Lane County, 
Steve Grasty from Harney County, and Colleen MacLeod from Union 
County. And Colleen will be testifying on the next panel, so 
welcome.
    Chief Bosworth, 4 years ago, we had the Biscuit fire and 
the Forest Service has won, 13 out of 13 lawsuits relative to 
that fire, and salvage efforts that have been made, yet there 
are only 640 acres of that salvage that remain before the Ninth 
Circuit, this represents one/one thousand of the half a million 
acres of that fire. One/one thousandth.
    Unfortunately my State of Oregon has joined Green Peace and 
others in seeking an injunction on that and I wonder if you can 
give us any update on salvage on the Biscuit fire.
    Mr. Bosworth. The Mikes Gulch timber sale, which is 
currently one of the last of some of the projects there, we've 
been through court a few times on that, we won the last time, 
we have awarded that timber sale--that's for like 261 or 265 
acres. It's in a roadless area, a roadless that's surrounded on 
three sides by roads and that particular timber sale will use 
only helicopters, so there would be no road construction. The 
purchaser is free to----
    Senator Smith. So, no roads are being built in the roadless 
area?
    Mr. Bosworth. There will be no roads, no landings, all logs 
are being flown out to roaded areas. The purchaser can go in 
whenever he wants. He's chosen to wait until after August 4, 
due to some more legal issues, but the sale has been awarded 
and we are expecting to move forward with that.
    Senator Smith. When Mark Rey was in Pendleton, he made a 
promise that the Wallowa-Whitman, the Umatilla and the Malheur 
National Forest would be added to the Washington office review 
of the Healthy Forest Initiative implementation. Can you give 
me any update on whether they have been added to the review.
    Mr. Bosworth. Yes, they have been added to the review. I 
would like to point out that the review that we're doing--that 
we're attempting to find out again what's working, what's not 
working, what improvements could be made, and so there is a 
number of ways that we're approaching that. One is to go out 
and visit some of the forests and talk to both the Forest 
Service folks who are working with it as well as our partners 
that are trying to work with us.
    Another approach is by sending some questionnaires out so 
we can get to a lot more people and find out, again, and answer 
some question. We'll evaluate the feedback that we get and then 
figure out what kinds of adjustments that we need to make. 
Whether it be additional training of our folks, whether it need 
to be some adjustments to our approaches or whether we need to 
come back to you and ask for some additional authorities.
    Senator Smith. Chief, can you speak to the issue of--how 
does a Forest Service evaluate maintaining milling and 
infrastructure? In my opening comments I expressed concern 
about losing it all, and if you lose anymore, the cost of the 
Healthy Forest Initiative, your cost, grow exponentially and I 
wonder if you factor that in, in terms of the overall Forest 
Service program and specifically as it relates to the Healthy 
Forest Initiative.
    Mr. Bosworth. Well, there's several ways of looking at it. 
There's sort of the national approach in what are we doing at a 
national level and what's the overall infrastructure. But, most 
effectively, it's each regional forest or a forest supervisor 
understanding their area and where the infrastructure is within 
their particular forest by working with the mill owners, 
understanding how much volume they're going to need over time 
in order to stay in business. And then also understanding what 
the adjacent land owners and other agencies such as the Bureau 
of Land Management might be able to provide and working 
together, we should be able to keep providing the level that 
they need. We don't always get that done. But we generally 
understand, or have a pretty good understanding of what is 
necessary in order to keep enough raw material supply so that 
infrastructure can stay in place.
    Senator Smith. So, it's a priority, it's important?
    Mr. Bosworth. It is important. As you said, if we lose that 
infrastructure, the costs go up significantly. Here we're 
trying to get more infrastructure, it'd be crazy to lose what 
we have and we don't want that to happen.
    Senator Smith. Thank you, Mr. Chairman.
    Senator Craig. Thank you very much, Gordon.
    Senator Feinstein.
    Senator Feinstein. Thank you very much, Mr. Chairman. 
Chief, let me ask you this question. What would you say, in 
terms of frequency of big fires devastation, are the top five 
States for this kind of fire?
    Mr. Bosworth. California would probably be at the top of 
the list. I think Arizona and New Mexico these days, are both 
very high on the list. Colorado and Alaska is, from a number of 
acre standpoint, in terms of numbers of communities or the 
number of people in communities affected, Alaska wouldn't be as 
high as say New Mexico, Arizona and Colorado and California, 
but in terms of numbers of acres that get burned, it's huge.
    Senator Feinstein. See, what I think we tried to do when we 
crafted this bill was give you, sort of, new authorities to be 
able to proceed and to better prioritize. I mean, I was 
dumbstruck when they told me most of these monies have gone 
into the Southeast where you don't have the frequency of big 
devastating fire like we do in other places.
    Mr. Bosworth. But, Senator, the money hasn't gone to the 
South. Only 17 percent of the money has gone to the South. More 
acres get accomplished in the South, but only 17 percent of the 
dollars that we have, have gone to the South. I think that the 
numbers that get----
    Senator Feinstein. The big acreages are in the West.
    Mr. Bosworth. And that's why the bulk of the money--that's 
why 83 percent of the dollars are going to the West. Because we 
have the huge acres. In the South, we have a lot of Wildland 
Urban Interface, we have fewer acres of forest, we have--almost 
every forest is involved with homes and communities around it. 
But, again, that 17 percent is about an appropriate amount 
that, I believe, should continue to the South. And I think that 
the larger amount, you know, the 80 percent, 75 to 80 percent 
that goes to the West is appropriate.
    Senator Feinstein. Well, let me ask you this question, and 
Mr. Chairman and ranking member, I wonder if it makes some 
sense for us to do some special legislation for those States 
that burn the most often, where the fires are the most 
devastating, where the property loss is greatest, to begin to 
get some special help in there. I think California, now, is 
going to burn every year. Global warming is playing a role. I 
mean, I have been just struck by the fact the repetition of 
these southern Californian fires and they are huge. Now, this 
is a lightning strike that started, I gather, that started this 
last big fire. That maybe we need to set some priority where 
these States that are really hit hard have some special help.
    Senator Wyden. Well, the Senator is being way too logical 
and heaven forbid that logic breakout over this, but that is 
exactly what we want to do in the law and I want to follow up 
with the Senator, I know the chairman does as well.
    Senator Feinstein. It doesn't work out that way because, if 
I just may for a moment more, because they get, can I put it 
this way, more bang for the buck in terms of working in these 
other areas. Therefore, I mean, if I were you, I'd probably do 
the same thing, you want to accomplish something, therefore, 
you go where it's the easiest to accomplish and not more 
difficult and more expensive to accomplish. So, perhaps you 
could reflect on that for a moment, Chief.
    Mr. Bosworth. I believe that we're going to, generally, to 
the highest priority areas. I will say that when we have years 
like the last 2 years, we had excellent burning conditions, I 
mean, for prescribed burning around the country. And we did a 
higher percentage of our fuels treatment work when we had good 
conditions to do prescribed burning we used--we took the 
opportunity in those years to do more prescribed burning.
    This year has not been a good year, from a weather 
standpoint, to do prescribed burning, so we move more into 
using mechanical. That's more expensive. You get fewer acres 
done, but we still are working on the high priority acres.
    I'd like to use the example of San Bernadino. We're working 
very closely with MAST, the Mountain Area Safety Task Force. 
Together we set the priorities, which presumably, based upon 
the local people, believe that those are the highest priorities 
and those are the places that we go to to do the treatments.
    Senator Feinstein. Yes, let me just say one thing. I have 
heard from residents who have been part of larger fires that 
the treatment really does work. I've had people come to me and 
say, you know, I didn't believe it in the beginning, but we had 
this Community Protection Plan, we got together, we did it, we 
cleared some brush and it saved my house when there was a fire. 
So, we know it works. But the question is, how do we do more of 
it? Because the acreage is so vast.
    Mr. Bosworth. That's difficult for me to say, you know, 
you're asking about which five States, for example. It's 
difficult for me to say that our dollars all go to those five 
States.
    Senator Feinstein. I didn't say all----
    Mr. Bosworth. No, no----
    Senator Feinstein. I said a special----
    Mr. Bosworth. The higher priority.
    Senator Feinstein. Right.
    Mr. Bosworth. We're looking, right now, we're working on a 
process for prioritizing our fuels dollars. That, and we're 
working together with the Department of the Interior and we're 
taking into account the values at risk, the amount of fuel, in 
other works, the level of fuel, the efficiency of each, you 
know--the efficiency of the operation.
    We're not trying to compare the South with the West, again 
in terms of efficiency, we're looking at if--we're trying to 
compare that efficiency on a, you know--with itself. In other 
words, isn't San Bernadino getting better in terms of their 
efficiency each year? That would give them some extra points. 
We want to see people improving their efficiency by using the 
tools. So, those are some of the criteria that we'd be using 
for allocating the dollars in 2007, that would help get to the 
highest priority areas because, again, if the values at risk 
are the highest, then that's where more of the money will go. 
I'd be happy to have our folks work with your staff and kind of 
go over that system that we want to implement that--to get the 
dollars to the highest priority areas.
    Senator Feinstein. Well, if you do that, we'd like to work 
with you and I'd appreciate that very much, thank you. Thanks 
Mr. Chairman.
    Senator Craig. Senator, thank you very much.
    Senator Murkowski.
    Senator Murkowski. Thank you, and I want to follow up on 
this issue of the prioritization so that I can understand it 
better. Up north, we've got, within the Chugach National 
Forest, we've got more than 5 million acres up there. It's the 
second largest unit in the National Forest System. You've all 
heard about the amount of spruce bark beetle kill and the 
infestation into those lands as well as on the other Federal 
lands there on the Kenai Peninsula. We've got population 
centers in Kenai and Soldotna and Anchor Point and Homer. These 
are not--this is not up north in the interior where every few 
hundred miles, you might have a village. This is a Peninsula 
that is populated and is infested and is part of your 
management system.
    What can you do to assure me that the prioritization for 
the folks down on the Kenai Peninsula is up there, in other 
words, it's getting its fare share of the hazardous fuel 
reduction funding the activity there and perhaps, Gail, if you 
can give me any specifics as to what exactly are we seeing on 
the ground up there?
    Mr. Bosworth. I do believe that the Kenai Peninsula for the 
Forest Service in Alaska is a priority, so the dollars that we 
get that go there are going to be going to the Kenai. One of 
the difficulties on the Kenai is that so much of that is 
private land, and of course, there's different pots of money, 
but----
    Senator Murkowski. No, not so much of it is private land, 
as you know, we have less than 1 percent of private land in the 
entire State. You've got pockets of it that do complicate it, I 
will grant you that.
    Mr. Bosworth. Yes, and in the Kenai, it does add that 
complexity, and again, that makes these Community Wildfire 
Protection Plans that much more critical. But, as we're 
developing those Community Wildfire Protection Plans, those are 
the places that we had the priority to in terms of identifying 
those priorities.
    Again, I'd be happy to visit about the priorities and to 
visit about our approach in disaggregating the dollars out to 
the regions, because, you know, there's several things that 
would be effective in terms of the Kenai, there's high risk 
there, because of the amount of fuel that's build up, because 
of all the dead spruce that's there, so that adds to the, sort 
of the importance of the Kenai.
    Values at risk are associated with--more with communities 
or with watersheds in terms of municipal water shed, and so for 
places that don't have as many people, then they would be lower 
in terms of the priority and then those that have bigger 
communities and more communities would have--there are more 
people at risk would raise it. We're using all those different 
factors in determining where to get the dollars at.
    Senator Murkowski. Well, what I want to understand, you 
know, there used to be a time when Alaska burned during the 
summer and because it was out in remote areas, the mindset was, 
we just let it burn. If it's getting close to property or 
villages or communities, then we intervene. But, for the most 
part, it was a let it burn theory and I don't want that whole 
State up there to be viewed on a map as, that's just one area 
where we know we get 11 thunder strikes, a day, or excuse me, 
lightning strikes a day and fires are just going to burn up 
there. I want to know that when we've got an area like the 
Chugach, like the Kenai Peninsula that that has a 
prioritization because of the number of communities that we 
have down there, the property at stake, and I guess what we do 
need to do is sit down, so that I can fully understand what the 
priority is, what we're seeing with the projects there to know 
that this second largest unit in the national forest system is 
getting some attention.
    Mr. Bosworth. And again, I agree with you, the Chugach and 
the Kenai needs to get just as much attention as any other 
forest that's in the lower 48 that has communities that has----
    Senator Murkowski. And has a high risk.
    Mr. Bosworth. Insect and disease problems and it should and 
I believe it does, but I'd be happy to go over that, have 
someone go over that with your staff to show how that's 
happening.
    Senator Murkowski. Let me ask you a question, Ms. Hatfield, 
and this came to my attention by some folks within the Kenai 
Peninsula Borough. As you know, on the eastern side of the 
Kenai Peninsula, you're bordered by the Chugach National 
Forest, but the western portion, which is where we've got more 
of the population there on the Kenai, this is bordered by the 
Kenai National Wildlife Refuge and I understand that the 
Healthy Forest Restoration Act does not require that the refuge 
system participate in the hazardous fuels reduction effort and 
there's some question as to whether or not the title I funding 
can be used to address the risks in the refuge versus urban 
interface there. So, the question that I've got to you is, as 
we're looking to prevent the wildfires, as we're looking to 
kind of reduce some of the risks, is this something where we 
need to amend the act to allow for fuels reduction on refuge 
areas?
    Ms. Hatfield. Well, we do have the use of our hazardous 
fuel reduction dollars in any of the areas that are related to 
the interior land. Now, the issue about the HFRA would be the 
specific tool of--some of the tools that are in the HFRA, but 
there are other tools like the categorical exclusions, 
stewardship contracting, other tools that would not prohibit us 
from being able to treat areas around the refuge, even though--
--
    Senator Murkowski. Around the refuge or in the refuge?
    Ms. Hatfield. In the refuge or around the refuge--in the 
refuge. We can still use the hazardous fuel dollars for the 
refuge, just like we would with BLM lands.
    Senator Murkowski. Okay.
    Ms. Hatfield. The issue is really whether or not the HFRA 
tools specifically would be used by the refuge and I'm saying 
our suite of tools that the refuge can use a lot of other tools 
that would allow them to do hazardous fuel reduction in Alaska, 
just like the BLM might use the HFRA tool on some of its lands. 
So, it's a matter of selection of tools in the entire tool box, 
rather than the fact they can't do, they can certainly do 
hazardous fuel reductions there too.
    Senator Murkowski. Do they have the full array of the tools 
then, is that what I'm understanding you say?
    Ms. Hatfield. They have the full array of tools except for 
HFRA. But they do have, like, they have the categorical 
exclusions, they have the stewardship, now I'll take that back, 
they don't have the stewardship contracting, but they can do 
the NEPA, they can use the categorical exclusions they have 
been able to do treatments and we can certainly share with you 
what we were doing in particular on that refuge.
    Senator Murkowski. I'd like to know the specifics on that. 
I appreciate that, thank you, Mr. Chairman.
    Senator Craig. Thank you very much, Lisa.
    Senator Salazar.
    Senator Salazar. Thank you very much, Mr. Chairman. Chief 
Bosworth, let me say, first to you and to Assistant Secretary 
Hatfield, you have a very, very tough job and I think we all 
recognize the enormity of the challenges that you face.
    Let me say that in my State of Colorado, the way that I see 
the bark beetle infestation and the one and a half million 
acres that have been infected and the several more million 
acres that we anticipate being infected, that I basically look 
at Colorado as very similar to Katrina. I see it as a Katrina 
of the West because just like in the case of Katrina, we could 
see the hurricane coming up through the gulf coast, we 
recognized probably 48 hours before landfall that it was going 
to be a devastating hurricane, and yet the Government did not 
do enough, in my view and I think in the judgment of all those 
who have reviewed, it was a rather inept response on the part 
of the Federal Government and other governments to deal with 
the issue of Katrina and now we find ourselves paying billions 
and billions of dollars for the reconstruction of the gulf 
coast.
    I see a lot of analogies to the problems that we face with 
the fire in the West and in my State and frankly, as tough as 
our job is, your job is, it just seems to me that we simply are 
not doing enough. When I look at the funding, for example, that 
we have set about for 2006, we're not providing the funding to 
do the hazardous fuels treatment that we could be doing.
    My numbers are that in Colorado, we have 240,000 acres of 
lands that have been approved for treatment, they've already 
gone through the whole NEPA process and they're simply waiting 
for treatment. But that we only have enough money to basically 
undertake the treatment for 25 percent of those acres, so that 
75 percent gap there concerns me because we could be doing more 
and we are not because of the funding issue. So, I would like 
you to comment on that and how we might be able to get up to a 
point where we are doing as much as we possibly can to address 
the issue.
    Mr. Bosworth. Over the last 2 years, and this isn't just on 
the front range, but throughout Colorado, we've accomplished 
about 200,000 acres of fuels treatment, somewhere in the 
neighborhood of 200,000 acres. I just recently flew over some 
of the insect infested areas in Colorado and there's no 
question that it's a huge issue there.
    Again, the long term approach has to be finding ways to be 
able to utilize that material, getting the infrastructure in 
place so that we can reduce the cost per acre. The Forest 
Service is part of a couple of collaborative groups. The people 
along the front are working very closely together to both 
figure out where the highest priority areas are that we should 
be treating and those are the areas that we're going after and 
we're looking at, together with the private land owners in the 
State and everyone, so that we're treating the acres, not just 
because it's our national forest, but the acres that are the 
most important, whether it's private land owners or whether 
it's State or whether it's national forest BLM, to make sure 
that we're getting the right acres and we're strategically 
locating those treatments to where they'll make the biggest 
difference.
    Senator Salazar. Let me just ask, to point the question, 
maybe get a little more clarity, though, if you had the money, 
we could move, in Colorado, from the treatment of 80,000 acres 
up to 240,000 acres. My understanding is that it's simply a 
budgetary shortfall that is keeping us from moving up to the 
240,000 acres of hazardous fuel treatment that's already been 
approved by NEPA. Is it a money issue?
    Mr. Bosworth. I believe that you're numbers, from my 
recollection, are very close. You asked if we had additional 
dollars, we'd treat additional acres, that's correct. So----
    Senator Salazar. Let me say----
    Mr. Bosworth. And there are a couple hundred thousand 
acres, excuse me, there are a couple hundred thousand acres, I 
believe, are through the NEPA process, on the shelf.
    Senator Salazar. Okay, let me also say that as tough as 
this problem is, it's going to take the work of a lot of people 
working on it together and I appreciate the work of the Forest 
Service staff on the ground working with the several task 
forces that we've put together to try to address the issue. I 
think it's local government, State government, the private 
sector as well as the Forest Service that ultimately will help 
us in making sure that we have a good plan that we can do as 
much as we can to help address the problem.
    Let me quickly, because I know I don't have a lot of time 
here, moving quickly over to this biomass issue, I know that 
under, I think it was title II of HFRA, there was research and 
grants provided into biomass energy production. We talk a lot 
about it in Colorado. Can you just give us a one minute 
encapsulation of what you're doing with respect to the biomass 
research and funding of grants for these projects in the west 
and maybe across the country?
    Mr. Bosworth. There were, I believe, five grants made 
originally that totaled up about $5 million, somewhere in that 
vicinity. Those were, I can't tell you specifically which areas 
they were awarded to, I believe one was awarded to someone in 
Colorado. They're a combination of research, technology, I 
think some of them are, sort of, public education to try to 
help figure out how to educate the public better on things that 
they can do in and around their homes and property. Ways to 
motivate people to do the right thing on terms of treating the 
lands. There's also some that have to do with better 
utilization and new ways of utilizing small diameter material 
to effectively use that economically so that it will lower the 
cost on the per acre basis. I'd be happy to get you a more in 
depth report on that. I think we've gotten like a first or 
second quarter report that's either about out or is out.
    Senator Salazar. I would, Chief Bosworth, appreciate very 
much receiving the description of those five projects so that 
we can learn in other areas of my State, and I'm sure my 
colleagues would want to learn as well and I look forward to 
meeting with you and with your staff to push this issue forward 
because it's an issue that I know concerns you and concerns all 
of us. Thank you very much.
    Mr. Bosworth. I'd be happy to do that, thank you.
    Senator Craig. Ken, thank you very much, now let me turn to 
the Senator from Wyoming, Senator Craig Thomas.
    Senator Thomas. Thank you, sir. I'll be very quick, thank 
you Chief and Secretary. Obviously lots of challenges in this 
thing and lots of acres that's hard to get to. Are you 
specifically limited to Wildlife Urban Interface issue areas?
    Mr. Bosworth. Wildland Urban Interface? No, we're required 
to do 50 percent in the Wildland Urban Interface. We have done 
about--I think the Forest Service is about 65 percent, but we 
also--we're looking for the highest priority areas, which often 
is in the Wildland Urban Interface, but it may be in a 
municipal watershed, in or around a municipal watershed or an 
area that has threatened or endangered species habitat that's 
very critical. There's a number of reasons why it might go to 
different areas.
    Senator Thomas. Yeah, I understand, but we haven't had any 
in Wyoming at this point, as a matter of fact and we do have 
quite a bit of forest.
    You testified that, in your testimony that you created 
23,000 acres and 71 treatments and before Katrina, 62,000 acres 
and 138 treatments. What's the meaning of the word treatment?
    Mr. Bosworth. Well, generally, when we're referring to a 
number of treatments, there will be a unit that--it's either an 
area that we have thinned, we'd refer to that as a treatment, a 
thinning treatment. Prescribed burning would be a treatment. 
So, those are really----
    Senator Thomas. Is that synonymous with any EPA decisions 
and how many NEPA decisions have you made?
    Mr. Bosworth. No, it wouldn't be synonymous with a number 
of decisions. We may go through an Environmental Impact 
Statement, make a decision on a large landscape area and then 
have a number of different projects that we would accomplish 
across that landscape. It may be, again, if it's with a 
community wildfire protection plan, we may do an Environmental 
Impact Statement for the whole area. It's a little different--
--
    Senator Thomas. It seems a little peculiar that out of the 
23,000 acres 71 treatments, that's only 300 and some acres per 
treatment. Why isn't it more efficient to do 1,000 or 5,000 
acres?
    Mr. Bosworth. It generally is more efficient to get more 
acres accomplished, but it depends upon----
    Senator Thomas. Well, that isn't the way that you've done 
it.
    Mr. Bosworth. Well, it depends on the particular area and 
sometimes it's more effective to do some smaller treatments, 
thinning or prescribed burning, that are strategically located 
that will protect a larger area than itself. What I'm trying to 
get at is that doing a number of treatments that are not right 
next to each other can sometimes protect a larger area so you 
don't have to treat every acre.
    Senator Thomas. Well, I understand, it must be difficult, 
but it seems like efficiency, you'd be more efficient, you'd be 
able to go into an area to do more than just 300 acres. That's 
not very large in terms of forests.
    Mr. Bosworth. That's also why we generally try to do a 
large area, from a NEPA standpoint, doing an Environmental 
Impact Statement----
    Senator Thomas. I would think so.
    Mr. Bosworth. We'd try to do it for a larger area rather 
than doing a whole bunch of small ones.
    Senator Thomas. We'd do to much of our time doing NEPA 
statements as opposed to actually doing the treatments and I 
understand that, okay. Thank you Mr. Chairman, I'll let you go 
on with----
    Senator Craig. Craig, thank you for being with us and 
asking those questions. I'd like to do a second round, but our 
time is not going to permit that. Obviously, all have 
demonstrated very real concern. I said, as we legislated the 
Healthy Forest Act, that we have largely lost the confidence of 
the American public as related to the management of our 
forests, that we're going to have to crawl before we walked 
again and then before we ran, we would have to walk. I think 
we've kind of come up out of the crawl and clearly you are 
accomplishing things. We are entering areas and asking for 
categorical exclusions and are asking the public for permission 
to do certain things that heretofore would have been contested 
and yet much of what you're trying to do is still questioned 
and resisted by many, even though it is clearly within the 
purview of a healthy forest or restoring the health of a forest 
and I'm quite confident that we're going to have to continue to 
gain that confidence, and in doing so, give you a greater 
resource and I think you're going to hear from my colleague, 
and let me turn to Ron for additional comment, a question of 
accountability as to where that resource goes.
    Senator Wyden. Chief, just as we leave, you're going to get 
us now, something that's going to allow us something resembling 
English to see where all of this money is going in the various 
forest health accounts, is that correct?
    Mr. Bosworth. I will be happy to work with your staff to 
figure out what it is that would be useful from you're 
standpoint and what we have and what we keep track of.
    Senator Wyden. Well, I will tell you, what we have on the 
record, I mean, here's Mr. Rey, for example, in March 2004, he 
said, I'll just quote here, ``We will be on a path to address 
this problem in 8 to 10 years.'' Now, if you look at the title 
I money, something you can actually, you know, measure, the 20 
million goal in the Forest Health Act, we're at 77,000 acres. 
That doesn't indicate we're going to turn anything around in 8 
to 10 years. In fact, we're going to turn around, by that 
calculation, in centuries not years. So, we need you to give us 
information that is going to allow us to adequately track these 
accounts so we can see that this work is getting done, the 
taxpayer money is being spent wisely.
    And finally I'd want to wrap up that looking again at what 
we were told in March 2004, you all made it very clear that you 
could use existing money to get this key work done. Today you 
are coming and saying, essentially, gosh, we'd like to do all 
this work that Senator Feinstein wants to see done and Senator 
Murkowski wants to get done, but we just don't have enough, you 
know, money. So, what you've said even on funding today, and I 
have looked at what you said in March 2004, you didn't say 
anything in March 2004, when the program was getting under way, 
that you needed the kind of funding that you're saying that you 
need today.
    So, we're going to need to follow up on this. We're going 
to do it in a bi-partisan way. I work very closely with the 
administration on the forest health legislation, still have the 
welts on my back to show for it, I'd say, and I want to get 
this act carried out and carried out properly and as always, I 
intend to work very closely with the chairman and we did that 
when I was chair, we do it when he is chair and I thank you 
very much, Mr. Chairman for scheduling this hearing.
    Mr. Bosworth. Mr. Chairman, I would like to respond.
    Senator Craig. Please do.
    Mr. Bosworth. Again, we will, by the end of next year, I 
expect between the Department of the Interior and the Forest 
Service, we will have accomplished around somewhere between 20 
and 25 million acres of fuels treatment since the National Fire 
Plan was established. I'm not telling our people that they need 
to use the HFRA authorities. I am telling them that they need 
to get the job done using whatever authorities work the best 
for them.
    We're not lagging behind, I didn't come here to say that we 
need a bunch more money, what I came here to say was that we 
are using the authorities we have available, and quite frankly 
because Congress passed HFRA with such support, that's helped 
us with some of the healthy forest initiatives that we have 
through regulatory processes and we're using those authorities 
as well.
    So, from my perspective, what you would want is for us to 
get the job done on the ground, not necessarily always using 
the HFRA authority to do it. That you'd want us to get the job 
done on the ground for the cheapest price and the quickest way. 
That's what we're trying to do. That's why we're going to have 
between 20 and 25 million acres accomplished since the National 
Fire Plan was completed.
    Ms. Hatfield. And I might add that the Community Wildfire 
Protection Plans have been just invaluable to us in terms of 
prioritizing to get to the right acres and I would agree with 
the Chief that we're trying to get to the right acres to reduce 
the most risk.
    Senator Craig. Well, we thank you very much. We know that 
the right acres are transitional in reality in the West 
especially where the Urban Wildland Interface continues to 
creep outward and folks still choose to build their dream home 
amongst the trees only to find out that they build it in a 
firebox and there has to be, and I've said it at every one of 
our hearings that deals with fires, there has to be a private 
responsibility tied with a public responsibility and a State 
responsibility in combination. We'll obviously stay very close 
to you on this issue, both Ron Wyden and I are passionate about 
it as we deal with this issue.
    Ranking members, just to turn, Jeff, do you have any 
questions of this group?
    Senator Bingaman. No, I did not, I'm going to ask the next 
panel.
    Senator Craig. Okay, fine enough. With that, we'll excuse 
you and thank you very much for your time here. Gail it's good 
to see you.
    Ms. Kimbell. Thank you, it's good to see you.
    Senator Craig. We'll see you out West, all right?
    Mr. Bosworth. Thank you.
    Ms. Kimbell. Thank you, Mr. Chairman.
    Senator Wyden. Mr. Chairman, as our witnesses are coming 
up, I want to join Senator Smith in welcoming some Oregonians. 
We've got Ann Morrison from Lane County, Judge Steve Grasty 
from Harney County, Colleen MacLeod, who's going to be 
testifying from Union County, we thank you all for coming. I 
had a town meeting in Canyon City just a few days ago, so I'm 
glad you're all here and look forward to talking with you as 
well.
    Senator Craig. Ron, thank you very much. Now, we'll invite 
our second panel forward. We thank you all very much for being 
with us, and Jeff, I noticed you have a constituent here from 
Ruidoso, would you choose to introduce our first panelist.
    Senator Bingaman. Well, I'm glad to, Mr. Chairman, thank 
you very much. Rick DeIaco is extremely well recognized in our 
State as the forester for the village of Ruidoso, and does a 
great job. He gave me a wonderful tour of their various 
efforts--their thinning efforts that they're engaged in some 
several months ago when we were out there, I think it was 
February. But, any rate, he has a lot of insights into what 
ought to be happening in many communities around this country.
    Senator Craig. Jeff, thank you very much, we also have 
Matthew Koehler, executive director, WildWest Institute of 
Missoula and of course, your constituent, Ron, Colleen MacLeod, 
commissioner, Union County testifying on behalf of the 
Association of Counties from La Grande, Jay Jensen, executive 
director of the Counsel of Western State Foresters from 
Lakewood, Colorado. Rick, we'll start with you.

  STATEMENT OF RICK DEIACO, DIRECTOR OF FORESTRY, VILLAGE OF 
                  RUIDOSO, LINCOLN COUNTY, NM

    Mr. DeIaco. Thank you sir. Thank you Mr. Chairman, members 
of the subcommittee. Thank you for this opportunity to testify 
on the progress of the Healthy Forest Initiative and 
specifically on the Healthy Forest Restoration Act and its 
effects on the Wildland Urban Interface and its relationship 
with the Forest Service and communities.
    In general, Ruidoso has exercised their--or has enjoyed a 
wonderful relationship with the Forest Service. On a larger 
level, we have some specific things that have come up now with 
regard to Healthy Forest Restoration and I'm hoping that some 
of my examples that we've been using in, that I'll bring up 
around Ruidoso, maybe might have broader perspective across the 
country.
    I'm going to give you a little background on Ruidoso for 
those who haven't visited or haven't gotten your free ski pass, 
which our Chamber of Commerce would be more than happy to issue 
to you. And talk more about collaborativeness, accountability 
and performance measures. Because that's really what I was 
hearing with the other panel and some of the concerns of 
Senators.
    We've got a wonderful program here with HFRA and it almost 
seems, in my mind, that you have put together a Maserati and 
you tossed them the keys. But there's a big organization out 
there, and a lot of those folks in that organization, don't 
know how to drive a stick shift. So, we need to get some 
performance measures, we need to get some training and, again, 
the things that I'll be talking about--the points I'll be 
hitting on right here are a subset of what's going on. There's 
a number of wonderful things going on out there with the Forest 
Service. But there are some real serious problems and they are 
affecting HFRA and I believe, in my mind, that some of these 
have to with the way collaboration is.
    But let me start with Ruidoso and a little bit of 
background with Ruidoso. Ruidoso is located in south central 
New Mexico in the Sacramento Mountains at about 7,000 feet of 
elevation, large stands of Ponderosa pine mixed conifers. 
Tourism and enjoyment of the natural environment is the key 
economic driver. If we don't have the environment, we don't go 
anywhere, we need it. The gross receipts tax finances of 
municipality, and that means tourists.
    In 2000, Ruidoso was assessed by the State of New Mexico as 
the number one community at risk to catastrophic wildfire and 
U.S. Forest Service rated us number two in the Nation. That's 
not one of those things you put up on the Chamber of Commerce 
marque. It's something you get busy with quick and our Village 
Council did. We hired a forester, we've got a forestry 
department and over time, we have put together mandating 
ordinances--a whole suite of ordinances that deal with new 
construction with fuels management on every square foot of the 
village of Ruidoso.
    So, when we talk about communities and Community Wildfire 
Protection Plans, etcetera, we are not looking for a handout, 
and I think there are communities out there that are. And I 
don't mean that in a bad way, looking for a handout, 
communities need to take responsibility for what they're doing.
    Forest contracting companies have increased from three in 
2001 to more than 20 in 2006. We have added 50 jobs because of 
our forest industry that we have going and it's all small 
stuff, one and two man kinds of companies. Also in 2000, the 
Ruidoso Wildland Urban Interface was formed. It was a Forest 
Service, village of Ruidoso, State of New Mexico and some other 
land agencies that are around and we have been working to put 
together management objectives and goals that dovetail very 
well whenever we came around to putting together our CWPP.
    Once HFRA came and said, okay, communities can get some 
work done if you've got a CWPP. We went and put that together, 
and it was a pretty easy do for us. One of the issues is 
funding. At the time that that HFRA rolled out in 2003, 2004 
there were programs that were supposed to precipitate and we 
were hoping that some of these dollars would come down. But, 
money is always an issue and it would be great to have more 
money. But, more effective use of the money is really what 
we're looking at, and what some of my examples here might be.
    Let me speak a moment of collaboration. I think an emerging 
challenge with HFR is, kind of, the adage of teaching old dogs 
new tricks. It is difficult for some line officers to look at 
land management from the perspective of collaborative 
development of goals and objectives. Some line officers have 
the mind set that collaboration is roderick and not reality.
    Some folks have the argument that, well we should have--
just have the Forest Service, because they are the 
professionals, make all these decisions. Well, that may be true 
in a number of cases, but sometimes with these growing Wildland 
Urban Interfaces in communities, there's other management 
objectives that have to be taken into account. And CWPPs 
provide that conduit to do so and it's one of the great 
benefits of HFRA for communities.
    Effective collaboration requires skill sets that might not 
have been previously needed within the agency as people have 
come up through the Agency. What is that status with the regard 
of the Agency workforce? One might consider the one third rule 
here as it might apply to any organization dealing with 
significant change, that is one third of the Agency line 
officers possess the skills and will easily grasp the concepts 
of collaboration. They will, in turn, maximize HFRAs powerful 
tools. Another one third can be taught and one third lack the 
necessary skill sets and will struggle endlessly.
    Ruidoso is experiencing the latter third in an ongoing 
project called Perk-Gindstone. Ruidoso remains at serious risk 
because of the decision making and unrealized opportunities. It 
becomes very evident at the local level when good collaboration 
occurs. Line officers reject pervasive institutional thinking 
in tough situations and look for new ways to achieve results 
and those new ways come in the form of some of, oh, I'm over 
time.
    Okay, may I have a second, I'm sorry.
    Senator Craig. Please continue, Rick.
    Mr. DeIaco. I thought I had two hours. Okay----
    Senator Craig. Only Senators have that privilege, and we 
abuse it often.
    Mr. DeIaco. Thank you, and if I may, let me just conduct my 
summary here. Ruidoso's deeply concerned and frustrated that a 
commitment made 5 years ago remains unfulfilled. There are 
always plenty of excuses, but the facts are that the condition 
class in Perk-Grindstone that contributed to Ruidoso's rating 
of second highest to catastrophic wildfire in the Nation 
remains. We all have witnessed the devastation of the Cerro 
Grande fire in Los Alamos. Our citizens don't want to see 
Ruidoso follow a similar path.
    Ruidoso's community is doing it's part with its citizens 
and takes responsibility for our own wildfire protection on 
private land. We have our own community forest management plan 
and the WUI group has collaborated and developed our CWPP for 
additional public lands. I respectfully submit these following 
recommendations.
    Develop training programs and performance measures that 
emphasize collaboration and commitment to legacy strategies. 
Make collaboratively designed projects a priority of planning 
NEPA projects and funding. Identify strategic areas not on the 
low cost of treatment, but on the ability to protect assets at 
risk. Those areas must be identified in collaboration with the 
local fire councils, public safety and the CWPPs.
    Stop double counting acres, even if the money comes from 
double line items--from different line items. Double counting 
has the unintended consequences of prohibiting utilization and 
not getting the best value to the taxpayer dollar. Don't count 
the acre until the fuels treatment is complete. That is until 
the acre is ready for maintenance burning. Currently the acres 
treated by the Forest Service by pile and burning, they have so 
many piles that there is such a back log that the fire risk has 
increased.
    Thank you for the opportunity to testify and I'd be happy 
to welcome any questions.
    [The prepared statement of Mr. DeIaco follows:]
  Prepared Statement of Rick DeIaco, Director of Forestry, Village of 
                      Ruidoso, Lincoln County, NM
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to testify on the progress of the Healthy Forest Initiative 
(HFI) and specifically on the Healthy Forest Restoration Act of 2003 
(HFRA) and its effects on Wildland Urban Interface (WUI) communities. 
This testimony will reflect the relationships and collaborations with 
the USDA Forest Service Region 3 and the Lincoln National Forest and 
will suggest common themes to opportunities and challenges throughout 
the Forest Service and Department of Interior agencies.
                               background
    Ruidoso is located in south central New Mexico in the Sacramento 
Mountains at 7000 feet of elevation amidst vast stands of Ponderosa 
pine and mixed conifers. The population is 8,700 permanent residents 
with thousands of second homes and a growing number of condominiums, 
hotels and convention center facilities. The area is dramatically 
beautiful and is surrounded by the Lincoln National Forest, Mescalero 
Apache Reservation and to a lesser degree other federal and state 
lands. Tourism and enjoyment of the natural environment is the main 
economic driver. A ski resort with 55 trails and elevations up to 
12,000 feet draw skiers throughout the winter season. Ruidoso is four-
season seasonal community.
    In 2000, Ruidoso was assessed by New Mexico State Forestry and the 
Forest Service for its risk to catastrophic wildfire. Ruidoso was rated 
the most at-risk community in New Mexico and the second most at-risk in 
the nation. The Village Council quickly got to work and added a 
forester to staff and followed with a Forestry Department. It's the 
only municipal Forestry Department in the state and among other 
charges, implements a suite of ordinances mandating fuels management on 
all private lands. In addition, Ruidoso recycles to compost 100% of the 
forest debris collected. Forest contracting companies have increased 
from three in 2000 to twenty licensed companies in 2006. Fifty forest 
industry related jobs have been created in the past five years.
    In November of 2000 the Ruidoso Wild/and Urban Interface Group (WUI 
group) was formed and has met monthly for six years. Members include 
the Lincoln National Forest, New Mexico State Forestry, BLM, BIA, 
Mescalero Apache Tribe, Lincoln County, Village of Ruidoso, Village of 
Ruidoso Downs, NM State Land Office, South Central Mountain RC&D, River 
Association, and local contractors, companies and residents. The goals 
of the collaborative group are to develop and implement a forest health 
and wildfire protection plan for Ruidoso and surrounding Lincoln 
County. In addition it acts as a grant opportunity watershed and think 
tank to develop forest strategies and assist entrepreneurs in the 
forest industry. In 2004, the WUI group transformed this plan into the 
current Community Wildfire Protection Plan (CWPP) under HFRA 
guidelines.
                             hfra authority
    With HFRA only in its third year, Ruidoso and the WUI group thank 
this committee for the opportunity to suggest and catch unintended 
consequences so early on in the process. From a community point of 
view, having an authority that allows a plan to be developed locally is 
an enormous incentive. However, HFRA rolled out with the promise of new 
dollars in the form of grants and programs to be available to 
communities with CWPPs for projects on county, municipal and private 
lands. It appears only HFRA authority is available and use is limited 
to projects on Federal lands with alternative funding. Communities are 
waiting for grants and programs to precipitate for effective work on 
non-federal lands.
                             collaboration
    An emerging challenge within HFRA is ``teaching old dogs new 
tricks''. It is difficult for some line officers to look at land 
management from the perspective of collaborative development of goals 
and objectives. Some line officers have mindsets that collaboration is 
more rhetoric than reality. A significant paradigm change faces agency 
administrators and line officers. The act requires real collaboration 
between Federal agencies and local communities. Effective collaboration 
requires skill sets not previously necessary within the agency, 
although many line officers naturally possess these skills. Community 
collaboration is where the rubber meets the road and we see it.
    What is the status, in that regard, of the agency workforce? One 
might consider the ``1/3'' rule here as it might apply with any large 
organization dealing with significant change. That is, 1/3 of agency 
line officers possess the skills and will easily grasp the concepts of 
collaboration. They will in turn maximize HFRA's powerful tools. 
Another 1/3 can be taught and 1/3 lack the necessary skill sets and 
will struggle endlessly. Ruidoso is experiencing the latter third in an 
ongoing project called Perk-Grindstone. Ruidoso remains at serious risk 
because of this decision making and unrealized opportunities. It 
becomes very evident at the local level when good collaboration occurs; 
line officers reject pervasive institutional thinking in tough 
situations and look for new ways to achieve results. There are some 
bright spots on the Lincoln in terms of line officers possessing the 
correct skill sets and Ruidoso hopes their efforts translate to reduced 
risk to catastrophic wildfire.
    Examples of how strong collaborations benefit projects are found 
funded by the Collaborative Forest Restoration Program in New Mexico. 
This Forest Service grant program has enjoyed continued support from 
Senator Domenici and Senator Bingaman and has turned out close to 80 
projects in the past five years. A successful project in this program 
must show collaboration in project development with appropriate 
Federal, State, Tribal, local governments, and to the degree possible, 
commodity, scientific and environmental interests. It is kind of like 
Thanksgiving dinner with the relatives you don't see too often and may 
not get along with so well. The rule is that no one gets any turkey 
unless everyone agrees to the size of the portion. It is consensus 
driven. When project development is well thought out and inclusive at 
the front end, there is little or no objection at the public comment 
phase. I would encourage review of this program as a training framework 
for collaboration and multi-party monitoring.
    I believe developing and funding a required HFRA program to train 
line officers how to collaborate with communities and understanding the 
entrepreneurial spirit would yield great benefit. Whether it is local 
capacity building or bidding as the general contractor on stewardship 
contracting projects, non-agency people are taking risks to engage the 
Forest Service. These risks are real and personal. Agency line officers 
do not always understand that it is OK for business to make money. Line 
officers would benefit from knowing how to be better partners, how to 
assess real world situations and to arrive at realistic cost-benefit 
conclusions. Training programs that include targeting District Rangers 
and Forest Supervisors could lead to better decisions and a more 
informed workforce. It then could follow that, latitude at the regional 
level and above be afforded to progressive thinking by line officers. 
The result would be effective treatments, better utilization of 
materials and safer communities. Additional benefits would include 
improved workforce capabilities and ultimate savings to the taxpayer.
    The next consideration is to have the appropriate performance 
measures that speak to a desired outcome and include measurement 
strategies. A paper (included)* with performance goals developed by 
community forestry groups and the Rural Voices for Conservation 
Coalition was submitted to the Forest Service earlier this year and 
could serve as a starting point. These performance goals support the 
training I suggest is necessary to effectively move HFRA forward. The 
four performance goals are:
---------------------------------------------------------------------------
    * All attachments have been retained in subcommittee files.

  <bullet> Increase collaboration between public land communities and 
        federal agencies.
  <bullet> Build and maintain capacity in public lands communities.
  <bullet> Improve forest and watershed condition.
  <bullet> Reduce risk from catastrophic wildland fire.

                             accountability
    Probably the most glaring disconnect within HFRA is the acres 
target issue. It's the hard acres versus easy acres calculations, 
double counting of acres and not accounting for real value. This fuzzy 
calculus is especially limiting when utilization of small diameter 
material is possible and not considered best value. An example might be 
as follows:

                100 acres are thinned @ $600.00/acre = $60,000.00; 
                then, a year or so later the same 100 acres are burned 
                @ $300.00/acre = $30,000.00

    The dollars per acre reported get calculated as $90,000.00/200 
acres for a reported cost of $450.00 per acre and 200 acres counted. 
Then it could happen that a utilizing contractor comes in with a cut 
and utilization bid (one time entry) of $750.00 per acre or $75,000.00 
they lose the bid.
    Acre count should occur only after initial tasking is completely 
done and the land is ready for long term maintenance burning. Given 
that utilization treatments have slope consideration; acres treated 
with full utilization in Ruidoso are ready for maintenance burn now. 
Condition classes are reduced immediately in those areas and we are not 
waiting years for prescribed burn windows to open. In addition, the 
general public sees a completed project.
    The WUI group feels strongly that small diameter material removal 
and biomass utilization is a land management issue and not just an 
energy production issue. Ruidoso Municipal Schools are preparing to 
build a new middle school and are interested in incorporating biomass 
heating. I believe all public buildings in Ruidoso should consider this 
abundant resource. The long term source of this material would come 
from Forest Service lands.
    Another down side of the acres target problem can appear when 
considering WUI acres. In Ruidoso, community protection received less 
priority than acre targets. Currently, only two of twenty-seven NEPA 
ready projects on the Lincoln are in the Ruidoso area. The WUI 
geography (map) was expanded to accommodate easy acre push and burn 
treatments northeast of the community to achieve acre targets. Treating 
acres on the northeast side of a community in southern New Mexico is 
mostly ineffective as the winds historically come from the southwest.
    A 5,500 acre project called Perk-Grindstone was assessed as the 
number one Forest Service priority in 2000 when the WUI group started 
because it is located directly southwest of the community and its major 
potable water reservoir and treatment plant. This project remains hung 
up without a NEPA decision and remains unfunded. Line officers are 
compelled to meet acre targets at the expense of community protection. 
This is absolutely unacceptable! Village Council signed a resolution 
encouraging the Lincoln to move forward with Perk-Grindstone earlier 
this year. The Village collaborated with an environmental group that 
had objections and resolved issues pertaining to MSO PACS in the unit. 
We help were we can. Inaction on public lands is impeding Ruidoso's 
ability to implement ordinances on private land. I get calls with angry 
residents asking why they should spend money treating their property 
when there is nothing done on the other side of the Forest Service 
fence, literally.
    It appears the Program Assessment Rating Tool (PART), a strategy to 
get the ``best value'' for work done might actually do the opposite 
given the existing performance measures. Transformation of the 
condition class (acre targets) as a performance measure is vastly 
outweighing other measures such as collaboration and utilization based 
on PART. This leads to the ``easy acre''. Wildfire can burn 5000 ``easy 
acres'' and no one blinks. When wildfire burns 1000 acres and a 
community loses 29 homes, as Ruidoso did in 2002 with the Kokopelli 
fire, it is devastating. Where is the ``best value''? Communities 
deserve a better system of accountability and line officers need 
realistic performance measures to make the right decision and achieve 
HFRA goals.
    A more general issue affecting accountability is agency mobility. 
The normal rotation of personnel with the agency reduces commitment and 
accountability. The line officer (District Ranger) I started with in 
2000 had been there for many years and was committed to the community. 
Decisions were made based on the best value for community safety. He 
retired in 2002. Since then I have seen personnel changes at: the 
district level--Ranger, FMO, AFMO, Range staff, Timber staff, Fuels 
specialists and below; the Forest level--Supervisor, Fire & Aviation 
staff, Timber staff; and even a new Regional Forester and some 
associated staff. Communities understand this movement is inevitable to 
some degree but some way to maintain a legacy strategy would yield 
stability to collaborations and overall confidence in agency policy. 
Goal 1.4 in the above mentioned performance measures paper (attached) 
offers some ideas.
                                summary
    Ruidoso is deeply concerned and frustrated that a commitment made 
five years ago remains unfulfilled. There are always plenty of excuses 
but the facts are that the condition class in Perk Grindstone that 
contributed to Ruidoso's rating of second highest to catastrophic 
wildfire in the nation remains. We have all witnessed the devastation 
of the Cerro Grande fire in Los Alamos, New Mexico in 2001. Our 
citizens do not want to see Ruidoso follow a similar pattern of 
unrecognized risk and inaction on Forest Service land due to a lack of 
urgency.
    Ruidoso is committed to doing its part with its citizens and takes 
responsibility for its own wildfire protection on private land. We have 
our own Community Forest Management Plan in place (www.ruidoso-nm.gov) 
and the WUI group has collaborated and developed our CWPP for 
additional public and private land. The Village and the WUI group stand 
ready to move forward with HFRA when funding programs become available. 
I respectfully submit the following recommendations:

  <bullet> Develop training programs and performance measures that 
        emphasis collaboration and commitment to legacy strategies.
  <bullet> Make collaboratively designed projects the priority for 
        planning (NEPA) and funding.
  <bullet> Identify strategic acres not on their low cost of treatment 
        but on their ability to protect assets at risk. Those areas 
        must be identified in collaboration with the local fire 
        councils and public safety officials (CWPPs).
  <bullet> Stop double counting acres, even if the money comes from 
        different line items. Double counting has the unintended 
        consequences of prohibiting utilization and not getting the 
        best value for the taxpayer dollar.
  <bullet> Don't count the acre until the fuels treatment is complete. 
        That is, until the acre is ready for maintenance burning. 
        Currently the areas treated by the Forest Service by pile and 
        burning have so many piles on them (lack of burn windows) that 
        the fire risk has increased.

    If HFRA will be used to treat strategic acres that: are defined by 
collaboration with communities; will allow for true accounting in terms 
of acres treated and unit costs; and will encourage reduction to fire 
risk class I; then it will be the useful tool the congress and the 
President intended.
    Thank you for the opportunity to testify before this subcommittee. 
I would welcome any question you may have.

    Senator Craig. Thank you very much, Rick. Now lets turn----
    Senator Wyden. Mr. Chairman, just one thing. I may not be 
able to come back and question you, Rick, but could you give us 
some examples, for the record, of double counting of these 
acres? Because I have suspected that's what's going on and we 
really need some concrete examples. Could you make that 
available to the subcommittee?
    Mr. DeIaco. I surely will.
    Senator Wyden. Thank you.
    Senator Craig. Thank you. Thanks so much, Ron. Now let's 
turn to Matthew Koehler, executive director, WildWest Institute 
of Missoula. Matthew welcome to the subcommittee.

  STATEMENT OF MATTHEW KOEHLER, EXECUTIVE DIRECTOR, WILDWEST 
                    INSTITUTE, MISSOULA, MT

    Mr. Koehler. Thank you, Mr. Chairman. Mr. Chairman and 
members of the subcommittee, thank you for this opportunity to 
testify at this important hearing.
    As the chairman said, I'm the executive director of the 
WildWest Institute based in Missoula, Montana. Our mission is 
to protect and restore forests, wildlands, watersheds and 
wildlife. We are working very hard to craft positive, proactive 
solutions that promote sustainability by restoring naturally 
functioning ecosystems degraded by systemic management.
    As my written testimony illustrates, our organization is an 
active participant in the number of collaborative efforts to 
help protect communities from wildfire and move ecologically 
based restoration work forward and I'd be happy to answer any 
questions you have regarding these promising efforts.
    Since 2003, very little fuel reduction work has been 
accomplished by the Forest Service using HFRA in the northern 
Rockies. According to the Agency, current fiscal year 
accomplishments under HFRA include zero acres of fuel reduction 
accomplished in Montana and Wyoming and 103 acres accomplished 
in Idaho.
    What these numbers tell me is that limiting public 
participation and streamlining environmental laws is not the 
solution to increasing community wildfire protection efforts. 
Rather, based on our experience working with the Forest Service 
in the northern Rockies, the major limiting factor is lack of 
funding. Given the way Congress currently funds the Forest 
Service and based on the administration's proposed Forest 
Service budget, I'm afraid that misplaced funding priorities 
will continue to hamper community wildfire protection efforts, 
not to mention critical restoration work on our national 
forest.
    This is especially unfortunate and frustrating as I believe 
there is growing consensus on the need to move forward with 
common sense fuel reduction activities on private State and 
Federal lands immediately adjacent to communities and to help 
revitalize our communities through the emerging restoration 
economy. I urge Congress and the administration to fund the 
Forest Service based on the desires of the American people who 
want to see their communities protected from wildfire and these 
public national forest lands protected and restored to provide 
clean water, critical wildlife habitat and enjoyment and 
inspiration for future generations.
    Our organization has been intimately involved with two HFRA 
projects in Montana. The middle east fork project on the 
Bitterroot and the DeBaugen project on the Lolo National 
Forest. As you can see from our written testimony, our 
experience on these HFRA projects has been as different as day 
and night. Time doesn't allow me to go into detail, so again 
I'd be happy to answer any questions about what has worked and 
what has not worked.
    Based on our organization's experience with HFRA and a 
review of the administration's fiscal year 2007 budget request, 
I would like to make the following recommendations and 
observations; one, the Forest Service's healthy forest budget 
does not provide adequate support for community wildfire 
protection efforts on non-Federal lands where it would be most 
effective, especially since nationally up to 85 percent of the 
land presenting a risk to communities is non-Federal land. Yet, 
the Forest Service's healthy forest budget only directs 4 
percent of the funding in this area and in some cases important 
programs such as the State and volunteer fire assistant program 
are being dramatically cut or eliminated.
    Industrial logging that does not benefit community 
protection or improve forest health is also being included in 
HFRA and HFI projects. So, too, the old growth forest and large 
tree retention requirements of HFRA are, in some cases, being 
ignored and manipulated by the Forest Service. These practices 
increase controversy and mistrust among stakeholders as well as 
tie up valuable resources that should instead be directed 
towards real community protection and forest restoration.
    I recommend that all old growth logging and cutting of 
large trees, as well as entry into roadless wildlands be 
prohibited in all future HFRA projects. Finally, the required 
HFRA collaborative process is in some cases being ignored or 
manipulated by the Forest Service. An open, honest and 
inclusive process with neutral outside facilitation appears to 
be the best course of action and I would recommend that it be 
included in all future HFRA collaboration.
    I look forward to answering any questions that you may have 
and again, thank you for this opportunity to testify at this 
important hearing.
    [The prepared statement of Mr. Koehler follows:]
  Prepared Statement of Matthew Koehler, Executive Director, WildWest 
                        Institute, Missoula, MT
    Mr. Chairman and members of the Committee, thank you for the 
opportunity to testify at this important hearing to review 
implementation of the Healthy Forest Restoration Act (Public Law 108-
148): It is an honor to appear before you, and I hope that my testimony 
will move us forward as we protect and restore America's national 
forests and help provide communities with effective wildfire 
protection.
    I am the executive director of the WildWest Institute, a Montana-
based conservation group that formed in April 2006 through a merger of 
the Native Forest Network and Ecology Center. Our mission is to protect 
and restore forests, wildlands, watersheds and wildlife in the Northern 
Rockies Bioregion. We monitor and participate in the public land 
management decision processes in the Northern Rockies and craft 
positive, proactive solutions that promote ecological and economic 
sustainability through restoring naturally functioning ecosystems 
degraded by systemic mismanagement.
    We ensure that the government follows the law when managing our 
public forests and wildlands. With the assistance of WildWest's 
biologist and forest ecologist, we stay abreast of, and seek out, the 
latest scientific research on forest and fire management, biological 
diversity and ecologically-based restoration. We also strive to get on-
the-ground in all project areas to gather site-specific information. We 
then provide this research and information to specialists within 
government agencies so that the best-available science and site-
specific information is incorporated into public land management 
decisions.
    Our organization is also very active in a number of collaborative 
efforts to help protect communities in the Northern Rockies from 
wildfire and move bona-fide restoration work forward on our national 
forests. Our goal is to work together with diverse interests to help be 
a catalyst for the establishment of a new, sustainable restoration 
economy in our region for the 21st Century and beyond.
    Before I get into the specifics of reviewing implementation of the 
Healthy Forest Restoration Act, I'd like to share with you some recent 
examples of our collaborative work with the hopes that these examples 
will clearly demonstrate the willingness and dedication of the 
conservation community to find solutions that benefit our forests, 
wildlands, watersheds, wildlife and communities.
    Recently, we helped plan a very successful Montana Communities and 
Wildfire Conference with the support of the Western Governors 
Association and a diverse set of stakeholders across the state of 
Montana including scientists, firefighters, homeowners, realtors, 
planners, foresters, developers, legislators, conservation 
organizations and other community leaders.
    One of the results of that conference has been the establishment of 
a Montana FireSafe Council, which will serve as a clearinghouse for 
homeowners and communities seeking information, resources and 
assistance about community wildfire protection. One of our staff 
members serves on the steering committee for the Montana FireSafe 
Council and we remain committed to helping it succeed.
    Our organization is also an active member of the Salmon Forest 
Collaborative, who along with the community of Salmon, Idaho, Lemhi 
county commissioners and the U.S. Forest Service are seeking to find 
common-ground surrounding community wildfire protection and restoration 
projects on the Salmon-Challis National Forest. In fact, during the 
past two days, one of our staff members was in Salmon, Idaho attending 
a two day meeting of this collaborative to hammer out the details of 
how the group operates and what criteria will be used as we move 
forward with project selection. In addition to relationship building, 
one of the early results of this effort was getting on the ground with 
the U.S. Forest Service and community members to settle an appeal our 
organization filed on a fuel reduction project near the community of 
Gibbonsville, Idaho. The appeal resolution allowed the community 
wildfire protection work to go forward without unnecessary harm to the 
forest, wildlife and roadless wildlands.
    Since the start of the year we have also been involved with a very 
similar collaborative effort in Libby, Montana with the Lincoln County 
Commissioners, community members and business leaders to find agreement 
on community wildfire protection and restoration projects on the 
Kootenai National Forest. Our organization holds a position on the 
leadership team of the Kootenai Forest Stakeholders Coalition, and just 
as with the Salmon, Idaho example, in addition to relationship 
building, one of the early results of this effort was getting on the 
ground with the U.S. Forest Service and community members to settle 
concerns a number of conservation organizations had with a fuel 
reduction project near the community of Yaak, Montana.
    In mid-May, the WildWest Institute and the West End Volunteer Fire 
Department in DeBorgia, Montana joined forces for the DeBorgia 
Community Wildfire Protection Work Weekend. The goal of the work 
weekend was to bring people together to create defensible space on 
private land around the DeBorgia community through education, action 
and fellowship. Special emphasis was placed on improving defensible 
space around the homes of elderly members of the community, along key 
roads in the community and establishing a safe zone near the firehouse 
and community center. By all accounts, the work weekend was a 
tremendous success. The fellowship component of the community work 
weekend included a community potluck barbeque at the DeBorgia 
Schoolhouse, which poetically, was one of the few buildings in the 
entire area to survive the 1910 wildfires. In addition to lots of 
volunteer help, the community work weekend was supported by a grant the 
WildWest Institute secured through the National Forest Foundation. The 
grant money was used to hire a local fuel reduction crew through 
Wildland Conservation Services, which helped put some money into the 
pockets of local workers.
    In addition to the DeBorgia Community Wildfire Protection Work 
Weekend, which we plan to replicate in future years, the WildWest 
Institute, West End Volunteer Fire Department and others local 
residents, businesses and conservation groups are also currently 
engaged in a collaborative process through the Healthy Forests 
Restoration Act with the Lolo National Forest to develop a common sense 
plan for fuel reduction work on Forest Service land directly around the 
greater DeBorgia area. I'll address details of this process and project 
later in my testimony.
    Yet another example of our organization's proactive work to find 
solutions took place in the Blackfoot Valley, near the Community of 
Ovando, Montana last summer. Following a series of fieldtrips to the 
Monture Fuel Reduction project with the U.S. Forest Service and local 
logging contractors--during which we expressed some concerns with the 
fuel reduction project as proposed, especially concerns with potential 
soil damage and an excessive cutting of trees within this very diverse, 
mixed conifer forest--the district ranger agreed to give us a small 
parcel of the project so that we could complete a pilot project that 
would allow us to put our restoration and fuel reduction vision to 
work.
    The type of ecologically-based fuel reduction work that we wanted 
to complete on the site was to be guided by the Restoration Principles, 
which WildWest and others helped develop through a three-year bridge-
building effort between conservationists, scientists and community-
based forestry advocates.
    We partnered with a local logging contractor and our project 
successfully demonstrated the viability of a forest restoration 
approach that enhanced ecological integrity, protected soils and 
reduced fuels while again putting money into the pockets of some local 
workers. Along the way, we also gained valuable hands-on experience 
with various ecologically-based fuel reduction and forest restoration 
techniques, as well as continued to build a better working relationship 
with the district ranger and his staff.
    Another important point that I want to deliver with this testimony 
is that if Congress is looking to help revitalize rural communities, 
perhaps the best place to start is to properly fund the nearly endless 
ecologically-based watershed and road restoration opportunities that 
abound on our national forests and often enjoy broad consensus among 
diverse stakeholders. With appropriate funding from Congress, watershed 
and road restoration could not only help provide good-paying jobs for 
generations, but it would move us all a long ways towards building 
trust and better working relationships.
    I have yet to meet a Forest Service line officer or specialist who 
believes that Congress is even coming close to properly funding 
ecologically-based watershed restoration programs. For example, right 
now in the Northern Rockies the Forest Service estimates that 85% of 
the fish-passage culverts are currently impassible to fish, with an 
estimated cost of over $200 million to just fix the top priority 
culverts. Right now the Forest Service's road maintenance backlog in 
just Montana and Idaho is $1.3 billion, and nationally the road 
maintenance backlog is nearly $10 billion.
    The Forest Service needs more direct appropriations of real 
restoration funds from Congress. Restoration of our national forests 
should not be tied to industrial logging and resource extraction. One 
important reason is that we will never be able to log enough trees to 
pay for all the needed restoration work. Plus, industrial logging can 
cause more restoration needs through negative impacts such as loss of 
critical wildlife habitat, soil compaction and erosion, increased 
siltation in rivers, proliferation of noxious weeds, opening up forests 
to increased illegal ATV use, reduction of biodiversity and even short- 
to long-term increases in fire risk and severity.
    Congress has passed, and the Forest Service is currently utilizing, 
Stewardship Contracting provisions; however, Stewardship Contracting 
doesn't necessarily result in better logging. It's a contracting 
mechanism and the truth of the matter is that in the Northern Rockies 
we are seeing many of the Forest Service's large logging projects done 
using Stewardship Contracting. In some specific cases, Stewardship 
Contracting may work for funding restoration, but only when cutting 
down lots of commercially valuable trees is needed to restore a forest 
and if this logging doesn't compromise other resource values. But 
again, with literally billions and billions of dollars in just 
watershed and road restoration work needed on national forest lands 
across the country there is no possible way that we could ever cut 
enough trees to pay for this restoration work.
    I'd like to provide this Committee with one example of a needed 
watershed restoration project. Our organization is currently working 
with the Lolo National Forest, the community-based Lolo Watershed Group 
and fellow conservation groups on a watershed restoration project for 
the Upper Lolo Creek watershed west of Lolo, Montana, along the trail 
used 200 years ago by the Lewis and Clark Expedition and for thousands 
of years by the Nez Perce. Our work on this important collaborative 
restoration project was initiated a few years ago during regular 
meetings we are holding with the Lolo National Forest leadership team. 
We were really excited to get involved in some good watershed and road 
restoration work that we all could agree needed to be done and this 
project seemed to fit the bill perfectly.
    Specifically, this project calls for removing or replacing 21 fish-
passage culverts to improve native fish habitat, decommissioning 17 
miles of unneeded old logging roads and permanently closing 63 miles of 
roads and ``jammer'' roads.
    To help the local communities learn more about this specific 
project, as well as gain a better understanding about the concept using 
forest restoration to create local jobs, we worked with the Lolo 
Watershed Group to help put together a workshop titled ``Putting Local 
Labor to Work on Forest Restoration,'' which took place at the Lolo 
Community Center last summer. Our work on this project continues to 
this day. In fact, as I give this testimony, one of our staff members 
is leading a public fieldtrip in conjunction with the University of 
Montana to the Upper Lolo Creek Watershed Restoration Project to look 
more closely at this project and also explore larger issues surrounding 
watershed and road restoration in the northern Rockies.
    Unfortunately, since it is my understanding that the U.S. Congress 
provides the Forest Service with so little money for this type of 
watershed restoration work, this common ground watershed restoration 
project is literally just sitting on the shelf waiting to be 
implemented, which is very unfortunate since this restoration project 
enjoys support from the Missoula County Commissioners and Carpenters 
Union Local 28 and because it would employ local workers improving 
forest and watershed health once implemented.
    Since I am testifying before you today, I would like to 
specifically request that the U.S. Congress work together to find a way 
to provide funding for the Upper Lolo Watershed Restoration Project--as 
well as the countless other bona-fide watershed restoration projects 
throughout our region that would put local people to work restoring 
watershed health, if only Congress properly funded this important work.
    Finally, before getting into the specifics of reviewing 
implementation of the Healthy Forest Restoration Act, I'd like to say a 
few words about the general issue of appeals and litigation, as I'm 
sure some members of this Committee will be asking me questions related 
to this topic.
    With much foresight, and with the recognition that the U.S. Forest 
Service has, unfortunately, a long history of mismanagement, Congress 
established the public appeals process as an integral part of the 
public decision making process and an important and necessary means for 
the public to maintain a ``check and balance'' when it comes to the 
management of the public's land.
    During the entire public process established by Congress, including 
the public appeals process, our organization strives to work together 
with the Forest Service and their specialists to provide the Forest 
Service with the best available science, research and site-specific 
information so that this important information is incorporated into 
public land management decisions.
    Unfortunately, for a variety of reasons, sometimes the Forest 
Service decides to move forward with a project that is not based on the 
best available science or the laws of this nation. The public appeals 
process provides one final opportunity for the Forest Service to 
reconsider an ecologically misguided and potentially illegal project.
    Over the past two years, our organization has explored, with 
willing Forest Service rangers, a number of ways to make the public 
appeals process work better, including face-to-face meetings before 
public appeal deadlines and on-the-ground meetings within project areas 
to talk about our differences and hammer out agreements.
    Sometimes it is necessary for our organization to file a lawsuit in 
order to hold the government accountable and ensure that logging and 
roadbuilding projects on our national forests don't cause unnecessary 
harm and are bound by the law. But again, this course of action is only 
taken after our participation in the public decision making process.
    Most people also think it's too much to ask for the government to 
follow the laws of this nation when conducting logging and roadbuilding 
projects on our public forests. Furthermore, the success that 
conservation groups such as ours have in the courts is testament that 
our lawsuits have merit and are preventing the government from breaking 
the law--something I think we'll all agree is a good idea.
    Personally I feel it's unfortunate that some people would like to 
provide an over-simplistic view of these important issues, which might 
lead some to believing that there are two types of conservation groups: 
those that work to find solutions and those that just simply file 
appeals and lawsuits and refuse to work together. As I hope the 
Committee can clearly see by the numerous examples I have provided, 
this is simply not the case.
    While organizations such as the WildWest Institute may file a 
lawsuit to hold the government accountable, we are also working hard 
trying to find solutions that will benefit our forests, wildlife and 
communities and help put the Northern Rockies--and our nation--on a 
path towards a more economically- and ecologically-sustainable future.
                  community wildfire protection plans
    In addition to specific information about our experience with the 
Healthy Forest Restoration Act, I was asked to provide comments on the 
development of Community Wildfire Protection Plans (CWPP). Since 
development of a CWPP in most cases precedes development of a HFRA 
project it makes sense to look at CWPPs at this time. Specifically, I 
was asked to address what worked and what can be done to improve those 
plans and the collaboration called for in those plans? And how CWPPs 
translate into projects undertaken by the Federal land management 
agencies and how, or whether, our experience suggests that the 
collaboration called for in the development of the community wildfire 
protection plans is translating into collaboration in the development 
of the specific projects?
    Since our organization has limited experience with the development 
of CWPPs I took the liberty of gathering information from professional 
foresters, fellow conservationists and former firefighters from 
throughout the western U.S. The perspectives gathered are also included 
to help provide this Committee see a more complete picture of the 
development of CWPPs and what's working and what's not.
    Our organization has been involved with the development for only 
one CWPP, the Missoula County CWPP. Our experience with the Missoula 
County CWPP, which admittedly was somewhat limited (with the bulk of 
our participation coming from a board member who is now currently on 
our staff), was largely positive. This CWPP was initiated by the 
Missoula County Office of Emergency Services and they did a commendable 
job of making sure to invite a large, diverse set of stakeholders from 
throughout the county--something which unfortunately doesn't appear to 
be happening with the development of all CWPPs, but appears to 
undoubtedly be one of the common components of all successful CWPPs.
    From our perspective working on the Missoula County CWPP, it would 
be helpful to further focus fuel reduction treatments even tighter from 
the typical Wildland-Urban Interface boundary of 1\1/2\ miles (although 
some CWPPs have WUI boundaries that extend three miles or more) to a 
Community Protection Zone (CPZ) boundary of 1/4 mile.
    Our rationale is really quite simple: given limited resources and 
limited time it makes most sense to focus fuel reduction activities--
whether on public or private land--immediately around the community 
rather than ignoring legitimate threats and focusing instead on the 
larger WUI, which can extend out 1 to three miles. Perhaps once we have 
done all the work within the 1/4 mile Community Protection Zone we can 
explore options for treatments outside of the CPZ; however, the reality 
is that CPZ treatments will likely need to be conducted on such a 
regular basis so as to tie up all of the available time and resources. 
The. other advantage of focusing limited time and resources within the 
CPZ is that we can ensure that more at-risk communities are provided 
some level of defensible space rather than just focusing on treating a 
limited number of communities and extending treatments out 1\1/2\ to 3 
miles.
    We also believe that both landowners who are developing private 
property and real estate developers need to take on a large level of 
the responsibility for home and community wildfire preparedness, rather 
than just expecting U.S. taxpayers to fund fuel reduction activities on 
public lands. As we stated in our comments on the Missoula CO CWPP, we 
would support county government efforts to enact defensible space codes 
and to provide certain incentives to landowners and developers who 
agree to incorporate this into their property development. Obviously, 
the insurance industry can have some influence on this as well but 
county governments need to create some regulations so other county, 
state and federal taxpayers aren't left essentially holding the bag for 
those who choose to live and build in high-risk areas.
    This is also where joint educational efforts could go a long ways 
towards facilitating greater public awareness and participation in 
community wildfire protection efforts in the county. For example, 
public forums, community meetings and a Parade of FireSafe Homes should 
be organized in our communities on an on-going basis. I'd like to point 
out that our organization has hosted a number of these public forums 
featuring the Forest Service's own experts on defensible space, fire 
chiefs and local fuel reduction contractors.
    The other day I also spoke directly with Tracy Katelman, a 
professional forester and owner of ForEverGreen Forestry in Eureka, CA, 
who has authored four community wildfire protection plans in Northern 
California and Southwestern Oregon, including the Lower Mattole Fire 
Plan, one of the early CWPPs models cited in the SAF/NASF Guidelines.
    Ms. Katelman explained, ``When developing Community Wildfire 
Protection Plans it is vitally important that a diverse set of 
stakeholders be at the table from the outset. This includes those 
perceived to be at the extremes--such as the timber industry and 
environmental advocates. CWPPs that only include government, fire 
fighters and federal land management agencies--while fundamentally 
important participants--are likely not as effective over time because 
they lack authentic community involvement. The local knowledge provided 
by residents at the neighborhood scale is important both in terms of 
reducing wildfire risks and hazards in the WUI, but also for empowering 
communities to take responsibility for reducing those risks and hazards 
over the long term.''
    According to Katelman, even though CWPP guidelines exist (e.g. 
those developed by SAF/NASF), they are so general that the methodology 
varies significantly, with one community going about the plan one way 
and a neighboring community going about it another way. This makes it 
very difficult to get a state or regional perspective both in terms of 
what works or doesn't, but also in terms of the priorities at that 
larger scale.
    ``Resources are an issue, as there is basically no more money 
available to do CWPPs. National Fire Plan money for doing CWPPs 
virtually no longer exists in California, instead that funding is given 
to projects that can produce the most `acres treated' by fuel 
reduction. If the desire is for communities to create effective CWPPs 
that both identify and reduce the risks and hazards of wildfire, more 
resources need to be available at the community level, preferably 
through non-governmental organizations. These needed resources include 
standardized guidelines that encourage neighborhood-level 
participation, training, and finances,'' stated Katelman.
    Finally, Ms. Katelman offered that ``CWPPs work best where agencies 
and the public have existing working relationships and effective 
communication, and all stakeholders are involved from the beginning.''
    In my conversations and correspondence with fellow conservationists 
I've also heard some of the following themes about CWPPs:
    The development of CWPPs in many areas were poorly publicized and 
they were not publicized through federal channels in some cases. As 
such, a common concern expressed was that federal public lands were 
essentially privatized (or given to local communities) by CWPPs.
    Some CWPPs were essentially crafted by contractors (forestry 
consultants) in association with the county commissioners. In some 
cases the state and federal land agencies were included, but none of 
these county plans were developed with true collaboration.
    The CWPPs are supposed to prioritize areas and identify project 
areas that the federal agencies then turn into fuel reduction projects. 
Instead, in some cases it appears as if the Forest Service will simply 
submit a list of every timer sale, which then gets stapled onto the 
county plan. This then becomes the foundation for the Forest Service to 
argue that the projects were identified and prioritized by the county 
collaborative committees.
    In some instances the level of true collaboration, including 
interested stakeholders (as discussed in the WGA's 10 Year Wildfire 
Strategy) has been non-existent in many areas.
      review implementation of the healthy forest restoration act
    The purpose of this hearing is to review implementation of the 
Healthy Forest Restoration Act. As I'm sure members of this Committee 
are aware, this is a somewhat difficult task for the simple reason that 
since the HFRA was signed into law in December 2003, so little work has 
been accomplished under the HFRA by the U.S. Forest Service. Further 
complicating the issue is the fact that the Forest Service often lumps 
HFRA projects together with Healthy Forest Initiative projects put 
forward under Categorical Exclusion (CE) authorities. Yet, many CE 
projects in the Northern Rockies, and elsewhere, are found deep in the 
backcountry and have primarily timber production goals, which often run 
directly counter to community wildfire protection or forest restoration 
goals.
    I'd like to highlight information that was provided to this 
Committee last week by the U.S. Forest Service detailing fuel reduction 
accomplishments of the HFRA.
    According to the U.S. Forest Service, FY 2006 accomplishments under 
the Healthy Forest Restoration Act are as follows:

          Montana--zero acres of fuel reduction accomplished on Forest 
        Service land under HFRA.
          Wyoming--zero acres of fuel reduction accomplished on Forest 
        Service land under HFRA.
          Idaho--103 acres of fuel reduction accomplished on Forest 
        Service land under HFRA.

    Certainly, it's hard to make the case that 103 acres of total fuel 
reduction accomplished by the Forest Service under the provisions of 
the Healthy Forest Restoration Act in FY 2006--2\1/2\ following HFRA 
becoming law--in the states of Montana, Idaho and Wyoming is much of an 
accomplishment.
    Even if you broaden the view to look at Forest Service 
accomplishments in the eight-state Rocky Mountain Region, including the 
states of Montana, Idaho, Wyoming, Arizona, Colorado, New Mexico, Utah 
and Nevada, you find that that in the 2\1/2\ years since HFRA became 
law the U.S. Forest Service has accomplished 7,995 acres of fuel 
reduction under HFRA in FY 2006.
    It's also important to remember that in some cases the Forest 
Service is apparently placing acres into the ``accomplished'' list even 
if no actual on-the-ground work has taken place, but simply if a timber 
sale is under contract. Therefore, on-the-ground accomplishments may be 
much less.
    What are the reasons for these anemic HFRA fuel reduction numbers 
in the Northern Rockies and Rocky Mountain Region? Given that the HFRA 
limited some forms of public participation and streamlined provisions 
within the National Environmental Policy Act the HFRA fuel reduction 
numbers over 2\1/2\ years since HFRA became law certainly calls into 
question the rationale of many of the most ardent supporters of the 
Healthy Forest Restoration Act who told us that so-called ``analysis 
paralysis'' was solely responsible for preventing the Forest Service 
from moving forward with bona-fide community wildfire protection 
activities.
    It appears that limiting public participation and streamlining 
environmental laws is not the solution to increasing community wildfire 
protection efforts. It is my hope that this Committee and Congress take 
this reality into account when you consider important public lands 
bills in the future, such as H.R. 4200.
    It clearly appears that one of the major limiting factors is 
funding. This has been our experience working with the Forest Service 
in Montana and it seems to be a common theme across the west. For 
example, the New Mexico Business Weekly reported in April that Senator 
Bingaman is concerned that important fuel reduction projects in his 
state won't happen because of a lack of funds the federal agencies have 
for contracts, staff and equipment.
    Unfortunately, given the way Congress currently funds the Forest 
Service and based on the Administration's FY 2007 proposed Forest 
Service budget I'm afraid that the funding problem will continue to 
hamper community wildfire protection efforts, as well as critically 
needed ecologically-based restoration work on our national forests.
    For example, it is my understanding that the Administration's FY 
2007 proposed Forest Service budget would eliminate the Economic Action 
Program that provides funding for communities for economic 
diversification, assessments for wildfire risk and planning for 
defensible space. The State and Volunteer Fire Assistance programs, 
which provide for community protection planning and projects through 
both the State and Private Forestry and Wildland Fire Management 
programs, would be cut by nearly $23 million--a 30 percent reduction.
    While most programs will see funding reductions, spending for the 
federal timber sale program would increase in the proposed FY 2007 
budget. For example, the timber sale program would receive nearly an 
11% increase of $30 million. I must also point out that since FY 2000, 
the forest products line-item has increased from $216 million to the 
proposed $310 million in FY 2007--a 43 percent increase. The proposed 
Forest Service FY 2007 budget also includes a $41 million increase (117 
percent) in funding for timber sales under Northwest Forest Plan to log 
800 million board feet of trees. Achieving that goal will require 
logging more ancient, old growth forests that the public owners of 
these forests--along with the two previous Chiefs of the Forest 
Service--clearly want to see protected. In addition, the Forest Service 
plans to divert $23 million for new timber sales from the Knutson-
Vandenburg (KV) Fund, which formerly was used to pay for reforestation 
costs and the restoration of logged over forests.
    Now I don't profess to be a Forest Service budget expert, and 
having worked closely with the budget officer on a national forest in 
Montana recently to try and figure out solutions that would allow this 
national forest to spend more money on bona-fide community wildfire 
protection and restoration projects, I can tell you from this personal 
experience that attempting to get a handle on where the Forest Service 
spends its money and what funds are ear-marked for certain programs and 
what funds are discretionary is, at best, a confusing and somewhat 
subjective exercise.
    However, the fact remains that while Congress and the 
Administration press for more funding for the timber sale program 
(which often just increases fire severity and causes more restoration 
needs) critical funding for community wildfire protection and 
ecologically-based restoration projects lag far behind and in many 
cases are being significantly decreased. I challenge Congress and the 
Administration to fund the Forest Service based not on the demands of 
special interests and their lobbyists, but on the desires of the 
American people who want to see these public national forest lands 
protected and restored to provide clean water, critical wildlife 
habitat and enjoyment and inspiration to future generations.
a tale of two healthy forest restoration act projects: the middle east 
 fork hfra project on the bitterroot national forest and the debaugen 
                hfra project on the lolo national forest
Middle East Fork HFRA Project, Bitterroot National Forest, Montana
    One of the first proposed Healthy Forest Restoration Act projects 
in Montana is called the Middle East Fork Hazardous Fuel Reduction 
project on the Bitterroot National Forest. Undoubtedly, the Middle East 
Fork HFRA project has been one of the most controversial HFRA projects 
in the country, not only due to the specifics of the project itself, 
but also due to a series of problems associated with the HFRA 
collaborative process Bitterroot National Forest officials selected to 
use, or failed to use.
    Because of the controversial nature of this project, I fully 
acknowledge that perhaps others have a different perspective on the 
process and the project. And I would encourage this Committee to talk 
with those people as well. However, the perspective I'm going to share 
with you comes from not only our organization, which has invested 
approximately 2,000 hours in the Middle East Fork HFRA project/process, 
but also from some longtime Bitterroot Valley residents, affected East 
Fork homeowners and prominent Ph.D. faculty members at the University 
of Montana's School of Forestry who are some of the nation's leading 
researchers on issues related to entomology, soils, fire and fuels, 
forest ecology, aquatics, fisheries, wildlife and public process.
    The purpose of sharing this perspective with this Committee 
reviewing implementation of the Healthy Forest Restoration Act is not 
necessarily to rehash problems associated with the Bitterroot National 
Forest's Middle East Fork HFRA process and project, but to ensure that 
as the Forest Service moves forward with HFRA projects mistakes are not 
repeated and compounded.
    The proposed Middle East Fork project would mix some bona-fide 
community protection work, which everyone agrees should go forward, 
with logging over four square miles of the Bitterroot National Forest 
(nearly 3,000 acres in total), including logging in previously unlogged 
forests that as recently as 2004 the Forest Service considered meeting 
the requirements of old-growth habitat. Many of these proposed logging 
units, which target larger trees, also sit outside of the identified 
Wildland-Urban Interface, far from homes.
    These forests along the East Fork of the Bitterroot River are home 
to elk, bighorn sheep, moose, mule deer, white-tailed deer, black bear, 
wolves, coyote, bull trout, cutthroat trout, goshawk, martin, black-
backed woodpecker, pileated woodpecker, downey woodpecker and 
flammulated owls. It's also important to note that many of the areas 
slated for logging under this HFRA project are pockets of unlogged 
forest that are literally surrounded by clearcuts from previous 
industrial logging projects. In fact, past logging, roadbuilding and 
terracing on the this particular portion of the Bitterroot National 
Forest was so egregious that it lead to the Bitterroot Clearcutting 
Controversy of the early 1970s that eventually lead to the passage of 
the National Forest Management Act.
    According to the Forest Service, 33% of the Middle East Fork 
project area has already been logged, much of it done during the 
clearcutting, roadbuilding and terracing binge of the late 1960s and 
early 1970s. There are currently 208 miles of roads within the project 
area, an average of 5.2 miles of road per square mile. The Forest 
Service also estimates that the 1,482 miles of roads (and 1,682 stream 
crossings) in entire East Fork of the Bitterroot watershed contribute 
151 tons of sediment per year to streams.
    It appears that the Forest Service claims that the first official 
HFRA collaborative meeting for the Middle East Fork HFRA project was 
held in Sula, Montana on March 18, 2004. Despite the fact that we are 
on the BNF's official mailing list, our organization--which at the time 
was called the Native Forest Network--was not invited or notified of 
this March 18, 2004 meeting. Sula District Ranger Tracy Hollingshead 
acknowledged this fact in a November 30, 2004 email in which she 
stated, ``. . . the notification for the Middle East Fork meeting in 
Sula on March 18, 2004 was not sent to Native Forest Network. . . .''
    Why was our organization never notified or invited to this March 
18, 2004 meeting? Documents that we obtained via a Freedom of 
Information Act (FOIA) request reveal that BNF officials intentionally 
crossed out and failed to invite numerous other organizations to that 
March 18, 2004 meeting, including Wilderness Watch, Friends of the 
Clearwater, Bitterroot Trout Unlimited, Center for Biological 
Diversity, Intermountain Fire Sciences Lab and The Wilderness Society.
    It's also important to note that the BNF's announcement for the 
March 18, 2004 meeting that was mailed to a self-selected portion of 
the BNF's mailing list didn't even mention anything about the Healthy 
Forest Restoration Act or the Middle East Fork Hazardous Fuel Reduction 
project. These words were simply not in the announcement. Therefore, in 
our view, this March 18, 2004 meeting doesn't fit the requirement for 
an HFRA collaborative meeting. How could it if the announcement never 
mentioned anything about the HFRA or the Middle East Fork Hazardous 
Fuel Reduction project?
    Yet BNF officials have repeatedly penalized our organization for 
not attending this March 18, 2004 meeting. This is especially 
frustrating since, as I mentioned, our organization wasn't invited to 
this meeting and the meeting announcement didn't mention anything about 
the Healthy Forest Restoration Act or the Middle East Fork Hazardous 
Fuel Reduction project.
    Further casting doubt on the BNF's claim that this March 18, 2004 
was part of the HFRA collaborative process are the statements from Jed 
Fitzpatrick, an East Fork community member who attended that March 18, 
2004 meeting, that appeared in the October 5, 2005 issue of the Ravalli 
Republic:
    ``At the press conference Tuesday, other residents from the Middle 
East Fork community were present who supported alternative 3. Jed and 
Jessica Fitzpatrick live at the southern end of the proposed project 
boundary and attended the first public meeting in Sula, which didn't 
seem to discuss logging at all, Jed Fitzpatrick recalled. `They didn't 
say we're going to log this much acreage in the Middle East Fork,' he 
said. Rather, the meeting focused on things the agency could do to 
benefit the local community, he said. He remembered talking about 
things like back-country access for horses, fishing access and more 
toilets. `There was no way this plan (alternative 2) was birthed from 
that,' he said. He doesn't understand the need to log areas far away 
from the community, as is proposed in alternative 2. `The area they're 
going to cut is not a threat to us,' Fitzpatrick said. He would like to 
see alternative 3 implemented because it keeps the values intact that 
he treasures about his surroundings. `I live here because it's wild and 
I want it to stay wild,' he said. However, Fitzpatrick does see where 
some logging could be done, but he wants to make sure it happens in a 
non-invasive way by local loggers. He's fearful of outside commercial 
logging interests coming in and making money and destroying soils and 
watershed resources. `I think you could harvest that with a balance,' 
he said.''
    On September 21, 2004 the Bitterroot National Forest mailed out an 
announcement, which stated, ``You are cordially invited to a 
collaborative planning meeting for the Middle East Fork Hazardous Fuels 
Reduction Project, Wednesday, Sept 29th at the Sula Clubhouse.'' The 
announcement also states ``This project fits the intent of the Healthy 
Forest Restoration Act (HFRA) passed by Congress and signed by 
President Bush in December 2003. This legislation emphasizes citizen 
participation by requiring projects be collaboratively developed 
between citizens and agencies.'' This is the first announcement sent to 
the public which clearly states the name of the project and the fact 
that this project will be conducted under the Healthy Forest 
Restoration Act.
    Unfortunately, due in part to the fact that the Forest Service only 
gave the public a one week notice for this meeting, representatives of 
our organization were unable to attend the September 29, 2004 meeting 
because our entire staff was attending a conference that we had been 
helping to organize for the better part of a year.
    So, when looking at all the facts, BNF officials appear to be 
penalizing our organization for not participating in the collaborative 
process of HFRA because we simply were unable to attend one single 
meeting (September 29, 2004) that we received one week's notice about. 
Since the Bitterroot National Forest has repeatedly informed us that we 
not did participate in the official HFRA collaborative process for this 
project we can only assume that the HFRA-mandated collaborative process 
for this project started and ended with that September 29, 2004 
meeting. In the nearly two year's that have passed since that meeting, 
the Bitterroot National Forest refused to hold any other HFRA 
collaborative meetings as part of this project. I don't believe that 
this constitutes the type of ``collaborative process'' that Congress 
envisioned when it passed the Healthy Forest Restoration Act.
    Yet, apparently outside of the Bitterroot National Forest's version 
of the HFRA collaborative process, since the fall of 2004 our 
organization invested nearly 2,000 hours trying to work with the Forest 
Service and community members to help develop a common-sense fuel 
reduction plan that would provide effective and efficient community 
wildfire protection for the East Fork community.
    Our organization hosted public meetings about this project in Sula 
(May 3, 2005) and Missoula (March 30, 2005) and public science panels 
about this project in Hamilton (June 2, 2005) and Missoula (June 28, 
2005) featuring some of the region's most well-respected scientists and 
researchers.
    Through a dozen public field trips over winter, spring and summer 
that we organized--including a major tour on May 4, 2005 featuring 
nearly sixty people representing the logging industry, East Fork 
residents, Forest Service and interested citizens--we have taken over 
one hundred people from the Bitterroot and Missoula Valleys into the 
woods to get an on-the-ground look at this project. We also went out in 
the project area with prominent Ph.D. faculty members at the University 
of Montana's School of Forestry to hear their perspectives and have 
them share their considerable knowledge with us.
    I would like to point out that in comparison, the Bitterroot 
National Forest has, to date, not held one single public field trip 
about the Middle East Fork Hazardous Fuel Reduction project. Again, I 
don't believe that this constitutes the type of ``collaborative 
process'' that Congress envisioned when it passed the Healthy Forest 
Restoration Act.
    In response to the harmful parts of the Bitterroot National 
Forest's Middle East Fork Hazardous Fuels Reduction project, in 
November of 2004 conservation groups, together with some Bitterroot 
Valley residents and former Forest Service employees, collaboratively 
created an alternative that was intended to provide far superior 
wildfire protection to the East Fork community, protect old-growth 
forests and elk.and bighorn sheep winter grounds and implement bona-
fide restoration activities within the East Fork area. We called this 
the Community Protection and Local Economy Alternative and we submitted 
it to the Forest Service in December 2004 during the official scoping 
process for this project.
    While the Bitterroot National Forest did accept and develop the 
Community Protection and Local Economy Alternative into Alternative 3 
within the environmental impact statement, regrettably, Bitterroot 
Supervisor Dave Bull decided to arbitrarily eliminate nearly all the 
watershed and road restoration components from Alternative 3. This was 
unfortunate, as these restoration activities had the potential to 
provide hundreds of local jobs restoring watershed and forest health in 
the East Fork of the Bitterroot River drainage.
    We still don't fully understand why the Bitterroot National Forest 
decided to eliminate from further analysis the major restoration 
components of the Community Protection and Local Economy Alternative. 
According to information the Forest Service provided to us (which is 
contained in the Middle East Fork Hazardous Fuel Reduction Draft EIS, 
2.7.4. Elements Outside This Project's Scope Eliminated From 
Alternative 3):
    ``Additional watershed restoration opportunities are not identified 
in this analysis. This was consciously done for three reasons. 1) The 
HFRA authorizes prescribed fire and vegetation management tools to 
reduce fuels and restore fire adapted ecosystems, but does not 
specifically authorize watershed improvement projects. 2) The Forest 
Service wants to assure that the activities proposed can and will be 
implemented. . . . 3) The Bitterroot National Forest currently has a 
backlog of watershed restoration needs which will be completed as time 
and resources allow. Because of this backlog, members of the public 
have expressed concerns about identifying restoration work that might 
not be completed in a timely manner. The Bitterroot National Forest 
concurs and sees no value in adding to that list of watershed 
improvement projects at this time.''
    The Purpose of the Act (HFRA) is in part ``to enhance efforts to 
protect watersheds and address threats to forest and rangeland health, 
including catastrophic wildfire, across the landscape; and to protect, 
restore, and enhance degraded forest ecosystem types in order to 
promote the recovery of threatened and endangered species as well as 
improve biological diversity and enhance carbon sequestration.''
    The restoration component of the Community Protection and Local 
Economy Alternative focused on achieving these goals. Since the HFRA 
does not contain language that prohibits specific types of bona-fide 
restoration activities (but in fact clearly calls for efforts to 
protect watersheds and restore degraded forest ecosystem types) we 
believe any decision to not consider watershed and road restoration 
activities would be arbitrary and capricious, and we believe would 
violate the intent of the HFRA.
    Furthermore, according to the best available science watershed and 
road restoration work is an integral part of restoring fire-adapted 
ecosystems, which is one of the primary objectives of the Middle East 
Fork HFRA project. Therefore, this only added additional confusion as 
to why watershed and road restoration work contained within the CPLE 
Alternative was excluded.
    We were also especially troubled with the statement Bitterroot 
National Forest officials made under reason 3. While we, and the 
public, are concerned that the Bitterroot National Forest has a backlog 
of watershed restoration needs--especially related to the $16 million 
short-fall for watershed and road restoration activities as part of the 
2001 Bitterroot Burned Area Recovery Plan, but also an annual road 
maintenance shortfall on the forest of $2,245,000--we think the 
Bitterroot National Forest is grossly mischaracterizing that concern 
with the statement above in reason 3.
    We are not aware of anyone within the environmental community, or 
the public at large, that has ``expressed concerns about identifying 
restoration work.'' Rather, the concern that has been expressed from 
the environmental community, and the public at large, over the past few 
years has centered on the failure of the Bitterroot National Forest to 
implement the required watershed and road restoration work as outlined 
in the Burned Area Recovery Plan FEIS and Record of Decision.
    This concern was compounded over the first three years of 
implementation of the Burned Area Recovery Plan due to the insistence 
from Bitterroot National Forest officials--including numerous 
statements by Supervisor Bull--that BAR plan watershed and road 
restoration work was ``on track'' despite the facts, which clearly 
showed the loss of millions of dollars in restoration and 
rehabilitation funds and the overall slow pace of the watershed and 
restoration work.
    I should also point out, as we have done repeatedly in meetings, 
personal communications and within the Community Protection and Local 
Economy Alternative, that we were not asking that all watershed and 
road restoration work within the Middle East Fork HFRA project area be 
implemented as part of this project. Rather, we clearly articulated 
that all watershed and road restoration work within the Middle East 
Fork HFRA project area be identified (along with an economic analysis 
of the dollar amount needed to complete all the identified work) and 
that from the identified work a prioritized list of watershed and road 
restoration work be created.
    Despite the setback with the watershed restoration work being 
eliminated from this Healthy Forest Restoration Act project, 
Alternative 3 still included 1,600 acres of fuel reduction work on 
Forest Service land, including 600 acres of strategic fuel reduction 
within a 1/4 mile Community Protection Zone around structures within 
the project area and an additional 1,000 acres of fuel reduction work 
outside of that zone but still within the wildland-Urban Interface. 
According to the Forest Service, this plan would have generated $1 
million in labor income and provide 45 local jobs in the Bitterroot 
Valley.
    Unfortunately, some in the logging industry knowingly misled the 
public when they characterized this alternative as ``no action on the 
forest except for a small amount of work done around houses and raking 
needles from under decks.'' I guess only a logging industry lobbyist 
could see local conservation organizations supporting and encouraging 
fuel reduction on 1,600 acres of Forest Service land that would 
generate $1 million in local labor income and provide 45 jobs as ``no 
action'' and just ``raking needles from under decks.'' I'd also like to 
point out to the Committee that when the Montana Logging Association 
filed their official HFRA objection on this project they stated, 
``Alternative 3 must be stricken from the FEIS document.'' It really 
seems quite remarkable to me that the logging industry would go to such 
lengths to purge a fuel reduction project that would reduce fuels on 
1,600 acres, pump $1 million in local economy and create 45 jobs.
    During the late spring and summer of 2005, while the Bitterroot 
National Forest was accepting public comments on their Draft EIS for 
the Middle East Fork Hazardous Fuel Reduction project, we began to 
notice on field monitoring trips into he project area that the Forest 
Service was busy marking logging units, helicopter landing pads and 
temporary roads based solely on their preferred alternative. In other 
words, months before the eventual Record of Decision for the Middle 
East Fork HFRA project would be signed (in April 2006), and while 
accepting public comments on the draft project, the Forest Service was 
using taxpayer dollars to mark logging units associated with their 
preferred alternative. Just how much money did they spend? Information 
obtained from the Bitterroot National Forest via a FOIA request shows 
that at least $208,000 in taxpayer funds were used to mark logging 
units during the public comment period and prior to any official 
decision.
    Whether technically legal or not, I hope members of this Committee 
will realize that this pre-decisional expenditure of $208,000 in 
taxpayer funds does a huge disservice to genuine democratic process and 
collaboration and only serves to poison civic participation.
    A few days after this pre-decisional expenditure of taxpayer funds 
was revealed to the public, on September 22, 2005, Bitterroot National 
Forest Supervisor Bull released the Final EIS for the Middle East Fork 
HFRA project with a press conference at the Supervisor's Office of the 
Bitterroot National Forest in Hamilton, MT. When members of Friends of 
the Bitterroot were informed by the media of this press conference 
announcing the release of the much anticipated Final EIS for the Middle 
East Fork HFRA project they went to the Bitterroot National Forest 
headquarters.
    ``I was removed from the press conference at the public Bitterroot 
National Forest office under escort by an armed Forest Service law 
enforcement officer who was wearing a bullet-proof vest,'' explained 
Jim Miller, 53, President of Friends of the Bitterroot. ``We're not 
dangerous. All we were armed with was pen and paper to take notes. We 
can only assume that what Supervisor Bull and the Forest Service fear 
most is the truth.''
    Also barred from attending the public press conference at the 
Bitterroot National Forest office were longtime Bitterroot Valley 
residents and members of Friends of the Bitterroot, Stewart Brandborg 
and Larry Campbell.
    Eighty years young, Brandborg is a former Forest Service wildlife 
biologist whose father was the Supervisor of the Bitterroot National 
Forest from 1935 to 1955. In fact, a photo of Brandborg's father still 
hangs in the hallway of the Supervisor's office where he was turned 
away from the press conference.
    ``My father was a supervisor on this forest for twenty years. I 
have an interest in what is taking place on this public forest and want 
to witness it. I've never been barred from attending a public press 
conference in sixty years of conservation work.'' According to 
Brandborg, the Bitterroot National Forest had hand-selected those who 
could attend the press conference in the Bitterroot National Forest 
Headquarters office, only allowing individuals to attend who support 
the Bitterroot National Forest's controversial HFRA project.
    Ironically, back in 2001, Campbell, 57, was on the receiving end of 
an assault in the parking lot of this very same Forest Service office. 
Campbell was assaulted, spit on and threatened by a band of 
approximately a dozen loggers right in the parking lot of the 
Bitterroot Supervisor's office in Hamilton as he emerged from inside 
the office after picking up some public documents. ``Bitterroot 
National Forest officials did absolutely nothing about the assault and 
made no attempts to come to my rescue. Instead Forest Service officials 
simply sat inside the office and peered out the window as the assault 
took place,'' related Campbell.
    During the official HFRA objection process, which took place in 
October 2005, the Bitterroot National Forest received two official HFRA 
objections to the project from families that live in the East Fork 
community, as well as objections from longtime Bitterroot Valley 
residents and two Ph.D. faculty members at the University of Montana's 
School of Forestry. Official HFRA objections were also received from 
the logging industry, as well as the local conservation groups that 
helped develop the Community Protection and Local Economy Alternative.
    In the nearly six months between when the HFRA objections were 
filed and when the Record of Decision was signed, the Bitterroot 
National Forest made no attempt to work with our organization, except 
for a brief phone call I received from Supervisor Bull in January 2006.
    During the entire time our organization participated in the 
development of the Middle East Fork HFRA project we clearly stated to 
the Forest Service, East Fork community and the general public that we 
were very supportive of effective community wildfire protection work 
going forward in the area, and we remain supportive of the effective 
community wildfire protection work going forward to this day. In 
October 2005 we even meet personally with Undersecretary of Agriculture 
Mark Rey to urge the Forest Service to consider splitting the Middle 
East Fork HFRA project into two Records of Decision--one that would 
immediately implement the 1,600 acres of common-ground community fuel 
reduction work found in Alternative 3, and a second decision that would 
have included the controversial aspects of this project, including 
logging of large trees far from the nearest homes and outside of the 
WUI.
    The Forest Service refused these repeated requests and instead 
signed a Record of Decision that opted to defer a small portion of the 
Middle East Fork HFRA project that was clearly illegal due to soils 
issues (with the full intention of bringing back this portion of the 
project at a later date), while still going ahead with misguided 
logging of large trees in previously unlogged forests that don't pose 
an immediate threat to scattered homes found up the East Fork.
    In late April 2006, our organization, along with Friends of the 
Bitterroot, filed a lawsuit on the Middle East Fork HFRA project and 
currently that lawsuit is making its way through the judicial system. 
In the meantime, the Forest Service is going forward with auctioning 
off some of the first timber sale contracts that are part of this 
project and they expect work to begin in late August or early 
September.
    In the Forest Service's legal brief, the government states, ``Fire 
season is fast approaching, and delaying the (Middle East Fork) Project 
even for a short period increases the risk that if a fire occurs, it 
will be severe.''
    Yet, relegated to the background is the surprising scientific truth 
stated clearly in the Forest Service's own environmental impact 
statement (p. 3.1-38): ``Generally, for logistical and economic 
reasons, the larger fuels are treated first and the treatment of 
smaller fuels typically follows 1-3 years later. During that time 
period, before treatment is complete, fire behavior severity is 
increased.''
    What lessons can be learned from our situation with the Bitterroot 
National Forest's Middle East Fork HFRA project?
    First and foremost, any HFRA project needs an open, honest and 
inclusive collaborative process that includes participation from a 
diverse set of stakeholders. When various stakeholders and the Forest 
Service already have issues with mistrust, an open, honest and 
inclusive process becomes all the more important. Collaboration does 
not include the Forest Service coming to an initial HFRA meeting with 
logging units already mapped out, as was the case with the Middle East 
Fork HFRA project.
    It is highly inefficient for the Forest Service to tie bona-fide 
community wildfire protection work with industrial logging of large 
trees further from homes and, in some cases, outside of the Wildland-
Urban Interface. If the goal of a project is to help offer some 
protection to a community in the event of a wildfire that should drive 
the project, not industrial logging of large trees in the backcountry. 
If the Forest Service attempts to tie misguided logging with community 
protection, controversy increases and the project is often placed on 
shaky legal ground.
    In order to help this Committee understand the level of concern and 
opposition that the Middle East Fork HFRA project and process elicited 
I'm including the following information in this testimony:

          ``When you lay out expected receipts and costs, this would 
        bring into focus that costs will far exceed receipts. It would 
        be clear that timber sales would not fund your healthy forest 
        goal. . . . You say that selling timber, even at a loss, 
        provides you with funds to partly offset the cost of doing 
        Healthy Forest work on lands adjacent to the logged area. I 
        don't think this is true on the Bitterroot or other Region 1 
        Forests. . . . I can't see how you can fund any part of the off 
        sale acres you desire to treat under the Healthy Forest Act.''

                --Bob Wolfe to Supervisor Dave Bull specifically about 
                the Middle East Fork HFRA project (Sept. 29, 2005)

          ``. . . there has been a consistent, deliberate removal of 
        information that accurately portrayed the conditions of the 
        soils and the prescriptions and mitigations needed to address 
        those degraded soil conditions. Therefore, I can not support 
        the DEIS in terms of assuring we are meeting the SQS. I can no 
        longer say the proposed actions are legal regarding NFMA and 
        other pertinent laws and FS policies. I am very disappointed 
        that all my hard work has been erroneously reinterpreted, 
        rewritten and changed far from what I wrote and intended by the 
        editor(s) who weren't even on the ground doing soils 
        investigations in this project area!''

                --Ken McBride to Supervisor Dave Bull (May 5, 2005). 
                McBride was the Bitterroot NF's soil scientist for 16 
                years before retiring in the fall of 2005.
Text of Official Middle East Fork HFRA Objection received on October 
        14, 2005 from Robert S. Francis, 2546 E. Fork Rd., Sula, MT 
        59871
    ``I wish to object to the planned `preferred' Alternative #2 that 
would `treat' 6,472 acres instead of Alternative 3 that would impact 
1,064 acres. I object on a personal and a general basis.
    On a personal level my objection is based on the fact that my ranch 
house is next to Forest Service road #5778. The logging truck traffic 
resulting from Alternative #2 will make that structure uninhabitable. 
This observation is based on a small project set up by Sula Ranger 
Hollingshead last year. Her total lack of courtesy and consideration 
resulted in logging trucks roaring by our house at 3 am. I have no hope 
that attitude will change.
    On a general level I object to the premise that logging, etc 
outside the 400 meter zone protecting property is useful. There is no 
evidence it helps stops wildfires. In fact, there is ample evidence 
that logging increases the intensity of fires due to the drying effect 
on the understory and the piles of tinder-dry trash, slash, et at 
logging sites.
    On a general level I object to the premise that logging will affect 
the Douglas-fir bark beetle epidemic. There is ample historical data 
that shows this is a normal, cyclical process. It is natures way of 
thinning. Logging does not cure it. To use this infestation as an 
excuse to `get the cut out' is, at best, intellectually dishonest. This 
course of action makes sense only if one accepts the attitude that our 
national forest is a tree farm--not an ecosystem. I do not share that 
attitude.
    I object to Alternative #2 on an economic basis--as a taxpayer. 
Logging is a notorious money-loser. The value placed on the product is 
much too low. If my corporation conducted business the way you folks 
do, we would have gone out of business years ago.
    Finally, I object to the heavy-handed methods used to ram 
Alternative #2 down my throat. Under the guise of getting `community 
support' you have used scare tactics, and have hand-picked certain 
people for `testimonials' that support the plan you wee going to use--
no matter what.
    I have one last request--please give me at least 3 months warming 
before the log trucks start rolling along road #5778, so I can move 
out.''
Text of Official Middle East Fork HFRA Objection received on October 
        24, 2005 from Jed and Jessica Fitzpatrick, PO Box 45, Sula, MT 
        59871
    ``My wife, daughter and I live on the eastern edge of the project's 
boundary and feel that Alternative 2, the proposed alternative, will 
negatively affect this area. Treating nearly 6000 acres through the 
prescribed methods will greatly increase the spread of noxious weeds, 
disturb fragile soil systems, greatly increase sediment (26 tons) into 
the Bitterroot River, while not reducing the urban fire threat or the 
pine beetle infestations.
    We support Alternative 3 for this project because it focuses on 
urban interface, rather than backcountry logging. Alternative 3 would 
resolve the questionable aspects of the project proposed.''
Text of Official Middle East Fork HFRA Objection received on October 
        24, 2005 from Cheryl Holden Rice and Jack D. Rice, 329 El 
        Capitan Loop, Stevensville, MT 59870
    ``In the 1860s, a twice-widowed grandmother Eliza and her Carlton 
and Holden sons settled on what they named Carlton Creek fed by Carlton 
Lakes off Carlton Ridge and Lolo Peak. Larry Creek Campground is 
namesake to her third husband Larry Lavey. My grandchildren are 
seventh-generation to the Bitter Root Valley, where seven of their 
fourth-great-grandparents worked it. Moreover, a sister and some 
cousins share eight generations in the local timber industry. By 1993 
in this valley, 53 different surnames of families over the century are 
my relatives, some providing other names on the landscape. Like the 
Salish before us, when we marry and have children, we make certain we 
do not marry a blood relative. Therefore, we knew our neighbors, and 
for the most part, still do. We wave to each other in recognition. 
Importantly, we also know that our forests enrich our lives through the 
ages.
    Last spring, a tour organized by Montana environmentalists and 
loggers peaked my interest. I joined them up the Middle East Fork of 
the Bitterroot, an area ravaged by the fire of 2000. There, Bitterroot 
National Forest Supervisor Dave Bull introduced himself when he kindly 
invited me a ride up. Instrumental in obtaining the first approval 
under the Healthy Forests Restoration Act, Mr. Bull merits praise. 
Riding next to me was Bill Glasser, owner and builder of southern 
Bitter Root's Lost Trail Ski Resort. He graciously shared special 
sunglasses to better depict the expanse of bark beetle-killed trees.
    I also met Matthew Koehler who represented Native Forest Network. 
Perceptively, he initiated the public tour after many trips to study 
the area. He, like my timber family, cares about the forest for the 
sake of the forest, which includes people, wildlife, and flora. We both 
realize that, unlike coastal areas, our semi-arid valley does not allow 
trees to rapidly replenish as is evident in clear cuts. As Mr. Glasser 
told me, the seeding and planting up the West Fork after the fire, is 
damaged by drought.
    That morning, a welcome gentle spring mountain rain with its wet, 
pungent, charcoal snags and downed timber amidst beetle-killed stands 
awoke the memory of fire. Also, miles of numerous road strings over 
this range reminded one of others who left their mark, including my 
family of sawyers and loggers. As the sky cleared, birds reveled among 
a freshly washed, sprouting, newborn forest. On mountain tops, we each 
contemplated what is best for this forest and the life bound to 
flourish with time.
    Each soul among us seemed to agree that the urban-interface below 
the ridges is our first concern. Close trees shelter most homes along 
Middle East Fork. Everyone I questioned agreed that just as I am 
responsible for the huge poplar over my roof, neighbors who chose to 
live in the forest have personal responsibility to protect their homes 
from the trees in their yards. Significantly, Mr. Koehler pointed out 
alternative 3 focus on these homes with crucial concern for our 
neighbors. That is consensus.
    Then in September my husband and I learned that last summer Mr. 
Bull, who decided on alternative 2, prematurely authorized $208,000 of 
taxpayer money to mark trees to be cut before any final decision was 
properly made. We drove up Middle East Fork to see. Trees still hover 
over private homes. Two bore blue bands depicting a future cut. Driving 
up logging roads in the area visited in spring, we saw no fire or 
beetle killed trees marked blue. Green, healthy, blue-ribbon trees of 
various sizes were to be cut.
    Having stated our views in June, we continue to support alternative 
3 with its immediate treatment to 1,587 acres to protect homes about a 
mile on both sides of the river's Middle East Fork and, upon 
completion, with opportunity to address bums, beetles, fuel reduction 
and restoration further back.
    Whether outfitter, logger millworker, forester, scientist, 
environmentalist, conservationist, or anyone else, Bitterrooters wave 
to neighbors. We can work together as demonstrated for generations and 
by the tour. Richly blessed with a Bitterroot forest that is home to 
most of us, let us ensure this into eternity. Consensus for treatment 
of nearly 1,600 USDA acres toward a healthy forest with homes that 
would bring about 45 jobs and $1 million local labor income is a first-
rate start!''
Text of Official Middle East Fork HFRA Objection received on October 
        14, 2005 from Stephen F. Siebert, Professor, Department of 
        Forest Management, University of Montana College of Forestry 
        and Conservation, 6310 Woods Rd., Missoula, MT 59802
    ``I am writing to express my opposition to the Middle East Fork 
Hazardous Fuel Reduction project in terms of both substance and 
process. While I do not have official standing to file an objection, I 
submit this statement for the record. I visited several forest stands 
that will be impacted by the proposed project this past summer, 
attended the field trip that Forest Supervisor Dave Bull organized for 
College of Forestry and Conservation faculty members, attended the 
public meeting in Hamilton, and was a panel discussant at the Missoula 
public meeting.
    On the faculty field trip and at the public meetings, numerous 
questions and concerns were raised with regard to Bitterroot national 
Forest assumptions about fire regimes and behavior, potential to 
control bark beetle infestation, noxious weed invasions, elk forage 
cover relationships, soil compaction, stream sedimentation, and 
fisheries. In my opinion, these concerns have not be adequately 
addressed.
    Give the inherent uncertainty and unpredictability of management 
actions in a project of this scale, a case could be made to pursue the 
proposed alternative as a learning exercise. This would necessitate 
documenting, monitoring and assessing impacts through rigorous, 
replicated, randomized studies with adequate controls. However, as 
proposed, the project will not serve this function either.
    Based on the failure of the Forest Service to address substantive 
concerns about the proposed alternative and the dismal decision-making 
process (particularly the selective inclusion of the public and 
ejection of some members of the public from the public announcement 
meeting), the Bitterroot National Forest Sula District has achieved 
`catastrophic success.' The American public and the U.S. Forest Service 
deserve better.''
Text of Official Middle East Fork HFRA Objection received on October 
        24, 2005 from Diana L. Six, PhD, Associate Professor of Forest 
        Entomology/Pathology, Director, UM Mentoring Program for Women 
        in Science, Dept. of Ecosystem and Conservation Sciences, 
        University of Montana College of Forestry and Conservation, 
        Missoula, MT 59812
    ``The Middle East Fork Hazardous Fuel Reduction Project has 
substantial problems in its design and its ability to meet its stated 
objectives. I will restrict my comments to planned work outside of the 
urban interface zone as that work is clearly needed, meets objectives, 
and is not in contention. In contrast to the community protection zone, 
much of the additional work that is planned, especially in the higher 
elevations, is not likely to meet objectives and may even work counter 
to them. This area is primarily composed of mixed fire intensity stands 
which do not behave the same as low elevation low intensity high 
frequency fire adapted stands and thus cannot be assumed to respond the 
same ways to thinning treatments. By opening these stands they become 
drier and windier and can burn hotter (per comments by fire expert Ron 
Wakimoto and others). Furthermore, as planned, these are spacing 
treatments not restoration treatments that truly attempt to restore 
historic stand structure and function (see Franklin et al, . . .). The 
lack of application and use of current knowledge in the ecological 
sciences and ecosystem management principles in this project is as 
disturbing as the apparent poor understanding of when and where to 
properly apply certain types of treatments.
    My expertise lies in insects and disease of forests and in genetics 
and I will confine the majority of my remaining comments to these 
topics. Thinning of stands to reduce tree susceptibility to bark 
beetles can be a very effective preventative strategy when applied 
properly and at the correct time. While the efficacy of thinning in 
Douglas-fir remains to be tested it is likely to be effective in many 
situations. Thinning works by releasing trees in overdense stands from 
competition. This release means that trees have higher levels of 
resources of which some then be made available to produce defensive 
compounds. While Douglas-fir does not use pitch to defend itself 
against beetles as do pines, it has other defenses that are resource 
dependant. The effects of thinning, however, are not immediate. 
Typically, trees in thinned stands become more susceptible immediately 
after thinning due to changes in stand conditions including increased 
light and wind to which they are not accustomed. After a lag period of 
one or more years, trees then often exhibit an increase in their 
defensive capabilities and become more resistant. Therefore, 
immediately after thinning, trees become more susceptible-if thinning 
is done in a stand with high levels of beetle activity this can 
increase, not decrease, mortality. Such treatments, therefore, are most 
appropriate and effective as preventative treatments applied before 
beetles become active in considerable numbers in an area.
    In epidemic situations, such as the areas affected by the project, 
thinning is ineffective and may exacerbate mortality in remaining 
trees. Such efforts and expense would be better placed into areas on 
the Bitterroot Forest where beetles are not yet active but where 
conditions would support increases in their populations and where the 
treatments can do some good and are appropriate. This project will not 
reduce beetle populations or mortality due to the small amount of area 
being treated relative to the size of the infestation and thinning in 
these areas is not likely to help save the remaining live trees.
    Another concern with the project is the source of stock to be used 
for replanting at some of the sites. It is now well known, and has been 
for some time, that replanting with trees not native (same species) to 
the site can be devastating to the long term health and function of a 
forest. Forest geneticists have recommended that replanting should be 
done using seed sources from the site as this assures replacement of 
dead trees with site-adapted trees and less of a potential for losses 
in genetic diversity if seed is properly collected. The genetic 
diversity present in a stand is ultimately tied to how well a forest is 
able to deal with changes in the environment that occur in the short 
and long term. Unfortunately in the past, and still in many places 
currently, the value of maintaining genetic diversity is not 
understood. Nor is the fact that trees are site-adapted to more than 
just temperature, elevation, precipitation and soils at a site. We now 
know that more than optimal site conditions for tree growth are 
important in maintaining a healthy forest. The genetics of trees at 
particular sites have resulted from millennia of adaptation to 
conditions that go well beyond temperature, precipitation and soils and 
include susceptibility to many diseases and insects, ability to survive 
prolonged drought, and other disturbances. Problems related to the 
genetics of offsite trees often do not show up until decades after 
planting. By that time, the trees have produced pollen that has spread 
throughout the forest and their alleles have been incorporated into the 
genomes of the ``native'' trees potentially polluting and diluting the 
genetic pool and affecting adaptive traits that evolved there. Once 
this happens it cannot be reversed.
    I hope the Forest will reconsider the non-community zone portion of 
this project and in the future base more of their management on 
ecological principles and the best available science. Management is 
clearly need in many places but should always strive to use the best 
information available to ensure the greatest likelihood of doing 
good.''
Ravalli Republic (Hamilton, Montana) Letters to Editor--June 20, 2006 
        Middle East Fork project needs examined
            By Jed Fitzpatrick, Sula, MT
    I would like to comment on the Middle East Fork Hazardous Fuel 
Reduction Project scheduled to begin soon in Sula. My family and I live 
year round here in Sula on the far Eastern end of the project boundary. 
We have been involved with this project from its inception, attending 
the community meetings and receiving all the literature from the Forest 
Service pertaining to this project.
    We feel the ``collaborative effort'' touted by the Forest Service 
on this project has created much confusion and argument from the 
beginning. The meetings at the Sula Clubhouse were very poorly 
orchestrated and mediated by Forest Service management, leading to more 
of a community argument rather than a constructive debate. What you 
know now as the Middle East Fork Hazardous Fuel Reeducation project, 11 
million board feet of timber harvested, apparently spawned from these 
two disorganized meetings. I do not believe this project originated 
from these meetings, and I feel our community has been unfairly divided 
and used as leverage on an issue we actually have no say in.
    This beautiful valley teems with game and is probably the most 
coveted mule deer special tag area in the state; huge herds of big horn 
sheep inhabit the same country. Logging and burning will obviously 
affect these critters, not to mention the hunters trying to find the 
game while helicopter logging operations continue throughout the 
hunting season.
    I urge everyone on both sides of the fence on this project to 
examine it closely as I have done, and ask yourself if this project is 
actually ``healthy'' for our forest and this community.
DeBaugan HFRA Project, Lolo National Forest, Montana
    The WildWest Institute, West End Volunteer Fire Department and 
others local residents, businesses and conservation groups are 
currently engaged in a collaborative process through the Healthy 
Forests Restoration Act with the Superior District of the Lolo National 
Forest to develop a common sense plan for fuel reduction work on Forest 
Service land directly around the greater DeBorgia, Montana area.
    Thankfully, our experience with the DeBaugan HFRA process on the 
Lolo National Forest has been night and day different from our 
experience with the Middle East Fork HFRA project/process. In fact, to 
date, it's been a refreshing process and I personally believe that 
Superior District Ranger Rob Harper and his staff deserve a lot of 
credit. Credit also needs to go to the West End Volunteer Fire 
Department and their Chief Bruce Charles who have been instrumental in 
keeping this process flowing smoothly, as well as a local organization 
called the Happy Homemakers, who have graciously provided the beautiful 
DeBorgia School House (which again, was one of the only buildings in 
the entire area to survive the 1910 Fires), as well as tasty cookies 
and brownies, for all our the HFRA collaborative meetings.
    According to the Forest Service's own scoping document for this 
HFRA project, the DeBaugan collaborative group (so named for the 
communities of DeBorgia and Haugan) was formed in early 2005 by the 
community members and environmental group representatives from 
Missoula. Since May of 2005, there have been six HFRA collaborative 
public meetings and two HFRA collaborative public field trips to 
discuss how to effectively protect homes from wildfire, current forest 
fuel conditions and potential fuel reduction opportunities.
    These HFRA collaborative meetings and field trips have been 
facilitated not by the Forest Service, but by outside facilitation 
provided by Dr. Jim Burchfield, assistant Dean of the University of 
Montana's School of Forestry and Conservation. Dr. Burchfield has done 
an excellent job and the outside facilitation has a allowed the 
collaborative group to build trust, rather than fight with a 
facilitator who might have their own agenda. Attendance at these HFRA 
collaborative meetings and fieldtrips has been very high, with 114 
individuals participating, which given the small populations in these 
communities is quite remarkable.
    Just to be clear and for comparisons purposes, the Bitterroot 
National Forest held only one official HFRA collaborative meeting and 
no public fieldtrip for the Middle East Fork project, while as you can 
see the Lolo National Forest has held six official HFRA collaborative 
meetings and two HFRA collaborative field trips.
    Again, according to the Forest Service's own scoping document for 
this HFRA project, based upon this intensive nine-month effort, the 
DeBaugan collaborative group developed a proposal to reduce fuels near 
the edge of National Forest lands and in most cases immediately 
adjacent to private land near the communities. The proposal specifies 
fuel reduction activities on 5,732 acres through prescribed burning and 
cutting, removal and slashing of small trees.
    While the WildWest Institute and other conservation groups involved 
are very supportive of fuel reduction work around the DeBorgia area on 
Forest Service land to help protect the community from wildfire, we do 
have some concerns with the Forest Service's proposal as it now stands. 
We have let the Forest Service and collaborative group know that our 
concerns center around issues related to old-growth forests, soils, 
water quality, roads and endangered species such as lynx and bull 
trout. We are optimistic that these concerns will be properly addressed 
and rectified as the Forest Service goes through the environmental 
effects analysis and puts together an Environmental Impact Statement.
    However, unlike our experience with the Bitterroot National Forest 
on the Middle East Fork HFRA project--where the Forest Service refused 
for over a year to even consider making changes to their project and 
government officials insisted at all costs that they knew what was 
right--the Lolo National Forest has been very upfront and open to 
changes in the project stating in their official scoping document that 
``the proposal may be modified, additional actions proposed to mitigate 
negative effects, or dropped from consideration as needed to meet 
federal and state laws, Forest Service regulations and policy, and Lolo 
Forest Plan standards, objectives and guidelines.''
    The Forest Service has informed the collaborative group that fuel 
reduction work on the Forest Service lands around the DeBorgia area 
will not be implemented until at least 2009 due to the HFRA process, 
Forest Service budget issues and unforeseen circumstances that have 
drawn Forest Service employees off their regular duty, including a 
human-caused wildfire along Interstate 90 last year, as well as 
Hurricane Katrina.
    It's interesting to note that when the collaborative group was 
informed last summer that it would be at least 2009 until this project 
would be implemented community members, the volunteer fire department 
and conservationists asked the Forest Service to consider moving 
forward with the most important community fuel reduction work under the 
provisions of the Categorical Exclusion authority. We were told that 
doing so would move the HFRA project back even further.
    This experience, coupled with accounts such as the one given 
recently by Senator Bingaman, really illustrate to me the serious 
nature of the Forest Service's budget crisis.
    Furthermore, the fact that work on the DeBaugan HFRA will not begin 
until at least 2009 just further emphasizes the importance of the 
defensible space work around the homes of elderly members of the 
community, along key roads in the community and near the firehouse and 
community center that the WildWest Institute and West End Volunteer 
Fire Department completed this past May as part of our DeBorgia 
Community Wildfire Protection Work Weekend.
What more could be done to improve upon HFRA and what steps could the 
        Administration take to improve its implementation of HFRA?
    Based on my experience with the HFRA process and resulting 
projects, and a review of the administration's FY 2007 budget request, 
I would like to make the following observations and recommendations.

          1. The Forest Service's ``Healthy Forests'' budget does not 
        provide adequate support for community wildfire protection 
        efforts on non-federal lands where it would be most effective, 
        especially since nationally 85% of the land proposing a risk to 
        communities in non-federal land.
          2. While increasing the budget for the timber sale program, 
        the Administration's FY 2007 proposed Forest Service budget 
        also would eliminate the Economic Action Program that provides 
        funding for communities to conduct assessments for wildfire 
        risk and planning for defensible space. Furthermore, the State 
        and Volunteer Fire Assistance programs, which provide for 
        community wildfire protection planning and projects through 
        both the State and Private Forestry and Wildland Fire 
        Management programs would be cut by nearly $23 million--a 30 
        percent reduction.
          3. Environmentally harmful logging that does not enhance 
        community protection or forest health is being included in HFRA 
        and HFI projects. Paying for bona-fide community wildfire 
        protection projects and ecologically-based restoration work 
        through the federal timber sale program does not work. This 
        practice not only increases controversy and mistrust among 
        various stakeholders, but commercial timber sales often 
        increase fire risk and severity and cause additional 
        restoration needs.
          4. The required HFRA collaborative process is, in some cases, 
        being ignored, or highly manipulated, by the Forest Service. 
        Again, this practice only serves to increase controversy and 
        mistrust among various stakeholders. An open, honest and 
        inclusive collaborative process with outside facilitation 
        appears to be the best course of action.
          5. The old growth forests and large tree retention 
        requirements of the HFRA are, in some cases, being ignored and/
        or manipulated by the Forest Service in order to cut down large 
        trees. Once again, this practice only serves to increase 
        controversy and mistrust among various stakeholders, not to 
        mention that it may result in increased fire risk and severity 
        as well as significant damage to overall forest health.

    For all future HFRA projects I would urge:

          1. That a greater portion of the Forest Service ``Healthy 
        Forests'' budget be dedicated to non-federal lands in the 
        Wildland-Urban Interface. In FY 2007 the administration 
        proposes to spend only 4% of the funding in this area that 
        makes up 85% of the risk nation-wide.
          2. That when developing fuel reduction projects to protect 
        communities from wildfire the Forest Service and BLM focus fuel 
        reduction activities within the 1/4 mile Community Protection 
        Zone. Given limited resources and limited time, it makes most 
        sense to focus fuel reduction activities immediately around a 
        community rather on the larger WUI, which in some CWPPs extends 
        out 1/2 to three miles or more. Another advantage of focusing 
        limited time and resources within the CPZ is that we can ensure 
        that more at-risk communities are protected.
          3. That the Forest Service allow the local collaborative 
        process to work and together with a diverse set of stakeholders 
        help design authentic community wildfire protection and 
        restoration projects, not just timber sales under the guise of 
        community wildfire protection and restoration. In order to help 
        with this effort, the Forest Service should seek outside 
        facilitation for the HFRA collaborative process and begin 
        working more closely with independent researchers and 
        scientists at colleges and universities throughout the country 
        to make sure that protects are based on the best available 
        science.
          4. That old growth logging and cutting of large trees and 
        entry into roadless wildlands be prohibited in all future HFRA 
        and Healthy Forests Initiative projects. This practice only 
        serves to increase controversy and mistrust among various 
        stakeholders and takes valuable resources away from bona-fide 
        community wildfire protection and ecologically-based 
        restoration projects.

    Mr. Chairman and members of this Committee, I look forward to 
answering any questions that you may have and thank you for the 
opportunity to testify at this important hearing to review 
implementation of the Healthy Forest Restoration Act.

    Senator Craig. Matthew, thank you very much. Now, 
Commissioner MacLeod.

 STATEMENT OF COLLEEN MACLEOD, COMMISSIONER, UNION COUNTY, OR, 
       ON BEHALF OF THE NATIONAL ASSOCIATION OF COUNTIES

    Ms. MacLeod. Good morning Chairman Craig, Senator Wyden, 
Senator Bingaman. Thank you for the opportunity and the honor 
of testifying before you this morning.
    I am Colleen MacLeod, a commissioner from Union County in 
the northeast corner of Oregon. I appear before you today on 
behalf of the National Association of Counties.
    While every county is unique, I believe that our 
experiences using the tools of the Healthy Forest Restoration 
Act to improve forest health and protect our communities are 
typical of those of many of my fellow county officials across 
the country.
    Our county is mountainous, heavily forested and covers over 
a million three hundred thousand acres. Half of that land is in 
Federal ownership. As you might well imagine, we, as a board of 
commissioners, devote a great deal of attention, time and funds 
in an effort to repair the damage to our economy and declining 
health of the forests that surround us.
    We are fortunate to be represented here in Washington by 
your colleagues on this committee, Ranking Member Ron Wyden and 
Senator Gordon Smith, as well as by your counterpart in the 
other chamber, Greg Walden, chairman of that committee. They 
are all tireless advocates for our natural resource-based 
communities. So, perhaps it is not entirely coincidental that 
we enjoy a terrific relationship with our local Federal forest 
managers.
    We are also fortunate in that our county still has three 
working mills that have the potential to process the timber 
that clogs our forests and threatens our surrounding 
communities. Mills that have managed to hold on despite the 
fact they can not depend on the Federal forests that surround 
us. They have managed to exist through that 180 degree turn, 
where the public lands that were originally designed to insure 
resources to our Nation, have now deferred that responsibility 
back to a dwindling supply of private ownership.
    Our efforts to creating a meaningful wildfire plan have 
been more successful and useful due to our record of teamwork. 
We were participants in efforts such as the Blue Mountain 
Demonstration Project and have an appointed Forestry 
Restoration Board with very broad representation. It is not a 
flawless process, nor does it guarantee that groups 
participating in that collaborative process will forgo their 
right to appeal projects recommended by the group. It is, 
however, an open process that invites discussion before 
litigation and demands justification for litigation after the 
process.
    Our collaborative efforts on our plan have been a model. 
The core planning team included members from Federal and State 
agencies, local and tribal governments as well as 
representation from private landowners, industry and small 
rural fire protection districts. The resulting document from 
this professional collaboration and the subsequent community 
meetings, is an in depth analysis of wildfire risk assessment. 
It was designed to reduce the potential for wildfires that 
threaten the people, resources, structures and infrastructures 
that the people in my county value.
    Process was data-based approached and combined information 
and expertise of the planning agency members. Sixteen WUI areas 
were identified and their risk level was ranked. The 
responsibility for implementing those projects was determined 
by specific landowner or managing agency.
    Each WUI area contained multiple uses and unique concerns, 
and what became clear to us was that no one project could be 
implemented entirely within one agency or at one level of 
government. Due to our process of sharing those resources and 
combined knowledge we've had the ability to combine this 
disparate data and prepare and refine a comprehensive plan.
    So, where do we go from here? What do we do now that the 
planning is done? What needs to be done is powerful knowledge. 
However, powerful knowledge requires equally powerful action. 
Planning without proper implementation is a wasted process.
    On the private side, landowners in the affected areas are 
stepping up and cleaning house. Residents are creating 
defensible space, thinning overstocked stands, planting fire 
resistant vegetation, and improving emergency access. They have 
been able to access over a half million dollars in Fire Plan 
money and some commercial thinning they've done has provided 
funding to reduce their costs and vulnerability.
    On the public lands side, the risk reduction efforts have 
been much slower. Restoration and fire hazard reduction on 
public land is a process of running through sand. If the 
lawsuits don't get you, then the paperwork will.
    There is little comfort and safety assurance to a landowner 
who's taken the necessary steps to fire proof his property, 
only to find the process of treating the Federal land that 
surrounds him is either 2 years out in the planning process, or 
held up by litigation in the courts somewhere. It does no good 
to fire proof one room in your home if the rest of your house 
is a house fire waiting to happen.
    HFRA and HFI have been helpful to us, but we still run into 
regulatory issues like Eastside Forest Screens, PACFISH or the 
endangered species, issues that prevent us from doing needed 
treatment and require we do a EA to amend our forest plan. An 
EA usually takes 2 years from start to finish. Unfortunately 
forest fires do not work on schedule. The categorical 
exclusions in the Restoration Plan have allowed us more 
flexibility, but those usually take a year from start to finish 
and awarding of a stewardship contract.
    No matter what our level of collaboration, and we work 
really hard at that in my county, we expect some form of appeal 
on every project and it has become a tool for obstruction and 
delay.
    In closing, I ask you to continue to take what ever steps 
necessary to remedy this timeframe for restoring forest health. 
We need to get on with things. The forest needs our help and 
the citizens of this Nation need our help.
    If you have not viewed the literal cauterization that 
happens to an overstocked forest after a major fire, I can tell 
you first hand that it is no longer protection, nor habitat for 
man, beast vegetation or watershed.
    I am one of those residents in the WUIs who looks directly 
out my front window every day at an overstocked, unhealthy 
forest, a forest that suffers from lack of treatment mainly 
because it had the misfortune to be designated wilderness, oh, 
I'm done, I'm almost done. This is not designated wilderness 
because it's sat untouched by human activity. It has actually 
been accessed and used extensively for years.
    No, I am not one of those people who seem to be drawing 
derision for building new McMansion out where others deem they 
shouldn't. My home and the homes of my neighbors have been in 
place along the base of that mountain for over 100 years. The 
humans, the resources and the wildlife in that forest have 
managed to co exist in a multi-use forest framework for 
decades. The hand thinning we've managed to get through the 
restoration project will be no match for even a small fire. I 
have furnished you a photo I took from my driveway of a fire 
over the ridge a couple of years ago. Residents of my county 
and all across the landscape of public lands shouldn't have to 
live with this kind of preventable threat.
    Thank you for listening and for your ongoing efforts.
    [The prepared statement of Ms. MacLeod follows:]
Prepared Statement of Colleen MacLeod, Commissioner, Union County, OR, 
           on Behalf of The National Association of Counties
    Good morning Chairman Craig and Senator Wyden. Thank you for the 
opportunity and the honor of testifying before you this morning.
    My name is Colleen MacLeod. I am a County Commissioner from Union 
County in the Northeast corner of Oregon. I appear before you today on 
behalf of the National Association of Counties.
    While every county is unique, I believe that our experiences using 
the tools of the Healthy Forest Restoration Act (HFRA) to improve 
forest health and protect our communities are typical of those of many 
of my fellow county officials across the country.
    Union County is located in the Wallowa Whitman National Forest, 
which, along with the Umatilla and Malheur National Forest comprise 
what is known as the Iron Triangle.
    Our county is mountainous, heavily forested and covers over a 
million three hundred thousand acres. Half of that land is in federal 
ownership. As you might well imagine, we, as a Board of Commissioners, 
devote a great deal of attention, time and funds to try to restore the 
natural resource balance in our region; a region that has suffered 
economic upheavals and declining forest health over the past several 
decades.
    Mr. Chairman, as you may know, Union County is fortunate to be 
represented here in Washington by your colleagues on this Committee, 
Ranking Member Ron Wyden and Senator Gordon Smith, as well as by your 
counterpart in the other chamber, Chairman Greg Walden--all tireless 
advocates for our natural resource-based communities. Perhaps it is not 
entirely coincidental that we enjoy a terrific relationship with our 
local federal land managers.
    Having said that, I must let you know that as I prepared for this 
hearing many of my fellow county officials from across the country have 
wanted me to emphasize the positive working relationships and 
collaboration that they also enjoy with their federal partners. For one 
excellent example of these partnerships, please see the attachments * 
describing the collaboration between the New Mexico Association of 
Counties, the BLM and the New Mexico State Forestry Division. Mr. 
Chairman, as you know, NACo has not hesitated to be sharply critical of 
these agencies in the past, but in this case, Chief Bosworth and 
Director Clarke are getting the message out to their people on the 
front lines, and it is making a difference.
---------------------------------------------------------------------------
    *All attachments have been retained in subcommittee files.
---------------------------------------------------------------------------
    We in Union County are also fortunate in that we have retained some 
of the infrastructure essential for large forest health improvement 
projects. We still have three working mills able to process the trees 
that clog our forests and threaten our surrounding communities. Those 
mills have managed to survive, in spite of the fact they can not depend 
on the federal forests that surround us for their timber supply. They 
have managed to exist through that 180 degree turn, where the public 
lands that were orginally designed to insure resources to our nation, 
have now deferred that responsibility back to a dwindling supply on 
private land.
    We also have the advantage of having been early practitioners of 
the kind of collaboration this committee has endorsed in HFRA and other 
legislation in recent years. We have, by design and through necessity, 
built a consistently open and collaborative working relationship with 
our federal, state and local partners. It has been an effort to move 
forward and remedy what we perceive as an imbalance. Our efforts at 
creating a meaningful Union County Community Wildfire Plan have been 
more successful and useful due to our history of teamwork. We have 
historically been participants in efforts such as the Blue Mountain 
Demonstration Project and have had, since 2001 a local Forestry 
Restoration Board. That board tours project sites and collaborates on 
outcomes for planned USFS projects. Appointees to that board represent 
the county, federal and state forestry, tribes, fish and wildlife, 
marine fisheries, ranching, small woodlands, environmental and 
industry. It is not a flawless process, nor does it guarantee that its 
projects will not be appealed. It is, however, an open process that 
invites discussion before litigation and demands justification for 
litigation after the process.
    The collaborative effort on our CWPP has been a model. We started 
early and we cast our participation nets very wide. The core planning 
team included members from federal and state agencies, local and tribal 
governments as well as representation from private landowners, 
industry, small rural fire protection districts and emergency service 
providers. The resulting document from this professional collaboration 
and the subsequent community meetings, is an in depth analysis of 
wildfire risk assessment. It was designed to reduce the potential for 
wildfires that threaten the people, the resources, structures and 
infrastructures that the people in my county value.
    Our CWPP process was a methodical, data-based approach that 
combined the information and expertise of the planning agency members. 
Sixteen Wildland Urban Interface (WUI) areas were identified and their 
risk level was ranked based on such factors as population, level of 
development, topography, vegetation and weather patterns. The 
responsibility for implementing projects was determined by specific 
landowner or managing agency. Buy-in to hazard mitigation was obtained 
by comprehensive participation through the project identification 
process.
    Although each WUI area has within in it, multiple uses and unique 
concerns, what became clear was that no one project could be 
implemented entirely within one agency or at one level of government. 
Due to our process of shared resources and combined knowledge we have 
had the ability to combine this disparate data and prepare and refine 
this comprehensive plan.
    What do we do now that the planning is done? It is good to know 
what needs to be done. That is powerful knowledge. However, powerful 
knowledge requires equally powerful action. Planning without proper 
implementation is a wasted process.
    On the private side, landowners in the affected areas are stepping 
up and cleaning house. Residents are creating defensible space by 
thinning overstocked stands, planting fire resistant vegetation, 
improving emergency access. They have been able to access over a half 
million in Fire Plan dollars and some of the commercial thinning has 
provided funding to reduce their costs and vulnerability.
    On the public lands side, the risk reduction efforts have been much 
slower. Due to the usual circumstances, restoration and fire hazard 
reduction on public land is a process of running through sand. If the 
lawsuits don't get you, the paperwork will.
    There is little comfort and safety assurance to a landowner who has 
taken the necessary steps to fire proof his property, only to find the 
process of treating the federal land that surrounds him is either two 
years out in the planning process, or held up by litigation in the 
courts somewhere. It does no good to fire proof one room in your home 
if the rest of the house is a house fire waiting to happen.
    However the tools you have given us are providing some light at the 
end of the tunnel. For instance, my colleague on the NACo Public Lands 
Committee, Commissioner Alan Thompson of Ravalli County, Montana, tells 
me that U.S. District Court recently ruled on a high-priority project 
from their local CWPP that had been appealed. After considering 
different alternatives in collaboration with local stakeholders--and 
adjusting proposals in light of concerns raised in the process, the 
Forest Service settled on an alternative that proposed harvesting a 
significant number of dead and dying trees both in the WUI around the 
little community of Sula and on the Bitterroot National Forest. In the 
course of the appeal which followed, Ravalli County intervened on the 
side of the Forest Service. After hearing arguments from the County and 
the Fire Chief of Sula, Judge Malloy ruled in favor of the Forest 
Service and the County. Commissioner Thompson says that without HFRA 
the time spent planning the projects and the appeals and litigation 
which seem inevitably to follow would be too long to remove the 
hazardous fuels which threaten our citizens and their property, not to 
mention the fish and wildlife that depend on the forest. The provisions 
of HFRA that streamline the appeals and litigation process are proving 
to be very valuable and we believe that they should be preserved and 
perhaps extended to other agency planning activities.
    Similarly, in Union County, HFRA and HFI have been very helpful to 
us, but we still run into regulatory issues like Eastside Forest 
Screens and PACFISH or other Endangered Species Act issues that prevent 
us from doing needed treatment. While the ESA is not under the 
jurisdiction of this Committee, let me pause here to make an important 
point. We believe that the ESA, as it is currently implemented, is the 
greatest single barrier to improving forest health on the scale and at 
the pace that our dire forest conditions demand. Mr. Chairman, NACo 
believes that the Senate should move to update and improve the ESA 
before the 109th Congress ends. Failure to do so is a tragic waste of 
an historic opportunity.
    As you might expect, Mr. Chairman, funding also continues to be a 
problem. A number of counties report that they have completed their 
plans, but that priority projects are held up due to lack of funds to 
implement them.
    My colleagues in California are coming to the conclusion that this 
is due in part to a disconnect between Forest Service project planning 
and the CWPP process. While the agencies have been wonderful partners, 
providing technical assistance to counties preparing CWPPs, too often 
these plans are considered ``just'' community plans, not integrated 
across the landscape, including federal, state and private ownerships. 
Consequently, County Supervisors in California feel that they may not 
be realizing the full benefit of HFRA. Part of the reason for this may 
be that many CWPPs have included only projects that require grant 
funding, which limits the opportunity for a coordinated approach to 
fire risk reduction. Since CWPPs were designed to coordinate efforts to 
reduce fire risk across the landscape, it may be a good ideal to direct 
federal field personnel to integrate their plans with those of the 
communities, and to consider landscape scale projects which may 
generate revenue while accomplishing hazardous fuel reduction outcomes. 
This will improve opportunities for community members to recommend a 
community-wide fuel reduction strategy, provide meaningful 
participation in federal projects and expedite implementation of 
federal and private projects.
    Another potential solution which we in Oregon have aggressively 
pursued uses the synergy that exists between Title II and Title III of 
your landmark Secure Rural Schools and Community Self Determination 
Act. Many of our counties have been able to use Title III funds to 
support the CWPP process and then invest Title II resources to leverage 
project implementation.
    Our colleagues in California's Regional Council of Rural Counties 
have made a number of other useful observations and recommendations 
which NACo submits as an attachment to this testimony.
    In closing I ask that you continue to take what ever steps 
necessary to remedy this timeframe for restoring forest health. We need 
to get on with things. The forest needs our help. The citizens of this 
nation need our help.
    If you have not viewed the literal cauterization that happens to an 
overstocked forest after a major fire, I can tell you first hand that 
it is no longer protection, nor habitat for man, beast or vegetation.
    I am one of those residents who look directly out my front window 
every day at an overstocked, unhealthy forest; a forest that suffers 
from lack of treatment mainly because it had the misfortune to be 
designated Wilderness. This is not designated Wilderness because it has 
sat untouched by human activity. It has actually been accessed and used 
extensively for years.
    No, I am not one of those people who seem to be drawing derision 
for building new McMansions out where others deem they shouldn't. My 
home and the homes of my neighbors have been in place along the base of 
that mountain for over 100 years. The humans, the resources and the 
wildlife in that forest have managed to co exist in a multi-use forest 
framework for decades. The hand thinning we have managed to get through 
the restoration process will be no match for even a small fire. I have 
furnished you a photo I took from my driveway of a fire over the ridge 
a couple of years ago. Residents of my county and all across the 
landscape of public lands should not have to live with this kind of 
preventable threat.
    Thank you for listening and for your ongoing efforts.

    Senator Craig. Commissioner, thank you very much. Now, our 
last witness to testify, Jay Jensen, executive director, 
Council of Western State Foresters. Jay, please proceed.

STATEMENT OF JAY JENSEN, EXECUTIVE DIRECTOR, COUNCIL OF WESTERN 
                 STATE FORESTERS, LAKEWOOD, CO

    Mr. Jensen. Good morning, Chairman Craig, good morning, 
Senator Wyden. Thank you for having the stamina to stay all the 
way through to the end of the day.
    First, I'd like to apologize that we could not get a State 
forester here to testify before you and for giving me an 
opportunity. Just as the temperature is reaching three digits 
here in D.C., so it is in the West and the wildfire situation 
particularly in the last week has really----
    Senator Craig. I have a feeling they're all busy.
    Mr. Jensen. They are. State foresters by enlarge are 
strongly supportive of the Healthy Forest Restoration Act and 
there really is one primary reason for that. It's the Community 
Wildfire Protection Plans contained within that act and that's 
going to be the focus of my testimony today.
    It's been a State forester's collective experience that 
when dealing with wildfire and natural resource issues, that 
when you can have a locally driven community based solution, 
those are the best sorts of answers that are most lasting on 
the ground. Thanks to all of you around this dias and the 
Congress that passed the Healthy Forest Restoration Act, that's 
exactly what you provided with those community wildfire 
protection plan provisions.
    Let me talk to you a little about what's the importance of 
those CWPPs as they're called and what that means. CWPPs are 
bringing back a level of credibility back into the process 
right now. Primarily through the collaborative process and 
under which they are developed, they provide a formal avenue 
for a way for communities to channel their energies on dealing 
with wildfire issues. This is very important because it 
empowers those communities to take their own responsibility for 
dealing with the wildfire situation. If we're going to address 
wildfire wholistically, we need--this is not just something 
that it's the sole responsibility of government to handle. We 
need communities and individuals to step up and take 
responsibility for their own protection.
    Where are we right now? I'll give you a snapshot of what it 
looks like in the West. As of March of this year, there are 334 
Community Wildfire Protection Plans completed across the West, 
250 more coming on line. That translates to about--those cover 
about 2,000 communities at risk and I wish I could provide you 
a better State by State comparison of what that looks like, but 
the numbers really don't match up that way, they're not--
because communities are all defined differently and look 
differently and the coverage under those CWP's are different. 
It's very hard to draw comparisons between States, but I would 
encourage you to take a look at our recent report that came out 
that we'll provide in the back of the room and you can see some 
details of what's happening in each of your individual States.
    I'd end by saying if you look at the national picture, 
there are about 650 completed with about 600 more coming on 
line soon.
    Implementation, and I think this is the major focus of why 
this hearing was called today. How are CWPPs getting translated 
into projects. Let me remind you that CWPPs are all lands 
documents covering both public lands and private lands. So, let 
me cover the private land side of the equation first and talk 
to you from the State forester's perspective where most of 
their responsibility is.
    The primary Federal mechanism there is through the State 
fire assistance program. In the West, those projects for fuels 
reduction are derived through a competitive process that 
require them all to be derived from the Community Wildfire 
Protection Plan, thus guaranteeing that all projects are of the 
highest priority and are being done in the right area.
    On the Federal side of the equation, I think as we've heard 
here today, it's a little bit tougher to figure out all that's 
going on. A few reasons for that, I'd think I'd offer HFRA may 
not always be the best tool for hitting those high priority 
acres. But, I think we're also seeing that NEPA projects--
there's a number of many NEPA projects on the shelf and those 
line officers have a 2 to 4 year investment in those NEPA 
analyses and they want to get those down on the ground. So, I 
think what we'll start to see is more translation of CWPPs in 
the projects in the next year or two.
    Challenges ahead, the expectations are very high. A 
community that finishes a Community Wildfire Protection Plan 
expects Federal dollars to flow their way. That's troubling, 
that is not the intent of how the Healthy Forest Restoration 
Act was put together. What CWPPs do do is allow a community to 
position themselves to compete better for scarce Federal 
dollars.
    Let me talk a little bit about some of the--well moving on 
a little bit in terms of investment, and we've heard discussion 
here today, fuels reduction work is very expensive. Easily 
$1,000, $2,000 is common, we've heard 8,000, particularly when 
you're dealing with mechanical treatments. We need to make sure 
that we're dealing with the highest priority acres and CWPPs 
provide that opportunity to do that.
    Investments, and if we want to maintain the numbers we're 
looking at, we're going to have to see the investments being 
made on these high priority projects that are identified in 
CWPPs. Reauthorization of the county payments legislation, 
titles II and III provide some opportunities there with that. 
We all know about the hazardous fuels line items and the state 
Fire Assistance Program and the Forest Health Management 
Programs also provide avenues.
    Quick note on appeals and litigation, progress is being 
made, CWPPs are reducing the conflict that's out there, the 
objections processes under HFRA are helping with that, but it's 
still a problem. Notably for the Forest Service, repeal or 
modification of the appeals reform that could go a long way 
towards helping out in this regard. It can be done in a way 
that does not cut the public out of the process. What we're 
talking about here, is trying to create and introduce some 
flexibility into this system, into a system that's extremely 
rigid right now and keeps us from getting timely projects on 
the ground.
    I'll finish up simply by noting that CWPPs are turning into 
one of the most important aspects of the Healthy Forest 
Restoration Act for State foresters in particular. Credibility 
is being built, conflict is being reduced, high priority 
project are getting accomplished and individual responsibility 
is being promoted which is key to getting ahead of this 
problem.
    Thank you for your time and I'm happy to answer any and all 
questions.
    [The prepared statement of Mr. Jensen follows:]
   Prepared Statement of Jay Jensen, Executive Director, Council of 
                        Western State Foresters
    Mr. Chairman, members of the Subcommittee, my name is Jay Jensen 
and I am the Executive Director of the Council of Western State 
Foresters. I welcome the opportunity to testify before you today. The 
Council of Western State Foresters is comprised of the seventeen 
directors of the State and six Territorial Island forestry agencies of 
the West. The mission of the CWSF is to promote science-based forest 
management that serves the values of society and ensures the health and 
sustainability of western forests.
    The Council has been keenly interested in the development and 
implementation of the Healthy Forests Restoration Act of 2003, and 
continues to strongly support many provisions in that policy. In 
particular, State Foresters recognize the importance of managing 
forestland across ownership boundaries, and HFRA provides critical 
tools for accomplishing this work. Additionally, and the primary 
subject of my testimony today, HFRA formalized the role of communities 
in fire management. Community Wildfire Protection Planning charges 
communities with becoming active partners in their own protection from 
wildfire, and presents an unprecedented opportunity for engagement at 
the local level.
                       cwpp summary & background
    Title I of HFRA focuses primarily on fuels reduction on federal 
lands, and provides for the development of Community Wildfire 
Protection Plans (CWPP) for communities at risk of wildfire. Drafting 
CWPPs in collaboration with state, local fire and local government 
officials, communities identify prominent sources of fire risk, 
summarize structural ignitability concerns, and prioritize areas for 
fuels reduction treatment. The main purpose of CWPPs is for localities 
to improve their wildfire mitigation capacity while working with 
government agencies to coordinate efforts to identify high fire risk 
areas and prioritize areas for mitigation, suppression, and emergency 
preparedness management on both federal and non-federal lands. States 
have a legislatively-mandated and key role to play in the formulation 
of CWPPs, acting as long-term, landscape-scale coordinators and outside 
experts.
    To assist communities in the development of their CWPPs, an 
official CWPP handbook * was developed in March, 2004 by a 
collaborative work group consisting of the National Association of 
State Foresters, the Society of American Foresters, the Western 
Governors' Association, the National Association of Counties and the 
Communities Committee of the 7th American Forest Congress. This 
handbook helps to highlight the common ingredients necessary for 
successful CWPPs. Related, the National Association of State Foresters 
(NASF) issued a Field Guidance on Communities at Risk (June 2003), 
establishing a common definition for communities at risk and a process 
model for the prioritization of communities. These two guiding 
documents provide communities with powerful, easy-to-understand 
information that empowers them to take wildfire protection into their 
own hands.
---------------------------------------------------------------------------
    * The handbook has been retained in subcommittee files.
---------------------------------------------------------------------------
    It is also worth noting that CWPPs derive their collaborative 
direction from the nationally agreed upon blueprint for dealing with 
wildfire, the 10-year Strategy (2001), [A Collaborative Approach for 
Reducing Wildland Fire Risks to Communities and the Environment. A 10-
Year Comprehensive Strategy], and its companion document, the 
Implementation Plan (2002). Under direction from Congress, the Western 
Governors' Association in consultation with numerous stakeholders 
established a collaborative framework under the 10-year Strategy and 
Implementation Plan for decision-making and priority setting. It is 
clear that Congress has played a central role in empowering 
communities, and continued Congressional support for CWPP development 
and implementation is essential.
    Goal number four in the 10-Year Strategy is to ``promote community 
assistance'', with an emphasis on building community capacity and 
developing stronger incentives for community-level fire mitigation 
work. Current efforts to update the 10-year Implementation Plan are 
underway, and through this process stakeholders have clearly voiced 
support for CWPPs as an effective tool for empowering communities to 
function as partners in their own protection from fire. Further, we 
have found that when solutions are developed collaboratively and close 
to the local level, controversy and conflict are reduced. By 
identifying priority acres in need of treatment through this process, 
many believe that CWPPs contribute to a reduction in appeals and 
litigation of land management projects, thus expediting the reduction 
of fuel loadings, one of the main tenants of the HFRA and HFI.
                     cwpp implementation: successes
    As of the spring of 2006, more than 300 CWPPs that meet HFRA 
standards were completed in the West, providing community protection 
for more than 2,000 communities at risk. Nationally, an estimated 650 
CWPPs have been completed and approved with an additional 600 currently 
in progress. Several states have also completed community fire plans 
that don't yet meet HFRA requirements, thereby offering additional 
protection that is not reflected in the data. A state-by-state 
breakdown of the western CWPP efforts has been catalogued in a March 
2006 report by the CWSF, included in the appendix as a reference.
    States have used a diversity of CWPP methods and community-at-risk 
definitions, adapting the tools to fit their individual state laws and 
wildfire situations. Because states have undertaken differing 
methodologies by necessity, numerical comparisons between states do not 
tell an accurate tale of CWPP development. Likewise, when looking at 
the CWSF report, the number of CWPPs completed in each state should not 
be calculated as a percentage of the total number of communities at 
risk in the state to indicate a level of protection. Many CWPPs cover 
more than one community, and many states have utilized such different 
definitions of ``communities'' that calculating percentages would be 
uninformative and potentially misleading.
    The West is clearly moving toward increased community protection 
through the CWPP process. Identifying local concerns and prioritizing 
protection activities not only serves to attract agency attention to 
fire management needs, but the very process of CWPP development tends 
to increase community capacity and foster a heightened awareness of 
local fire risk and responsibility. Furthermore, as federal, local, and 
emergency personnel collaborate on a CWPP, they form lasting 
relationships that extend beyond the immediate task.
    With continued progress in local collaborative efforts, we expect 
to see reductions in conflict, appeals and litigation. We strongly 
encourage all decision-makers to maintain their long-term commitment to 
CWPP development and implementation as we believe local level decision-
making will go a long way toward solving our catastrophic wildfire 
problem.
          cwpp implementation: challenges and recommendations
CWPP Project Translation
    We do not know of any definitive data available on how many federal 
land projects identified under a CWPP have been translated into HFRA or 
other wildfire mitigation projects. We suspect that the actual numbers 
are low for reasons discussed in this testimony. However, we do know 
that the federal agencies are planning and in some instances have 
provided direction to the field to prioritize CWPP identified projects 
in fuels work. This will guarantee more CWPP projects getting 
translated into projects, and ensure that our limited funding is going 
to the highest priority treatments. We suspect that one reason why CWPP 
projects are not reaching the ground in meaningful numbers is because 
federal line officers already have a number of NEPA-ready projects on 
the books, ready to be implemented. Because of the lengthy process and 
resource commitment needed to develop NEPA projects (2-4 years at 
times), line officers are understandably reluctant to adjust their 
priorities until their investment in the NEPA-ready projects get off 
the ground. We believe that as these NEPA-ready projects begin to be 
implemented, we will see the emergence of new CWPP-driven HFRA 
projects.
Guidance
    This transition to CWPP-driven HFRA projects would be greatly 
enhanced by national level clarification of existing agency direction 
around integration of CWPP projects with HFRA authorities. Emphasis 
should be placed on the involvement of multi-agency groups working 
together to implement these projects. In many places, stakeholders have 
long requested guidance on collaboration, and ``characteristics of 
successful collaboration'' are forthcoming in the revised 10-Year 
Comprehensive Strategy Implementation Plan. This information should be 
distributed to field offices with detailed instructions for 
implementation.
Expectations
    Virtually all states report a common expectation in their 
communities: a completed CWPP will automatically lead to a stream of 
federal funding. This expectation is troubling for several reasons. 
First, it is inaccurate; HFRA and associated policy language urges 
federal agency planners to prioritize work recommended in CWPPs, but 
does not require them to conduct all of the projects suggested by 
communities. Second, when communities expect funding to follow their 
plans, they tend to write plans that cannot be implemented without 
outside support. Communities may invest in the analysis and process, 
but are too often unable to implement their ideas without federal 
agency involvement. Third, as agencies seek to build lasting trust with 
local entities through the collaborative process, they may be 
undermined when communities realize their expectations for federal 
funding will likely not be met. Finally, the rationale for a CWPP is 
meant to enhance individual responsibility, and not create a dependency 
on government.
Investment
    While there is no dedicated line item in the federal budget to 
support the development of CWPPs, some communities and state forestry 
agencies have found other funding sources to bolster their efforts. 
Most prominently, the State Fire Assistance (SFA) program, part of the 
USDA Forest Service's State and Private Forestry budget, directs 
federal funds to State agencies for work on community assistance and 
fire mitigation. These competitive cost-share funds are leveraged by 
communities for CWPP creation and implementation.
    In the West, it is now a requirement under the SFA that proposed 
projects be tied to a CWPP in order to be competitive. Without reliable 
federal funding to support communities' CWPP planning and 
implementation, there is a very real risk that the most vulnerable, low 
capacity communities will also become the least protected from fire. 
The Council believes the demand for State Fire Assistance greatly 
outstrips current availability of SFA funding for CWPP development and 
implementation and that increases in SFA or other dedicated funding can 
be put to demonstrated good use.
    Funding for collaborative fuels reduction work in some parts of the 
west also comes through the Secure Rural Schools Act. In particular, 
Titles II and III offer a funding stream for both collaborative 
processes and hazardous fuels reduction work on federal and private 
lands. Reauthorization and funding of the Act with continued 
flexibility for counties to undertake resource stewardship projects is 
a significant complement to HFRA authorities.
    Once a CWPP has been created, funding needs intensify. Hazardous 
fuel work is very expensive, easily on the scale of $1000/acre, and 
sometimes topping $2000/acre when mechanical means are utilized. 
Funding shortages can push land managers to use prescribed burning and/
or look toward more remote areas as cheaper alternatives that enable 
them to report higher acreage accomplishments. Many states report a 
chronic shortage of crews and equipment to implement projects that are 
ready. Other states suggest that the scale of the problem is so large 
that multi-agency, inter-disciplinary teams should be assembled to 
craft landscape scale projects across ownership boundaries. The simple 
story is that if we want more fuels reduction work in high-priority 
areas, additional investments will be necessary.
Performance Measures
    Another way to increase the number of CWPP--consistent projects 
being implemented is to establish performance measures that reward the 
agencies for linking project planning with CWPP recommendations when 
those ideas are consistent with existing land management plans. The 
Council encourages the development of CWPP--relevant performance 
measures. Currently, such efforts are underway in the update to the 10-
year Implementation Plan and will go a long way toward fostering CWPPs 
in prioritization decisions.
Appeals and Litigation
    We strongly support the HFRA objection process as a replacement for 
the lengthy appeals process that remains applicable to many non-HFRA 
projects. This issue is particularly important for the USFS, which is 
the only federal agency that deals with wildfire to have their appeals 
process codified in law. This rigidity reduces the agency's flexibility 
and lengthens their response time, thus delaying projects. Modification 
or outright repeal of the Appeals Reform Act is one option for 
dramatically reducing the impact of litigation on project timeliness.
    A number of our state members and their federal partners continue 
to report time delays due to project-level appeals and litigation. In 
one instructive example, the Middle East Fork Hazardous Fuels Reduction 
Project in the Bitterroot National Forest in Montana was developed 
through a collaborative CWPP process. Project implementation was 
delayed because two local environmental groups decided to seek 
alternatives after agreement had been reached on a CWPP project. This 
example underscores how important it is to achieve appeal and 
litigation reform, particularly in relation to wildfire mitigation 
projects. Systemic reform might prevent this story from replaying in 
other communities.
    In many instances, litigation is also the result of a lack of 
definitive science on controversial fire management problems. In 
particular, research that demonstrates the necessity and effectiveness 
of fuels reduction work to reduce fire risk broadly across the 
landscape is needed. Too often we hear that creating a small buffer 
around a home is all that is needed to protect life and property. The 
values associated with a functioning watershed, the critical habitat 
for an endangered species, and critical power and energy lines needed 
to keep hospitals, schools and our economy churning, do not stop 100 
feet from homes and critical infrastructure. Scientific evidence about 
reducing landscape scale fire risk would greatly enhance our ability to 
succeed in many of these lawsuits. We therefore recommend continued 
support for research programs, such as the Joint Fire Science Program, 
that directly address these ongoing fire management controversies.
                           concluding remarks
    All states have at least begun the process of creating CWPPs, 
although rates of completion vary considerably. Across the West, as of 
March 2006, 334 CWPPs have been completed and approved in accordance 
with HFRA guidelines. These, and countless other community-based 
wildfire planning documents, when implemented, will serve to protect 
our communities at-risk. That is why it is vital that CWPP-identified 
projects get translated into agency priorities. As communities and 
states begin to share success stories and lessons learned, progress 
will strengthen and accelerate. Already, templates and field guidance 
have been developed by a number of non-profit, government, and research 
entities to facilitate the process of community input into wildfire 
mitigation projects. Although it has been two full field seasons since 
the passage of the HFRA, we believe that we will soon see a faster ramp 
up of HFRA projects, more reflective of HFRA expectations.
    As this process begins to gather momentum, it will be vital to keep 
a focus on developing and revising CWPPs, and getting those projects 
translated onto the ground. Many who have been involved in CWPP 
development are quick to note that in many cases the process is itself 
a success. Collaboration around wildfire mitigation among local 
landowners, local governments, federal land management agencies and the 
states is creating lasting relationships that are invaluable for 
information sharing and community capacity building. Throughout the 
West, there is enthusiasm for improving collaborative efforts, 
protecting communities, and developing strong wildfire mitigation 
planning processes. These are the necessary ingredients to get the 
desired results of more acres treated on the ground.
    Last, although our testimony has focused on CWPPs and their 
relation to Title I of the HFRA, it is also worth noting that the HFRA 
includes several important titles in addition to Title I. The biomass 
provisions of Title II, the Watershed Forestry Assistance Program in 
Title III (for both private and tribal lands), and Title IV addressing 
insect infestations and disease provide key program elements designed 
to improve research, increase wood utilization, and address forest 
management concerns on a landscape scale in order to sustain and 
restore the health of forested watersheds. State Foresters from the 
CWSF and across the country have worked with the USDA Forest Service to 
develop implementation guidelines for the Watershed Forestry Assistance 
Program in Title III, and we hope to see this program receive funding 
for full implementation on both private and tribal lands. Among other 
goals, its purposes are closely tied to those of Title I, by improving 
landowner and public understanding of the connection between forest 
management and watershed health, it enables application of landscape 
scale approaches to forest rehabilitation and restoration.
    Thank you very much for having me today, and I welcome your 
questions.

    Senator Craig. Jay, thank you very much for that testimony. 
Now, let me turn to my colleague, Senator from New Mexico, Jeff 
Bingaman, Jeff.
    Senator Bingaman. Thank you very much Mr. Chairman, thanks 
all of you for being here. Rick, let me ask you a couple of 
questions. In your testimony, you talked about this Perk-
Grindstone project.
    Mr. DeIaco. Yes, sir.
    Senator Bingaman. I think we visited that.
    Mr. DeIaco. Yes, sir, we did.
    Senator Bingaman. Yes, I remember going out there by that 
reservoir.
    Mr. DeIaco. That's correct.
    Senator Bingaman. Now, your testimony says a 5,500 acre 
project called Perk-Grindstone was assessed as the number one 
Forest Service priority in 2000, when the Wildland Urban 
Interface Group started, because it is located directly 
southwest of the community and its a major portable water 
reservoir and treatment plan. This project remains hung up 
without a NEPA decision, remains unfunded, line officers are 
compelled to meet acre targets at the expense of community 
protection. This is absolutely unacceptable. Village Council 
signed a resolution encouraging the Lincoln National Forest to 
move forward with Perk-Grindstone earlier this year. What's 
broken in the system that here we are in 2006, this was 
identified as the number one priority project in 2000, and we 
still can't seem to get it done. What does this committee have 
to do or the Congress to get this kind of thing fixed?
    Mr. DeIaco. Thank you for that question and an attachment 
to my statement shows that matrix from 2001, that we had an 
action plan, that it shows that. The line officers began the 
process after HFRA. There was some work that was done in 2001, 
but it was grossly inadequate and they were going to come back 
to it. HFRA comes around and they started the process with 
that, they, in my opinion, were not able to take advantage of 
all the tools that HFRA might have given in terms of 
categorical exclusions in some areas.
    In terms of collaboration, this was a project that is so 
close and so tight on the community that its fire hazard 
reduction is imperative. There's two owl packs there. When they 
went through and put the proposed action together, it was 
consistent with the forest plan. In New Mexico, as you know, 
sir, the forest plan holds the MSO recovery plan and that's 
nothing over nine inches.
    In terms of fire hazard reduction, that was not 
satisfactory to the community. So, we, the working groups, so 
what we did was, through the working group, through the 
collaborative working group, we urged them to move to a 
preferred action, which allowed them to amend the forest plan 
and get into those areas and get some work done, some fuels 
reduction done in those, either in PACS or in critical 
habitats, which are the steep slopes.
    When they put that forward, it was objected to by an 
environmental group. That's fine, that's what they do. What 
happened, the Forest Service just continued to kind of back 
pedal on this, even after the community put together that 
resolution passed by the council and what precipitated from 
that was that the village and the environmental group got 
together and we have come up with a memorandum of understanding 
to get into those areas, look at it stand--in other words we 
solved the problem. So, we thought that was a done deal, but it 
turned out that the NEPA work was still not completed, still 
not satisfactorily completed and it was returned at the 
regional office.
    So, I think what the best thing that could possibly happen 
would be to get the correct--identify the correct training and 
performance measures that are necessary so that line officers 
can get the work done using HFR standards.
    Now, to the point of WUI versus what I call the easy acres, 
it's the push and pile burn kind of acres. What happened a few 
years back was that the Forest Service basically just expanded 
the WUI on the geography of the WUI and they expanded it to the 
northeast and, as you know, sir, in the southwest, fire comes--
basically the fire winds comes out of the southwest and so when 
you add 60, 70,000 acres to the northeast of the community, 
you're not doing any good for the community in terms of fire 
protection.
    That was a management decision. My opinion, that was a poor 
one, but what they can do then, is they can get acres and so 
that speaks to my comment about going after easy acres versus 
acres that'll do good for our community. I hope that answers 
that.
    Senator Bingaman. So basically your conclusion is that 
there are some of these requirements to get a certain number of 
acres, a target number of acres, are in fact, impeding the 
ability to put attention on the priority areas.
    Mr. DeIaco. That's exactly right. That's exactly right, and 
right now the performance standards are basically set on acres. 
Where for the most part they are set on numbers of acres burned 
gets you more money or however that process works.
    Senator Bingaman. So, the performance standards ought to be 
based on a number of priority acres burned?
    Mr. DeIaco. That's correct. That's correct, and treated 
some how or another and completely treated and that spoke to 
another comment earlier, if you're going to cut and pile, those 
acres get counted, then 3 years later they go back and burn, 
those acres are counted again in some degree. So, that's 
something that needs to get fixed and I think putting that in, 
and again, in the attachment I have there are some performance 
measures that might be a good starting point, and I hope that 
you folks can consider that.
    Senator Bingaman. Good. Well, thank you very much for being 
here. Thank you all for being here.
    Mr. DeIaco. Thank you, sir.
    Senator Bingaman. Thank you, Mr. Chairman.
    Senator Craig. Rick, that's valuable testimony and thank 
you. Matthew, Colleen and Jay, thank you very much for your 
testimony. I'm going to forgo any verbal questions at this time 
because we have run out of time and you've all been very 
patient today. We do truly appreciate you being with us.
    We will submit for you some questions, we hope you would 
expand in writing. For example, Matthew, additional words from 
environmental groups as it relates to the inter-play and the 
collaborative effort that's under way in all of that. I think 
it's important for this committee to understand it. Obviously, 
CWPPs relate to what counties are doing and beyond where you 
are going would be additionally helpful and any uniquenesses 
that our State foresters see and understand, Jay, is extremely 
important.
    We're going to be sitting down with stakeholders and the 
Forest Service again to look at our work product to see where 
it can be fine tuned at the same time adhering to the 
principals involved that were originally established in HFRA to 
get us to the business at hand and look at some of those kinds 
of difficulties that you've had, you've worked your way 
through, Rick, in your community with a uniqueness to the 
troubles you have. Obviously I've looked at the maps of your 
community and your surrounding area, I mean, you were a 
disaster waiting to happen and you're running hard right now to 
stay out in front of it and that's understandable. So we all 
know this is a critical issue for the West, for our environment 
at the same time for the balance that is critical to our public 
lands and their vitality. At the same time the uniqueness of a 
changing West and how we deal with this interface remains ever 
important.
    So, thank you, thank you all very much for your time and 
presence here today and you will be receiving questions from 
the committee, we hope you'll respond. And with that additional 
information that you want to place with it for the purposes of 
record. Thank you all very much, the subcommittee will stand 
adjourned.
    [Whereupon, at 12:22 p.m., the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

            Questions for Mathew Koehler From Senator Burns
    Question 1. What elements of HFRA have been most successful in 
getting effective treatments accomplished on the ground that increase 
the protection of homes, other private property, and infra-structure 
and municipal water supplies?
    Answer. This question is rather difficult to answer for the simple 
reason that since the HFRA was signed into law in December 2003 so 
little has been accomplished by the U.S. Forest Service using the HFRA. 
Our organization works primarily in the Northern Rockies and according 
to the U.S. Forest Service, FY 2006 on the ground accomplishments under 
the Healthy Forest Restoration Act were as follows:
    Montana--zero acres of fuel reduction accomplished on Forest 
Service land under HFRA.
    Wyoming--zero acres of fuel reduction accomplished on Forest 
Service land under HFRA.
    Because the Forest Service has accomplished zero on the ground 
acres using the HFRA in Montana and Wyoming I really can't directly 
answer the question regarding what elements of HFRA have been most 
successful in getting effective treatments accomplished on the ground. 
To date our experience in the Northern Rockies tells me that HFRA 
hasn't been successful at all in accomplishing much of anything on the 
ground.
    Furthermore, based on our experience with proposed HFRA projects in 
the Northern Rockies it appears that proposed treatments planned under 
the HFRA might actually increase the short-term fire risk thereby 
increasing the risk to homes, private property and firefighters.
    For example, in the Forest Service's own environmental impact 
statement (p. 3.1-38) for the Middle East Fork HFRA project on the 
Bitterroot National Forest they state: ``Generally, for logistical and 
economic reasons, the larger fuels are treated first and the treatment 
of smaller fuels typically follows 1-3 years later. During that time 
period, before treatment is complete, fire behavior severity is 
increased.''
    It makes little sense to our organization, as well as some members 
of the East Fork community near this HFRA project, to design and 
implement a fuel reduction project that unnecessarily places 
communities and firefighters at more risk because large trees far from 
homes will be logged first and slash piles will be untreated. 
Certainly, it's not too much to ask for the Forest Service to design 
projects in such a way as to immediately and effectively reduce fuels 
around homes and communities.
    However, based on our experience here in the Northern Rockies I'd 
like to take the opportunity to highlight our recommendations for all 
future HFRA projects. I strongly believe that if the following 
recommendations were followed that we would see an increase in 
effective fuel reduction treatments accomplished on the ground.
    Question 1a. What elements of HFRA have been most successful in 
getting effective treatments accomplished on the ground.
    Answer. For all future HFRA projects the WildWest Institute would 
urge:

          1. That a greater portion of the Forest Service ``Healthy 
        Forests'' budget be dedicated to non-federal lands in the 
        Wildland-Urban Interface. In FY 2007 the administration 
        proposes to spend only 4% of the funding in this area that 
        makes up 85% of the risk nation-wide.
          2. That when developing fuel reduction projects to protect 
        communities from wildfire the Forest Service and BLM focus fuel 
        reduction activities within the mile Community Protection Zone. 
        Given limited resources and limited time, it makes most sense 
        to focus fuel reduction activities immediately around a 
        community rather on the larger WUI, which in some CWPPs extends 
        out 1\1/2\ to three miles or more. Another advantage of 
        focusing limited time and resources within the CPZ is that we 
        can ensure that more at-risk communities are protected.
          3. That the Forest Service allow the local collaborative 
        process to work and together with a diverse set of stakeholders 
        help design authentic community wildfire protection and 
        restoration projects, not just timber sales under the guise of 
        community wildfire protection and restoration. In order to help 
        with this effort, the Forest Service should seek outside 
        facilitation for the HFRA collaborative process and begin 
        working more closely with independent researchers and 
        scientists at colleges and universities throughout the country 
        to make sure that protects are based on the best available 
        science.
          4. That old growth logging and cutting of large trees and 
        entry into roadless wildlands be prohibited in all future HFRA 
        and Healthy Forests Initiative projects. This practice only 
        serves to increase controversy and mistrust among various 
        stakeholders and takes valuable resources away from bona-fide 
        community wildfire protection and ecologically-based 
        restoration projects.

    Finally, I'd like to provide Members of the Committee with the 
following letter that was sent to Regional Forester Gail Kimbell from 
Mike Petersen, director of The Lands Council. As you may recall at the 
hearing, Forester Kimbell was called before the Committee and gave an 
account of the process surrounding the Myrtle Creek HFRA project near 
Bonners Ferry, Idaho.
    As you can see from Mr. Petersen's letter, Forester Kimbell 
provided the Committee with an inaccurate account of the Myrtle Creek 
HFRA process and project. I believe this is completely unacceptable 
behavior from Forester Kimbell and only serves to increase controversy 
and mistrust among various stakeholders. Our organization certainly 
expects more from public officials.

                                         The Lands Council,
                                        Spokane, WA, July 25, 2006.
Dear Regional Forester Gail Kimbell,

    Hello. I wanted to establish contact and give you a few thoughts 
about the Myrtle Creek project. A friend of mine, Matthew Koehler heard 
your recent testimony in DC about HFRA projects and I wanted to clarify 
the involvement of The Lands Council and other conservation groups.
    As background, The Lands Council has been involved in north Idaho 
for over a dozen years, our former Forest Watch Director lives near 
Priest Lake, and we have advocated for protecting the Selkirk Mountains 
for over a dozen years. In the late 90's we challenged the Myrtle 
Cascade timber sale, which proposed to log in inventoried roadless 
areas, those units were removed at that time. My forest watch director 
spent every summer as a child in Bonners Ferry, her grandparents 
operated a mill and her relatives still live in the valley, so the 
label of outsiders is inaccurate. In addition these are federal lands, 
which every American citizen has a stake in.
    Since our involvement in forest management on the Bonners Ferry 
District, the Kootenai Valley Resource Institute has formed, 
purportedly to bring people together to look at resource issues. The 
Lands Council has never been invited to be part of KVRI, although we 
were invited to take part in the subcommittee that looked at the Myrtle 
Creek HFRA.
    We were told early on that the project would not go into 
Inventoried Roadless Areas, and we focused our concern on 83 acres of 
old growth stands proposed for logging, which we opposed. The Idaho 
Conservation League, who is a member of KVRI, also believed there was 
no logging in Inventoried Roadless Areas, and so was generally 
comfortable with the project. I believe KVRI voted to support the 
project, even though a draft EIS had not yet been completed.
    When the draft EIS was released it became apparent that something 
had drastically changed, over half of the acreage was now in two 
Inventoried Roadless Areas (IRA's), and it included clearcuts (with 
reserve trees) in the IRA's. The project clearly does not meet the need 
of protecting the Bonners Ferry community that is 5 miles away and 
clearcutting is not a suitable treatment for a municipal watershed. The 
lower part of the watershed is damaged from a timber sale slash pile 
that was set on fire and burned several thousands of acres, followed by 
extensive public and private salvage logging.
    Given the national controversy over entry into IRA's, litigation in 
five states and the recent announcement from the Governor of California 
asking that all IRA's in his state be protected from logging, it seems 
a poor time to be planning a timber sale that would log two IRA's, as 
well as log in core Grizzly habitat.
    At the same time as the Myrtle Creek HFRA ``collaboration'' was 
taking place, The Lands Council, WildWest Institute, Sierra Club and 
Alliance for the Wild Rockies have been taking part in a very different 
collaboration on the Kootenai National Forest, one which I believe is 
having respectful, open dialogue. I believe we are on the way to 
finding common ground, helping rural communities protect themselves 
from wildfire and possibly bringing a small diameter mill to the Libby 
area for fuel reduction and restoration purposes. The Lands Council is 
also involved in a very successful collaboration on the Colville 
National Forest, a fledging effort on the Coeur d'Alene District of the 
Idaho Panhandle National Forest and we recently were part of a 
successful collaboration between dischargers, agencies and elected 
officials on the Spokane River.
    I would like to also see a successful resolution of the Myrtle 
Creek timber sale, and suggest that if the roadless and old growth 
units were dropped, our concerns would be addressed. I believe this 
would help us move forward together throughout the region and show that 
the Forest Service is sincere about collaborative efforts. The 
alternative is likely to be a contentious timber sale battle in core 
grizzly habitat and roadless areas that will gamer national attention. 
I hope we can avoid that.
    Please let me know your thoughts on the Myrtle Creek project and I 
will share these with the other conservation groups who are deeply 
concerned. I have cc'd relevant staff from Senator Crapo and Cantwell, 
who are both keenly, interested in National Forest Management, as well 
as the Mayor of Bonners Ferry, a Boundary County Commissioner, the 
Kootenai Tribe member of KVRI and the KVRI facilitator.
    Thank you for your attention to this matter.
            Sincerely,
                                             Mike Petersen,
                                                Executive Director.
                                 ______
                                 
     Questions for Commissioner Colleen MacLeod From Senator Craig
    Question 1. In your presentation, you indicated that one of your 
problems in implementing Union County's CWPP was due to regulatory 
barriers--PACFISH etc. Could you elaborate?
    Answer. The `Analysis Paralysis' that continues to clog management 
efforts and restoration efforts in our part of the world are based on 
some appallingly subjective science. It requires more procedural steps 
that delay projects, prevent treatment and add to the cost.
    Examples would be:
    Eastside Screens were a purported temporary early 1990's decision 
(supposedly 18 months) that no one seems to have the will to remove. It 
is a process where tree size determines treatment of areas to protect 
`old growth'. The theory being that a 21" dbh tree (diameter at breast 
height) is old growth and must be excluded from removal.
    The diameter of a tree does not determine age. There can be a 10 
year old tree and a 100 year old tree that have the same diameter. Tree 
size has many determining factors, including if the tree has gotten 
enough light and moisture. Overstocked stands prevent tree growth. 
Under the faulty science of Eastside Screens, leaving overstocked 
stands will guarantee small diameter trees, making the cure the cause. 
Allowing for only the cut of small diameter trees not only does not 
protect old growth trees, it does not make projects pay and requires 
the USFS to keep coming back to the federal well for management 
objectives.
    PacFish/Infish: where no treatment is allowed in riparian areas 
without more analysis. This insures that some of the worst fire hazard 
areas along water ways go untreated when they could be done 
economically and environmentally. When there is a finite amount of time 
to do busy work analysis, and a limited amount of money to be spent on 
projects that have no financial return on investment, some of this 
nation's most sensitive and threatened areas go untouched. They await 
the inevitable cauterizing wildfires that clog streams with sediment 
that kills fish.
    Question 2. You also mentioned delays caused by appeals and 
litigation. Have the expedited processes in HFRA helped at all?
    Answer. Our Union County Forestry Board has an assigned place at 
the table for the local environmental community. They attend meetings 
and raise concerns and still file appeals to halt projects. However, we 
understand the difference between collaboration and consensus and 
continue to move hopefully ahead. Locally the USFS has used the 
objections process on two projects. Our District Ranger has indicated 
the process is more efficient and produces a decision sooner than 
traditional appeals. It can allow for constructive dialog with those 
raising the objection prior to issuing a decision. It also allows for 
adjustments to the final decision and the NEPA document. It does not 
insure against litigation but in some instances can serve to somewhat 
lessen the threat.
    Question 3. You noted that, in Union County, private landowners 
were ``stepping up'' and reducing hazardous fuels on their property but 
that getting the projects done on the public lands was taking too 
long--what do county officials suggest we do to improve federal 
performance?
    Answer. Making the environmental community more accountable and 
responsible for their actions will help the federal state and local 
process.

  <bullet> They should have a requirement for actual and honest 
        participation in the local process
  <bullet> Their environmental documentation must pass muster
  <bullet> They should not be able to use litigation efforts to fund 
        their existence. It is a lucrative business to sue for legal 
        fees especially when the lawyers are staff an you are a non-
        profit as well

    If the federal government could allow for, and encourage a return 
on investment (ROI) on public lands. When every project is just 
expenditure, the resource goes untreated. Congress just sees the USFS 
requesting increasingly more dollars to manage public land and local 
schools and governments have to come asking for Congress for monetary 
relief for the lack of activity on the land that surrounds them. It 
does not have to be a clear-cut for dollars mentality to accomplish 
this objective. In our N.E. Oregon RAC, one project was made to pay for 
itself by cutting .6 (point 6) more trees per acres.
     Questions for Commissioner Colleen MacLeod From Senator Burns
    Question 1. What elements of HFRA have been most successful in 
getting effective treatments accomplished on the ground that increase 
the protection of homes, other private property, and infra-structure 
and municipal water supplies?
    Answer. Locally the USFS has used the objections process on two 
projects. Our District Ranger has indicated the process is more 
efficient and produces a decision sooner than traditional appeals. It 
can allow for constructive dialog with those raising the objection 
prior to issuing a decision. It also allows for adjustments to the 
final decision and the NEPA document. It does not insure against 
litigation, but in some instances can serve to somewhat lessen the 
threat.
    Question 2. In their testimony several of the witnesses have 
included statements about Forest Service personnel being in some cases 
very supportive and engaged with community collaborative planning, and 
in other cases other Forest Service personnel are not engaged and are 
not even helpful. Given how important collaborative planning is to 
successful HFRA projects what needs to be done to get all Forest 
Service personnel engaged and helpful with collaborative community 
planning efforts like Community Wildfire Protection Plans?
    Answer. Local collaboration is a mind set that requires both top 
down and bottom up support from the USFS and Congress; support that is 
a directive from D.C. supported and put into honest practice at the 
local offices. It has to come from earned trust in the process as well. 
In areas where local efforts are successful, it is usually because 
people have come to the table to honestly collaborate, and their 
efforts have been rewarded with results. People have ceased to trust 
agencies that merely count heads to provide collaborative proof that 
locals were involved. Local partners can generally get to collaboration 
if not consensus. The frustration and process breakdown comes from the 
delays caused by procedural paperwork requirements and litigation. That 
cannot be fixed locally, but must be repaired in the federal realm.
    Our Union County Forest Restoration Board has a position specific 
board, similar to the subsequent Resource Advisory Committees created 
through PL-106. We created it to involve and inform the community and 
to allow the USFS to educate the public about planned efforts and 
potential projects in the federal lands that surround us. We consider 
this effort an excellent model for local decision making and would be 
glad to provide a how-to report for other areas interested in 
duplication.
    Question 3. Several of the witnesses gave examples of successful 
locally developed collaborative solutions that were challenged/
appealed/or litigated by others outside of the community and thus 
stopping or at least holding up the implementation of the projects. Are 
there changes you would propose to prevent or at least minimize this 
from happening to HFRA projects? How about other fuel reduction 
projects completed under categorical exclusions, or more traditional 
environmental assessments or environmental impact statements?
    Answer. Very few USFS projects are remanded for the `wrong 
decision'; the remands are predominately based on `procedural 
requirements'.
    Reform of the process by which litigation has been allowed to 
roadblock efforts is most certainly a federal fix. When an outside 
group challenging a project can find a consistently willing ear in 
specific courts like the 9th Circuit, then it really does not matter 
how much local collaboration has happened or how much salvageable 
timber will be lost due to delay. The destruction and wildfire danger 
to rural residents not to mention the loss of our nation's wealth ought 
to have a different set of judicial requirements than making sure that 
is have been dotted and is have been crossed. You do not drown a 
wildfire in paperwork and red tape, you merely feed it. Organizations 
who challenge local collaborative efforts must be accountable:

  <bullet> They should have a requirement for actual and honest 
        participation in the local process
  <bullet> Their environmental documentation must pass muster
  <bullet> They should not be able to use litigation efforts to fund 
        their existence. It is a lucrative business to sue for legal 
        fees especially when the lawyers are your staff and you are a 
        non-profit as well

    Categorical Exclusions have been a better tool, but even those can 
take a year from start to finish. With environmental groups wanting no 
action, no matter what, there will always be efforts on their part to 
stop activity. The success of turning each one of those efforts around 
lies in changing the mindset that has been allowed to cloud actual 
science-based activity on federal land. That will happen when Congress 
demands ESA reform, peer-reviewed science and expedited processes like 
HFRA has attempted to provide.
                                 ______
                                 
              Questions for Jay Jensen From Senator Craig
    Question 1. You mention there are an estimated 2,000 communities 
that could complete the community wildfire protection plans, but that 
600 are completed and 600 are underway.
    How can we get the remaining 800 communities to complete these 
plans?
    Answer. First, allow us to clarify that as of March 2006, 324 CWPPs 
have been completed in the West, covering approximately 2,000 
communities. Building on this information, it is important to expand 
upon the link between the number of CWPPs completed and the number of 
communities protected. Our work in the West shows that states take a 
highly variable approach to defining communities, and that there is not 
a one-to-one correlation between Plans and communities. Many completed 
Plans cover multiple communities, or use the county as a planning unit 
to cover all of the communities within it. Therefore, it is difficult 
to say exactly how many communities still do not have a completed CWPP. 
Our estimates suggest that there are some 30,000 Communities at-risk 
nationwide, the vast majority of which are in the South, and that 
approximately 2,700 of the nationwide are currently covered under a 
CWPP.
    To encourage the remaining communities to complete their CWPPs, we 
believe efforts need to be made on two fronts. First, incentive 
programs in the form of technical and financial assistance will 
encourage communities to take action. State Foresters are ideally 
positioned to deliver these incentive programs and form the critical 
link between federal incentive efforts and communities. Second, when 
more CWPP projects begin to be implemented, more communities are likely 
to undertake the planning process themselves. Communities that see 
their CWPP efforts influence project prioritization and implementation 
decisions will be more motivated to engage and get new CWPPs drafted. 
In the West, fire mitigation dollars are now being limited to 
communities that have a completed CWPP. Thus, implementing CWPP 
projects, and publicizing those success stories, will help to foster 
momentum to get this important planning work completed.
    Question 2. The data that the Departments provided our Subcommittee 
suggest that 86% of the work completed to date under the Healthy 
Forests Restoration Act has occurred in the Wildland Urban Interface, 
yet you are concerned about the low number of recommended projects from 
Community Wildfire Protection Plans.
    Is your concern with the total amount of work undertaken, or that 
the agencies are not implementing the projects called for within the 
Community Wildfire Protection Plans?
    Answer. Our concern is primarily with the process of project 
prioritization, which ultimately impacts both the total amount and the 
specific projects being undertaken. CWPPs offer a tool that can assist 
forest managers as they sift through projects and assign limited 
resources to implementation. There is some concern that the federal 
agencies are backing away from the cooperative commitment necessary to 
deal with our western wildfire problem. However, there are ways to 
proceed. The 10-Year Comprehensive Strategy offers guidance for 
collaborative process that can frame project prioritization. Finally, 
clarifying the link between CWPP project implementation and existing 
Land Resource Management Plans would also help to streamline activity 
on the ground. As agencies become more comfortable utilizing that 
collaborative process and implementing CWPP projects, we will see 
greater success rates.
    Question 3. In your testimony, you mention that appeals and 
litigation continue to delay projects. You point to the Middle East 
Fork Hazardous Fuels Reduction Project in the Bitterroot National 
Forest in Montana and seem to suggest that the Appeals Reform Act 
(which was legislated through an Appropriations rider) should be 
repealed. You also said you do not seek a total elimination of the 
Forest Service Appeals process.
    Would your organization and the State Foresters support efforts to 
repeal the Appeals Reform Act and to direct the Forest Service to 
develop an appeals process similar to that used by the BLM or limit its 
use to areas outside the authority that the Healthy Forests Restoration 
Act provides?
    Answer. Modification or repeal of the Appeals Reform Act may be 
necessary, but we must ensure that a flexible and practical process is 
developed to replace it. Keeping the public involved and empowered in 
forest management is essential. Having a legitimate appeals process 
fosters credibility with the public that is needed by forest land 
managers as they work to treat the necessary acreages. For the most 
part, State Foresters do support modification of the ARA, and most 
agree that the HFRA pre-decisional review process is an improvement 
over the traditional appeals approach. Another problem with the process 
is the Equal Access to Justice Act, which as currently interpreted 
functions as a financial incentive that encourages appeals. Reformation 
this act, cognizant of environmental justices issues, into a ``loser 
pays'' system might help eliminate frivolous appeals.
    On principal, the Council of Western State Foresters tends to 
support avenues that offer a measure of flexibility, and the current 
ARA process is too rigid. An appeals system that is workable, flexible, 
and consistent across the agencies would go a long way toward keeping 
the public engaged, enhancing land manager credibility, and yet 
simultaneously minimizing time delays for project implementation.
    Question 4. Alternatively, could you describe an appeals process 
that you would recommend? Do you want that process to apply to just HFI 
projects or are you interested in a broader application?
    Answer. We believe the pre-decisional objection process works well 
for HFI projects, as it provides an appropriate balance between 
administrative review and the timeliness required for fuel reduction 
work. However, we are finding that given the urgency of this work, we 
recommend a shortening of the objection filing period to 14 days, more 
than enough time for interested publics that have been engaged.
    For projects not conducted with HFRA authorities, we generally 
support the continued existence of post-decisional administrative 
review. However, we do recommend two changes to the general appeal 
process. First, we recommend shortening the appeal filing period to 21 
days to help reduce project delay. We have found that appellants tend 
to be familiar with the project under consideration and therefore do 
not usually have additional time-consuming research to do before 
filing. Second, we recommend re-writing the 215 regulations to clarify 
the standing requirements for filing an appeal. Recent court rulings 
have shed light on this complicated question and regulations should 
reflect this judicial progress.
    Question 5. I indicated a need for the Forest Service and the BLM 
to find ways to undertake more mechanical treatments of overstocked, at 
risk, forested lands. You indicated that you have some ideas to help 
address my concern.
    Could you provide the Subcommittee with your thoughts on how to 
increase the number of acres treated through mechanical removal of 
those fuels? Please understand that we are not interested in trading 
off prescribed burning for mechanical treatment--rather, we would like 
to see both activities increased.
    Foresters are under a great deal of pressure to meet acreage 
treatment targets. In some locations, this has meant a tendency to 
utilize less expensive prescribed burning over mechanical thinning, 
even when conditions on the ground don't favor such an approach. 
Addressing the problem of targets as incentives for land managers is 
complex, and involves reform of performance measures and program review 
processes. Increasing appropriate treatment activities of all kinds 
will require a commitment to the quality, rather than the quantity, of 
fuels reduction work.
    One of the most significant barriers to mechanical treatments 
across the west is the lack of a market infrastructure to support 
material coming from treated acres. Simply put, if there are 
utilization markets in place, then treatments are cheaper and more 
acres can get accomplished. In many cases, that material consists 
primarily of small diameter wood that lacks commercial value in 
traditional mills. In other cases, supply is so uneven that mills have 
been forced to close and sometimes leaving valuable timber under-
priced.
    Biomass utilization offers a powerful way out of this dilemma by 
fostering forest health through the productive use of woody biomass for 
wood product and energy uses. The USFS Fuels for Schools program is one 
successful and growing example that links local schools and forest 
health; many new schools are being established that use woody biomass 
for heating, and older facilities are in some cases being retro-fitted 
to support this new technology. Increased federal investment in such 
programs will contribute significantly to a long-term solution for 
funding mechanical fuels treatments.
    Simultaneously, as we build our nation's biomass utilization 
capacity, we need to ensure a reliable supply. Long-term contracts, 
such as those found in Stewardship Contracting authorities, are a sound 
way to give businesses the certainty they need to secure bank loans for 
expensive fuel treatment equipment. Federal and state forest managers 
would benefit from increased education in the development and 
application of Stewardship Contracts.
    And perhaps the most effective policy incentive are production tax 
credits for electricity generation, such as those recommended recently 
by the Western Governors Association (http://www.westgov.org/wga/
meetings/am2006/CDEAC06.pdf). Tax credits can encourage the generation 
of renewable power and foster investment in those industries. The 
credits need to be long-term (again, to increase certainty in the 
business investment climate) and reflect parity for all renewables. 
Biomass needs to be put on par with other renewable energy credits so 
there is an even playing field. Only then will investment in 
infrastructure expand enough to support the woody biomass industry, 
thus reducing costs and increasing acreage treatments for land 
managers.
               Question for Jay Jensen From Senator Burns
    Question 1. What elements of HFRA have been most successful in 
getting effective treatments accomplished on the ground that increase 
the protection of homes, other private property, and infra-structure 
and municipal water supplies?
    Answer. The most important aspect of HFRA's Title I that has been 
implemented to date is the creation of CWPPs. When communities are able 
to become actively engaged in identifying areas near their homes that 
will improve their protection from fire, agencies are better able to 
prioritize the allocation of scarce resources. Coordination among state 
and federal agencies, local government, local fire departments and 
stakeholders, ensures comprehensive implementation of local priorities. 
CWPPs gives these communities ownership of the issue, and this 
ownership is the key to getting more landowners to take personal 
responsibility for wildfire mitigation around their homes and 
communities. The government alone cannot solve the problem. Cost-share 
funding made available for the implementation of CWPP projects on 
private lands will make these goals a reality.
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

                         Montana Wood Products Association,
                                         Helena, MT, July 21, 2006.
U.S. Senate Committee on Energy and Natural Resources,
Subcommittee on Public Lands and Forests.
Re: Healthy Forests Restoration Act Implementation

    These comments are submitted on behalf of the 17 member companies 
of the Montana Wood Products Association. All of the member companies 
as well as the 60 associate members of the MWPA rely upon the health of 
Montana's forests for their livelihoods.
    Montana's timber community worked diligently to ensure the passage 
of the HFRA in 2003. All three of Montana's Congressional members voted 
in favor of the bill.
    Citizens in our local communities have worked hard together to 
develop Community Wildfire Protection Plans. Many collaborative 
meetings have been held so the citizens could identify prominent 
sources of fire risk and prioritize areas for fuel reduction treatment. 
Many Montana communities are sitting in and near dead and dying 
national forests with watersheds and wildlife habitat at risk along 
with homes and humans.
    There are nine national forests in the State of Montana. Each of 
these forests should have, at a minimum, three HFRA projects underway. 
The acreage of each project should be at least 1,000 acres in size with 
50 percent of each project in the wildland urban interface. The needs 
of the citizens and the resource are there and crucial. The use of HFRA 
by the Forest Service in Montana is abysmal.
    The snail-like implementation of the HFRA is to say the least 
extremely disappointing. The process oriented Forest Service simply 
does not appear to be up to the task of moving in a timely manner. The 
first HFRA project in Montana took two full years from the beginning of 
meetings with local residents to the filing of litigation by outside 
individuals. One other HFRA project that has been proposed and has had 
active participation by local folks has a start date of 2009. This is 
hardly the goal of the HFRA to ``streamline'' the process to actually 
conduct work on the ground.
    The Forest Service must follow the letter of the law when 
implementing the HFRA but must do so expeditiously. Otherwise all of 
the hard work of so many will be for naught. They must work with the 
folks in the local communities using the Community Wildfire Protection 
Plans to develop projects that will provide both fuel reduction and 
restoration.
    The Middle East Fork project on the Bitterroot National Forest was 
the first HFRA project and has been litigated by the WildWest Institute 
whose director testified at the July 19th hearing about how involved 
they are in collaboration: They are currently plaintiffs in over 40 
lawsuits in Montana's federal district court involving millions of 
board feet of now rotting timber. This is a very distorted view of 
``collaboration''.
    Those individuals came in well after the local collaborative 
efforts had determined a proposed project and demanded the Forest 
Service accept a ``conceptual'' alternative for analysis. 
Unfortunately, the Forest Service worked with them and attempted to 
appease them by doing, an analysis even though their proposed 
alternative did not meet purpose and need of the project.
    Under HFRA the agency is required to analyze ``no action'' and 
``preferred action''. The final action by the agency was to drop large 
parts of the preferred alternative, again in an attempt to appease 
those threatening litigation. Of course the attempt failed and the 
serial litigators filed a lawsuit and asked for an injunction. So far, 
the Judge has denied each of the plaintiffs' requests, but the case is 
far from resolved.
    One point the Judge did make in his ruling on the Middle East Fork 
was that under HFRA he must make determinations using ``a balance of 
harms'' and he did so when denying the plaintiffs' requests. The 
balance of harm section of HFRA is extremely important and we are 
grateful for its inclusion in the statute.
    The pre-decisional appeal process in HFRA is also strongly 
supported by the MWPA. If there is to be an appeal process, it must be 
a speedy and workable one for the agency: It is extremely unfair for 
the wishes of the majority to be overpowered by a minute minority while 
the resource and environment suffers. We would prefer to see the HFRA 
process transferred to other land management activities and the Appeals 
Reform Act removed. It is simply a stalling tool used by the serial 
litigators.
    Detractors of HFRA claim logging cannot be part of the solution for 
the forests. Logging and subsequent milling of merchantable material is 
exactly the solution for Montana's ailing forest health. The same 
individuals have no scientific rationale to back up statements using 
words like ``environmentally harmful logging'' and ``industrial 
logging''. They do not intend to be part of solutions for Montana's 
rural at-risk communities but rather make a mockery of the public 
process.
    The Montana Wood Products Association continues to be a strong 
supporter of the legislation we helped to pass. Yet, there is an ever-
growing frustration regarding, planning and process without 
implementation of the critically deeded projects to restore our forest 
health. Without a stronger push from Congress to more quickly implement 
HFRA projects, it is doomed to failure. We request your help.
    Thank you for the opportunity to present these brief comments for 
your consideration.
            Sincerely,
                                            Ellen Engstedt,
                                          Executive Vice President.
                                 ______
                                 
        Statement of Craig E. Thomas, Forester, Stevensville, MT
                               background
    Since the fires of 2000 which burnt 300,000 plus acres in our area, 
I have spent several thousand (volunteer) hours meeting (517) with the 
USFS to obtain results on the ground.
    For instance: I and others formed the Forest Concessions Council 
(patterned after the Quincy Library Group) and spent every Monday 
evening 2-4 hrs for 18 months developing a proposal for the USFS called 
Frazier Draw, when this came back in a project from the USFS it was 
very changed and lost most of our direction. The USFS added enormous 
mitigation factors which ruined the project, especially the Aspen 
restoration. Confirm with Sonny LaSalle 406.375.0871, Mary Lee Bailey 
406.642,6379, Bill Grasser 406.821.3508,
    I volunteered forty clays to the effort to save the Lost Trail Ski 
Area from burning in 2000 and was instrumental in this successful 
effort (confirm with Bill Grasser 406.821.3508). This effort along with 
the changes in log availability caused the shutdown and resulting sale 
(at a loss) of our small sawmill.
    I with many others met with (Sula Club House fall 2000 see Bryon 
Kuahn) and requested that the USFS do something about the excessive 
vegetation buildup in the East Fork area (BNF Sula District). This 
finally resulted in the Middle East Fork Fuel Reduction project 
beginning under the newly implemented HFRA.
    Since the start of this project I and many others have spent 
hundreds and hundreds and hundreds of hours of volunteer efforts to 
help this project along.
    I personally have completed many forest restoration projects on 
private and USFS lands as examples for the USFS to use on our public 
lands. These are successfully completed or ongoing projects. Some of 
which are Burnt Fork Ranch (May June Bugle 2005 RMEF easement), Knopick 
pvt., Person pvt., Brown Valley Ranch (MT F&G easement), Antrim pvt., 
Bailey Pvt., Pattee Blue TS (Missoula Ranger District Vick Ronck 
administrator 406.531.9396), and others. I suggest reading 
``Miminicking Natures Fire'' by Arno and Fielder.
    I wrote and properly submitted an alternative T for the Middle East 
Fork Project. Mine was the only legal alternative submitted and it was 
not legally utilized under HFRA by the BNF. I objected and I was 
dismissed. This alternative is very simple and is based on successfully 
completed projects, the newest proven science, and the latest 
techniques. I have been unable to obtain legal consul to force a review 
of this alternative so my potential PHD witnesses remain unutilized. 
Since I have exhausted my personal savings volunteering on this issue I 
cannot proceed to get Equal Access to Justice as it does not apply to 
an experienced white male forester that is promoting active management. 
I simply cannot afford to personally pay for the legal fees necessary 
to properly address this public forest issue.
    Another irritating thing about this HFRA project in the Middle East 
Fork of the Bitterroot National Forest is that almost all of the public 
comment has been dismissed. For instance the USFS had many meetings to 
publicly develop their alternative and after finalizing the public 
process they have gone behind closed doors and negotiated away most of 
the public's comments to allow some form of a project to proceed 
because of extreme groups. This modified alternative now does not meet 
purpose and need, the forest plan, or public comment. Most certainly it 
does not meet the needs of the forest. What an absolute mess! This is 
not what HFRA is supposed to be about. Total failure!
    With this condensed background I offer the following comments:
    The HFRA is a nonfunctioning process. Within the scope of the 
FOREST PROBLEM NOTHING IS HAPPENING ON THE GROUND. As a concerned 
citizen it is impossible to successfully comment or assist the USFS.
    Finally at one USFS meeting I asked Matthew Kolher how he did 
hunting last season and he replied that he had shot a nice smaller 
whitetail buck on the Three Mile Game Range. So I asked him what he 
thought of my logging job there as the R/W is through a restoration 
project on the Brown Valley Ranch, and he replied that there was no 
logging where he hunted! To get to the Three Mile Came Range he had to 
drive through our project twice. A place where in June of this same 
year my son had log decks neatly stacked 15-20 high, and after a 
couple of months Matthew did not notice the area had been profitably 
logged as a restoration project.
    How can I help? Is it possible for me to help?
                                 ______
                                 
                                  Rocky Mountain Log Homes,
                                       Hamilton, MT, July 25, 2006.
U.S. Senate, Committee on Energy and Natural Resources,
Subcommittee on Public Lands and Forests.
Re: Healthy Forests Restoration Act Implementation

    Dear Mr. Chairman & Committee Members: Thank you for the 
opportunity to submit this written commits pertaining to the 
Implementation of the Healthy Forest Restoration Act (HFRA).
    After countless months of participation, consultation, comments, 
support and ultimately as an Intervener in Federal Court supporting the 
USDA Forest Service's first HFRA project in Region One--Middle East 
Fork--on the Bitterroot National Forest, I feel that I am in a unique 
position to report to you. It is a very mixed assessment.
    To the good: HFRA's approach to consider ``the balance of harms'' 
is the most important conceptual advance in Natural Resource Management 
Policy since the National Forest Management Act three decades ago. 
Finally, and let me repeat, finally the agency not only has the option 
but is require by law to consider management project in a holistic, 
truly pragmatic ecological approach. By this, I mean that Forest 
Service personnel, under HFRA must review projects, and clearly 
consider the outcomes both under ``no action'' and the other 
alternatives This is done in a context that effectively asks ``what is 
the best outcome for all the Forest and adjacent lands''. At last, 
there is an authority that acknowledges that action and disturbance is 
much, much preferred over a benign neglect that erodes the health of 
the forest and endangers watersheds, cumulative wildlife habitats as 
well as adjacent communities with massive fires. I believe that the 
concept of ``balance of harms should be amended into NFMA to insure 
that this analytical concept be used for all project throughout the 
Forest Service System.
    Many on the other side of the issue consider wildfires of any size 
to be natural, and philosophically a way to purge the evil impacts of 
mankind, or some such. True ecology should not set some false notion 
that a pre-Columbian, or worse, a prehistoric state as an ideal 
condition; rather, true ecology recognizes man as part of the natural 
system. HFRA does this much better than any other authority that the 
Forest Service now uses.
    Watching the Middle East Fork Project from inception the effort I 
have witnessed by the local Forest Service to communicate with their 
neighbors has been unparalleled, yet organized ``environmentalist'' 
organizations have attempted to drown out the majority of the local 
residents' concerns over fire risk. It would have been a much more 
healthy debate on the merits and methods of the proposed project had 
the mindset of the project's opposition was different. You see, in an 
unguarded moment they admitted publicly that they were concerned that 
``outside commercial logging interests'' might be able to make money. 
Consequently, I am left to conclude that the opposition desired either 
some style of welfare logging, or that they desired to see all 
contractors not to make money and therefore go broke.
    To the bad: I would throw out the concept of accepting and 
analyzing a local community-based alternative. While well-meaning, the 
idea has grown to a nightmare. The Middle East Fork project received 
two such outside alternatives. Effectively one admonished the Agency 
for not cutting enough trees and the other excoriated them for cutting 
too many! The sole similarity of the two public alternatives was that 
neither would have survived a judicial review for sufficiency as a 
fully fleshed-out plan. As a result, the agency dismissed one 
submission, and spent countless hours formalizing the other so it could 
suitably compare to the Forest's own plan. Effectively, the Forest 
wound up developing the third alternative itself. As part of the 
Healthy Forest Initiative, HFRA was designed to address the wildland 
urban interface. I conclude that the Forest Service would achieve much 
more from HFRA if, in the future, it is obliged to do only an action-no 
action analysis. Public input, ideas, and complaints would be handled 
pre-decisional.
    For the record, this Committee has already accepted testimony from 
a group who plainly used this committee's time to further broadcast its 
judicial complaint against the 1st HFRA project in Region One of the 
Forest Service, the Middle East Fork Project. While it was disclosed 
that the group did file a suit within the testimony, there was a 
glaring omission that the local Federal Court, upon consideration of 
similar and much more detailed exposition of information than was 
submitted to this Committee, denied the Preliminary Injunction and 
Restraining Order. The Court's order was clearly due to the 
consideration of balance of harms, both short and long term for the 
forest and adjacent lands.
            Respectfully submitted,
                    Patrick O. Connell, Certified Forester,
                               Vice President, Resource Operations.
                                 ______
                                 
                               Montana Logging Association,
                                                     July 26, 2006.
Hon. Larry E. Craig,
Chairman, Subcommittee on Public Land and Forests, U.S. Senate, 
        Committee on Energy and Natural Resources.
Re: HFRA of 2003--Subcommittee Hearing Comments

    Dear Chairman Craig: Thank you for the opportunity to comment on 
the above referenced subcommittee hearing held on July 19, 2006. The 
Montana Logging Association (MLA) represents approximately 600 
independent logging contractors, each of which operate a family-owned 
enterprise that harvests and/or transports timber from forest to mill 
in Montana. In Montana, the vast majority of timberland is managed by 
government agencies, most notably the U.S. Forest Service; therefore, 
the welfare of the MLA members is directly dependent upon the policies 
and actions of federal land managers.
    As you know, passage of the Healthy Forest Restoration Act (HFRA) 
in 2003 represented a fundamental change in how public land managers 
were directed to approach a national forest health crisis and the first 
major natural resource policy change in over 30 years.
    In 2002, Montana hosted over 12,000,000 acres Condition Class I, 
II, and III in non-wilderness/roadless. Therefore, as an Association, 
we were keenly interested in the content, authorities, and passage of 
the bill. However, we are currently frustrated by the hesitancy of the 
U.S. Forest Service to embrace and utilize this important and effective 
tool.
    It took over one year for Region One of the Forest Service to 
provide a directive to field officers and it has taken three years for 
this directive to result in action on the ground. Currently, Region One 
has five proposed HFRA projects--three in Montana and two in Idaho. 
Dominance for proposed treatment has been in the wildland urban 
interface. Too often, due to environmental pressure, acres outside the 
interface have been dropped from consideration. In addition, 
approximately 50 percent of the treatments are prescribed burn and too 
often the predominant logging system is helicopter.
    If you visit the http://www.healthyforests.gov web site, you will 
be able to view accomplishments listed under the Healthy Forest 
Initiative. However, this is extremely misleading . . . at least in 
Region One. Even though hazardous fuel reduction projects are listed as 
accomplishments--most of those acres have actually not been treated! 
Litigation and appeals in Region One has virtually brought active 
management to a stand still. There is something inherently wrong with 
an agency that reports to congress and the public that they have 
treated over 250,000 acres under HFI--when in fact, this simply isn't 
happening. In addition, these hazardous fuel reduction projects are not 
using the HFRA authority. Projects under HFRA are not even listed.
    So now, three and a half years following the passage of this 
landmark Act--what has really be accomplished and what provisions have 
resulted in changing condition class? We sincerely appreciate the 
subcommittee's attempt to ferret this information out.
    The Middle East Fork fuels reduction project was the first project 
under the HFRA authority in Region One. The project was the culmination 
of three years and hundreds of hours of meetings amongst collaborators 
and stakeholders. Even as such, groups that oppose logging have pushed 
this project into federal court. However, the court recently denied the 
plaintiffs' request for a preliminary injunction and subsequent request 
for emergency stay--which has prompted the plaintiffs to seek 
injunctive relief in the 9th circuit court of appeals.
    From the perspective of being intimately involved in these proposed 
projects; the provisions that have had the most positive impact in the 
local communities and in the courtroom are:

  <bullet> Community collaboration;
  <bullet> Identifying community fire protection zones;
  <bullet> Compressed environmental analysis
  <bullet> Pre-decisional process;
  <bullet> Balance of harms and;
  <bullet> Temporary preliminary injunction.

    From our experiences, we recommend the Forest Service and/or 
Congress:

  <bullet> Adopt the local community fire protection plans as the 
        Wildland Urban Interface for HFRA purposes;
  <bullet> Reinforce current NEPA statute language. The Forest Service 
        must follow HFRA guidelines when analyzing the no-action and 
        preferred alternatives. If an alternative is proposed from 
        outside the collaborative group and not representative of the 
        Purpose and Need, the Forest Service must not waste time and 
        money on further analysis and must reject these proposals and 
        must move forward in a timely manner;
  <bullet> Collaborate in a manner consistent with the 10-Year 
        Implementation Plan. The Forest Service must consider 
        recommendations by at-risk communities that have developed 
        community wildfire protection plans;
  <bullet> Make funding available to establish monitoring plots in 
        treated and untreated areas. This would be useful in analyzing 
        short-term and long-term outcomes of HFRA treatments and also 
        to determine the effectiveness of the Act;
  <bullet> Recognize that it is essential under current biological 
        conditions that funding for the Forest Inventory Assessment 
        (FIA) continue to increase and lastly;
  <bullet> Congress must revise the National Forest Management Act 
        (NFMA) by including the balance of harms and pre-decisional 
        appeals provisions for all federal resource management 
        decisions.

    In conclusion, we have watched the Forest Service flounder in 
confusion and inaction with regards to implementing hazardous fuel 
reduction projects under HFRA. If Congress is serious about moving 
condition classes back to historic fire regimes--the Forest Service 
simply must take restoration and rehabilitation opportunities under the 
HFRA more seriously.
    Again, thank you for this opportunity to comment and for the 
subcommittee's interest in this important federal land management tool.
            Sincerely,
                                             Julia Altemus,
                                               Resource Specialist.

                                     

</pre></body></html>
